Department of Defense
Agency Financial Report




2010       AFR
           November 15, 2010
FOREWORD
The Department of Defense Agency Financial                                 Agency Financial Report  (AFR)
Report (AFR) for Fiscal Year 2010 provides an 
overview of the Department’s financial                                     The AFR consists of the  Management’s Discussion 
                                                                           and Analysis that provides executive‐level 
information and performance goals and                                      information  on the Department’s history, mission, 
objectives.  It also describes our priorities in                           organization, key performance activities, analysis of 
response to challenges encountered in defense                              the financial statements, controls and legal 
of our nation.                                                             compliance and other challenges facing
                                                                           the Department.  
For FY 2010, the Department has chosen to                                  Additional information is available in Addendum A, 
produce the Annual Financial Report  as an                                 Other Accompanying Information of the AFR.
alternative to the Performance and 
Accountability Report (PAR).  The alternative 
report is intended to simplify and summarize 
information to increase transparency while                                 Annual Performance Report (APR) 
utilizing the Internet for providing additional 
details. The Department’s FY 2010reporting                                 The APR will be included in the Congressional Budget 
consist of three components:                                               Justification and will provide the detailed performance 
                                                                           information and description of results by performance measures.  

• Agency Financial Report –
  Published November 15, 2010

• Annual Performance Report –
  Published by February 7, 2011
                                                                           Summary of Performance and Financial 
• Summary of Performance and                                               Information
  Financial Information –
                                                                           This document will summarize the Department’s financial 
  Published by February 15, 2011                                           and performance information from 
                                                                           the AFR and APR, making the information more 
All three reports will be available at the Comptroller’s                   transparent and accessible to Congress, the public, and 
    website:                                                               other key constituents. 
    http://www.defenselink.mil/comptroller/reports.ht
    ml




                                                    We welcome your feedback 
                                                regarding the content of this report. 
                                                     To comment or to request 
                                                 copies of the report, please e‐mail 
                                                      us at DoDAFR@osd.mil, 
                                                             or write to:
                                                      U.S. Department of Defense
                                           Office of the Under Secretary of Defense (OUSD)
                                                             (Comptroller)
                                                        1100 Defense Pentagon
                                                      Washington, DC 20301‐1100
Department of Defense Agency Financial Report for FY 2010


Table of Contents
Message from the Deputy Secretary of Defense                  2

Management’s Discussion and Analysis                          3
    Fiscal Year 2010 Overview                                 3
    Mission                                                   5
    Organization                                              6
    Resources                                                 8
    Program Performance Overview                             11
    Message from the Chief Financial Officer                 18
    Financial Performance Overview                           19
    Management Assurances                                    29
    Managers’ Internal Control Program                       30
    Top Management Challenges and Management Responses       32
    Other Management Information and Initiatives             40

Financial Information                                        44
    Independent Auditor’s Report                             44
    Principal Financial Statements and Notes                 54
    Required Supplementary Stewardship Information          122
    Required Supplementary Information                      124

Appendix A: Glossary                                        129

Appendix B: Useful Web Sites                                130

Addendum A – Other Accompanying Information                 A-1

    Summary of Management and Performance Challenges         A-1
    Managers’ Internal Control Program                      A-22
    Improper Payments Information Act Reporting             A-32

Addendum B – Defense Security Cooperation Agency            B-1
    Principal Financial Statements and Notes                 B-1




                                               i
Department of Defense Agency Financial Report for FY 2010


MESSAGE FROM THE DEPUTY SECRETARY OF DEFENSE
I am pleased to present this Agency Financial Report, which identifies how
the Department of Defense (DoD) used public funds during the fiscal year
(FY) that ended September 30, 2010. The Department is fully committed to
proper accounting, reporting, and accountability for all its resources.
In FY 2010 – while military operations continued in
Afghanistan, Iraq, and elsewhere in the world – DoD
launched an equally important battle: to improve
efficiency, effectiveness, and cost-consciousness
within its own organization. Initial efforts focused on
ending or restructuring troubled or excess weapons
programs. In FY 2010, about 20 programs were
affected, with additional changes included in the
FY 2011 budget request.
The savings were substantial. The Nation’s difficult
economic and financial situation means, however, that
additional changes will be needed so the Department
can maintain the modest, real budget growth
necessary to sustain current force structure and make
additional investments in modernization.
In a series of statements and pronouncements during
the course of FY 2010, Secretary of Defense
Robert Gates challenged the Defense Department to find additional cost-
savings, primarily within its own business operations. Specifically, the
Secretary outlined a four-track approach for cutting support costs, with all
savings to be reinvested in higher priority warfighting needs:
   Make changes, primarily in business processes, significant enough to
   save $100 billion over the next five years.
   Solicit and implement cost-saving ideas from DoD employees and outside
   sources.
   Focus on far-reaching changes in broad areas, including acquisition,
   logistics, and military health care.
   Pursue the specific organizational and other changes outlined by the
   Secretary in a presentation on August 9, 2010.
This broad, multi-pronged effort will bear fruit for years to come, and will help
ensure that the Department manages taxpayer resources carefully and
effectively. In addition, it provides tangible evidence that the Department is
committed to making every defense dollar count.
Department of Defense Agency Financial Report for FY 2010


MANAGEMENT’S DISCUSSION AND ANALYSIS
FISCAL YEAR 2010 OVERVIEW
The FY 2010 defense budget was crafted to reshape the priorities of
America’s defense establishment, applying the lessons learned in
Afghanistan and Iraq while also
confronting the range of other potential
threats around the world. The DoD’s
strategy and budget in FY 2010 strike an
improved balance in three dimensions:
between prevailing in current conflicts and
preparing for a complex future; between
institutionalizing    proven       wartime
adaptations and preserving this nation’s
existing conventional and strategic
advantages; and between accelerating
acquisition and management reform while
                                            Secretary of Defense Robert Gates.
retaining proven best practices.
The Department remains committed to the goal of disrupting, dismantling,
and defeating al-Qaeda in Afghanistan and Pakistan. At the direction of the
President, beginning in December 2009, an additional 30,000 United States
(U.S.) troops deployed to Afghanistan to meet Operation Enduring Freedom
(OEF) mission requirements and implement the type of strategy that
produced significant progress in Iraq. The U.S. forces, deployed in
conjunction with international forces, operate under a strategic framework
based in large part on U.S. counterinsurgency doctrine, which focuses on
population security while also conducting counterterrorism operations.
The Department depends on America’s men and women in uniform to
execute its mission operations, and continues its commitment to attract and
take care of its all-volunteer force – DoD’s most important resource. The
approximately 2.3 million Active and Reserve Soldiers, Sailors, Marines, and
Airmen received pay increases and additional basic allowance for military
housing. In addition, approximately 9.3 million eligible Service members,
family members, and retirees received world-class healthcare.
The Department has placed continued emphasis in FY 2010 on improving
cyber defense capabilities to protect its vital information networks. The
Department established the new U.S. Cyber Command to address
vulnerabilities and meet the ever-growing array of cyber threats to military
information systems.
The Department invested in increased intelligence, surveillance, and
reconnaissance support for the warfighter, such as unmanned aerial
vehicles that have been in such high demand in both Afghanistan and Iraq.



                                                         Management’s Discussion and Analysis
                                              3
Department of Defense Agency Financial Report for FY 2010

The Department fielded more of our most
capable theater missile defense systems to
better protect our forces and those of our
allies in theater from ballistic missile attack.
After receiving the President’s approval in
September 2009, the Department started to
implement a phased, adaptive approach for
missile defense in Europe to respond to the
growing Iranian missile threat.
The Department continues to implement          An RQ-4 Global Hawk soars through the skies in route to record
                                               intelligence, surveillance and reconnaissance data. Because of
needed      reforms   that  improve    the     its large coverage area the Global Hawk has become a useful
effectiveness of how it acquires new           tool for recording data and sending it to warfighters on the
                                               ground.
defense systems to maintain the U.S.                                     (Courtesy Photo, Beale Air Force Base).
military’s technological and conventional
edge.     Over the past fiscal year, the
Department worked to implement the Weapon Systems Acquisition Reform
Act, intended to improve defense acquisition outcomes. The Department
also hired acquisition professionals to revitalize the defense acquisition
workforce and create a framework for restoring affordability and efficiency to
defense procurement.
In addition to acquisition improvements, the Department curtailed or
cancelled nearly 20 troubled or excess programs as part of the FY 2010
budget that would have cost more than $300 billion to complete. The
Department launched efficiency initiatives designed to significantly reduce
excess overhead costs and apply savings to force structure and
modernization efforts. These measures can ensure that the annual rate of
growth in warfighting needs is at the level
necessary to give the Military Services what
they require.                                   “DoD cannot expect America’s elected
                                                          representatives to approve budget increases
The Department is making significant         each year unless we are doing everything
progress     in   financial   management,    possible to make every dollar count.”
including moving toward audit readiness
and installing new financial systems.                         Robert M. Gates
Additionally, the business environment                        Secretary of Defense
within the operational theater strengthened
to improve effectiveness and ensure better control over resources. The
Department is also actively pursuing the Administration’s goal of further
reducing improper payments, demonstrated by reducing improper contract
payments by more than 75 percent in FY 2010.
In summary, during FY 2010, the Department sustained a military and
provided necessary capabilities to fight two wars; confronted global terrorist
threats; and provided needed humanitarian assistance and disaster
response. Throughout, the Department remained focused on taking care of
its people and their families.


                                                                   Management’s Discussion and Analysis
                                                     4
Department of Defense Agency Financial Report for FY 2010

Mission
One of the core responsibilities of the U.S. government is to protect the life
and liberty of the American people or, as phrased in the Constitution, to
―provide for the common defense.‖ The mission of the Department of
Defense is to provide the military forces needed to deter war and to protect
the security of our country. Today’s DoD plays a critical role in defending
and advancing the safety and security of
American citizens and interests. Whether
in a period of peace or war, the U.S. Armed      DoD Mission Statement
Forces have prepared for the unexpected,            Provide military forces
deterred aggression, responded to attack,
                                                    needed to deter war and protect
rebuilt nations emerging from the ravages
                                                    the security of our country.
of conflict, and helped create and maintain
a stable and resilient international system.
The United States faces a complex and uncertain security landscape in
which the pace of change continues to accelerate. The distribution of global
political, economic, and military power is becoming more diffuse. The rise of
China, the world’s most populous country, and India, the world’s largest
democracy, will continue to shape an international system—one in which the
United States must increasingly work with key allies and partners to sustain
stability and peace.
America’s interests link to the integrity and
resilience of the international system. Chief
among these interests are security,
prosperity, broad respect for universal
values, and an international order that
promotes cooperative action. Consistent
with the President’s vision, the United
States will advance these interests by
strengthening our domestic foundation and U.S. Agency for International Development Administrator Rajiv Shah, Defense
integrating all elements of national power; Secretary Robert M. Gates, Secretary of State Hillary Rodham Clinton, moderator
                                               Frank Sesno, take part in the U.S. Global Leadership Coalition discussion in
engaging abroad, based on mutual interest Washington, D.C., Sept. 28, 2010.
and mutual respect; and promoting an                                                              DOD photo by Cherie Cullen

international order that advances our interests by reinforcing the rights and
responsibilities of all nations.
America’s interests and role in the world require armed forces with
unmatched capabilities and a willingness on the part of the nation to employ
them in defense of our interests and the common good. The United States
remains the only nation able to project and sustain large-scale operations
over extended distances. This unique position generates an obligation to be
responsible stewards of the power and influence that history, determination,
and circumstance have provided.




                                                                          Management’s Discussion and Analysis
                                                           5
Department of Defense Agency Financial Report for FY 2010

Organization
Since the creation of the Continental Army in 1775, the U.S. military has
evolved to become a global presence. The Department embraces the core
values of all successful organizations: leadership, professionalism, and
technical knowledge. Its employees are dedicated to duty, integrity, ethics,
honor, courage, and loyalty.
The Department is the successor agency to the National Military
Establishment created by the National Security Act of 1947 (50 U.S.C. 401).
The National Security Act Amendments of 1949 established DoD as an
executive department with the Secretary of Defense as its head.
Under the President, who also is Commander in Chief, the Secretary of
Defense exercises authority, direction, and control over the Department.
The Department is composed of the Office of the Secretary of Defense; the
separately organized military departments of the Army, Navy, and Air Force;
the Joint Chiefs of Staff providing military advice; the unified Combatant
Commands; the Defense Agencies; the DoD Field Activities; and such other
offices, agencies, activities, and commands as may be established for
specific purposes. Figure 1-1 shows how the Department is structured.



 Figure 1-1. Department of Defense Organizational Structure
                                                        Secretary of Defense
                                                    Deputy Secretary of Defense

                                                                                                Office of the Inspector General
                                                                                                of the Department of Defense


    Office of the                                                                                             The Organization
                              Department                 Department                 Department                of the Joint Chiefs
    Secretary of
      Defense                 of the Army                of the Navy              of the Air Force                  of Staff
 • Under Secretaries,          Secretary                  Secretary                   Secretary                Chairman of the
                              of the Army                of the Navy              of the Air Force              Joint Chiefs of
 • Assistant Secretaries,                                                                                             Staff
   and                       Office     The      Office Office of Headquarters    Office of     The
 • Other Specified           of the     Army      of the    the     Marine           the         Air                   The
   Officials                Secretary   Staff    Chief of Secretary  Corps        Secretary     Staff               Joint Staff
                             of the               Naval    of the                  of the
                              Army              Operations Navy                   Air Force
           Defense
           Agencies
                                         The     The               The Marine                    The
                                        Army     Navy                Corps                    Air Force
           DoD Field
           Activities                                                                         Combatant Commanders
                                                                                          • US Africa Command
                                                                                          • US Central Command
                                                                                          • US European Command
                                                                                          • US Joint Forces Command
                                                                                          • US Northern Command
                                                                                          • US Pacific Command
                                                                                          • US Southern Command
                                                                                          • US Special Operations Command
                                                                                          • US Strategic Command
                                                                                          • US Transportation Command
  B10-01




                                                                                Management’s Discussion and Analysis
                                                              6
Department of Defense Agency Financial Report for FY 2010

Office of the Secretary of Defense
The Office of the Secretary of Defense
includes: the offices of the Deputy
Secretary of Defense; Under Secretary of        Department of Defense
Defense for Acquisition, Technology &           Service Components
Logistics; Under Secretary of Defense for
Policy; Under Secretary of Defense
(Comptroller)/Chief Financial Officer, DoD;
Under Secretary of Defense for Personnel
and Readiness; Under Secretary of                                                       B10-08

Defense for Intelligence; Deputy Chief
Management Officer; General Counsel of the Department of Defense;
Inspector General of the Department of Defense; Assistants to the Secretary
of Defense; Director of Operational Test and Evaluation; and such other staff
offices established by the Secretary of Defense to assist in carrying out his
duties and responsibilities. The heads of these offices are staff advisers to
the Secretary and perform functions he assigns to them.

Military Departments
Each of the Departments of the Army, Navy, and Air Force, organized under
its own Secretary, functions under the authority, direction, and control of the
Secretary of Defense. The Secretary of each military department is
responsible to the Secretary of Defense for the operation and efficiency of
his department. The military departments receive orders through the
respective Secretaries or their designees, as established by the Secretary of
Defense or provided by law.

The Joint Chiefs of Staff
The Joint Chiefs of Staff consist of the Chairman, the Vice Chairman, the
Chief of Staff, U.S. Army; the Chief of Naval Operations; the Chief of Staff,
U.S. Air Force; and the Commandant of the Marine Corps. Subject to the
authority of the Chairman, they constitute the immediate military staff of the
Secretary of Defense. The Chairman is the principal military adviser to the
President, the National Security Council, and the Secretary of Defense.
Other members of the Joint Chiefs of Staff are the senior military officers of
their respective services and are military advisers to the President, the
National Security Council, and the Secretary of Defense.

The Combatant Commands
The commanders of unified Combatant Commands are responsible to the
President and the Secretary of Defense for accomplishing the military
missions assigned to them and for exercising command authority over
forces assigned to them. The operational chain of command runs from the
President to the Secretary of Defense to the commanders of the Combatant
Commands.


                                                          Management’s Discussion and Analysis
                                              7
Department of Defense Agency Financial Report for FY 2010

Resources
The Department requires resources (personnel, facilities and infrastructure,
and budget authority) to carry out key missions and execute management
reforms. The strategic placement of our personnel, installations, and
facilities are key for protecting our homeland and national resources. These
resources have never been more important than they are today as the U.S.
fights terrorists who plan and carry out attacks on our facilities and our
people.
Our workforce consists of more than three          Figure 1-2. Staffing for FY 2010
million employees, both afloat and ashore,                              (As of August 31, 2010)
deployed throughout the world to meet                         Reserve
                                                                                           Active Duty
                                                              388,902
mission requirements. Nearly half of the           Civilian
                                                               12%                          1,435,731
                                                   790,559                                     47%
Department’s workforce is comprised of men          26%
and women on Active Duty. To provide
Americans with the highest level of national
security, the Department consists of more
1,435,731 men and women on Active Duty,
859,436 Reserve and National Guard, and
790,559 civilians (Figure 1-2).                      National Guard
                                                         470,534
During FY 2010, the Department mobilized                  15%
                                                                                                  B10-02
approximately 120,000 Reserve Component
members at any given time. The men and women of the Reserve and
National Guard provided security and assistance in both the Afghanistan and
Iraq theaters and maintained aircraft in the Horn of Africa, to name a few of
their many missions. The skills and capabilities of the Reserve Component
members match current and anticipated DoD requirements, thereby reducing
the stress on the total force while increasing the capacity.
In FY 2010, every Service and all Components (Active and Reserve) again
met or exceeded not only the aggressive numerical goals that had been set
for new recruits, but also rigid quality goals for these recruits, including
education and aptitude. The nation can be proud of these achievements, as
well as the commitment of Service members and their families, as reflected in
record high retention-rates.
Throughout FY 2010, the civilian workforce continued to play a critical role in
supporting the accomplishment of DoD’s mission. In FY 2010, we witnessed
their continued voluntary and enthusiastic participation in new and challenging
roles, especially in support of DoD’s wartime efforts. The newly established
Civilian Expeditionary Workforce Program has deployed volunteers to war
zones to serve in career fields as far-reaching as intelligence, public affairs,
policy development, and logistics. The remarkable people who comprise
civilian and military teams are the Department’s greatest asset in providing a
strong and agile national security response.



                                                              Management’s Discussion and Analysis
                                               8
Department of Defense Agency Financial Report for FY 2010

The Department’s worldwide infrastructure includes nearly 539,000 facilities
(buildings and structures) located at more than 5,000 sites around the world,
on more than 28 million acres. These sites vary greatly in size. They range
from the very small (an unoccupied site supporting a single navigational aid
that sits on less than one-half acre of land) to the vast and immense, such
as the Army's White Sands Missile Range in New Mexico (with over
3.6 million acres) or the Navy’s large complex of installations in Norfolk,
Virginia. To protect the security of the U.S., the Department operates
approximately 15,800 aircraft and 500 ships.
To support mission requirements, the                Figure 1-3. Department of Defense
Department continues to focus on investing          FY 2010 Enacted Budget ($691.2B)
financial resources effectively to meet the                      OCO          Haiti
needs of the warfighter and the ever-changing        OCO         Supp        Supp           Base
                                                    $129.5B     $32.8B       $0.7B         Budget
battlefield. We continue to invest in weapon         (19%)       (5%)        (<1%)         $528.2B
systems and capabilities to counter                                                         (76%)
21st Century threats, support the workforce,
and accomplish mission requirements and
objectives. During FY 2010, DoD’s enacted
budget authority amounted to $691.2 billion.
Figure 1-3 depicts the composition of DoD’s
budget authority.
The Overseas Contingency Operations                    Budget by Appropriation        $ in Billions

(OCO) resources enable the Department to               Military Personnel                 151.8
                                                       Operation and Maintenance          298.0
support and to fund efforts in Afghanistan,
                                                       Procurement                        126.5
Iraq, Pakistan, and other areas around the             RDT&E                               85.5
globe. In Iraq, the Department executed the            Military Construction               22.4
responsible drawdown of forces as it                   Family Housing                       2.3
                                                       Revolving Funds                      4.7
concluded Operation Iraqi Freedom and                  Total                             $691.2       B10-17
transitioned to Operation New Dawn. In
Afghanistan, U.S. forces increased in FY 2010 to execute the President’s
plan. The U.S. troops continue to work with Afghan Security Forces and
international partners to build a country that will not be a safe haven for
terrorists.
The Department’s funding levels ensured the nation could meet all national
security objectives. Funding enabled the Department to maintain readiness
to conduct missions abroad and a full spectrum of training, combat training
center rotations, and recruiting and retention efforts. Modernization and
recapitalization of equipment, focused on today’s threats, greatly improved
combat capabilities. These new capabilities included procurement and
development of platforms, such as the fifth generation Joint Strike Fighter
aircraft; the Littoral Combat Ship; unmanned aerial vehicles, such as Global
Hawk and Predator; new generation ground vehicles, such as the Stryker;
communications, navigation, missile warning, space situational awareness,
and environmental monitoring satellites; and missile defense systems.


                                                           Management’s Discussion and Analysis
                                                9
Department of Defense Agency Financial Report for FY 2010

In FY 2010, resources funded the construction and maintenance of
additional modernized housing, both government-owned and privatized.
These constructed housing units support the Army and Marine Corps’
growth in ground forces. In addition, DoD built wounded warrior facilities
and schools and recapitalized other medical facilities. The Department
funded the operation of 254 commissary stores and education for over
85,122 students in 191 schools.
In addition, the Department provided critical
logistics, transportation, and communication
capabilities to meet urgent disaster relief
requirements in response to the devastating
magnitude 7.0 earthquake that struck Haiti.
The DoD also responded to Pakistan’s call
for humanitarian assistance as part of a
multinational effort following the tragic and
devastating flooding that started on
July 29, 2010.
The Base Realignment and Closure (BRAC)
initiative continued with $7.5 billion in
funding to keep the Department on track to                                                                                                                                    Men from the town of Kalam, Pakistan, form a chain to quickly unload a U.S.
                                                                                                                                                                              Army Chinook helicopter that is delivering humanitarian assistance and picking
meet its 2011 completion date. Military                                                                                                                                       up victims of the flood in the Khyber Pakhtunkhwa province, Aug. 10, 2010.
construction is well underway and                                                                                                                                                                                                                                                                        DOD photo
personnel movements have begun.
To ensure the security of the U.S., the Department remains dedicated to
obtaining the required resources and making the best use of them. Taking
care of our people, reshaping and modernizing the force, and supporting our
troops in the field also remains a high priority for the Department, which is
committed to spending funds carefully and effectively.


                                                                               Haitian children watch as U.S. Marines and Sailors with Operation Continuing Promise2010 (CP10) repair a hospital roof in Port-de-Paix, Haiti,
                                                                               July 29, 2010. CP10 was a collaborative betwe n military and civil an personnel that provided humanitarian assistance and disaster relief to the residents of
                                                                               Caribbean and Central and South Americancountries.
                                                                                                                                                                (U.S. Marine Corps photo by Sgt. Samuel R. Beyers/Released) DOD photo




  Haitian children watch as U.S. Marines and Sailors with Operation Continuing Promise 2010 (CP10) repair a hospital roof in Po rt-de-Paix, Haiti,
  July 29, 2010. CP10 was a collaborative between military and civilian personnel that provided humanitarian assistance and disaster relief to the residents of
  Caribbean and Central and South American countries.
                                                                                                                                                                                                                                               (U.S. Marine Corps photo by Sgt. Samuel R. Beyers/Released) DOD photo




                                                                                                                                                                                                                                                         Management’s Discussion and Analysis
                                                                           10
Department of Defense Agency Financial Report for FY 2010

Program Performance Overview
Department of Defense Strategic Plan
The Department examines America’s
defense needs by conducting                the
Quadrennial Defense Review (QDR). This
review examines national defense strategy,
force structure, force modernization plans,
infrastructure, budget plans, and other
elements of the defense program and
policies of the United States, consistent with
the most recent National Security Strategy
and National Military Strategy. The QDR
report constitutes DoD’s strategic plan.
In FY 2010, the Department completed and
issued the latest QDR; however, DoD
formulated the goals for FY 2010 before
                                                Defense Secretary Robert M. Gates conducts a press conference at the
completion of this latest QDR. Thus the         Pentagon, August 9, 2010. Gates said he is taking steps to reduce overhead
goals do not reflect that document’s            and flatten the DoD organization. With these moves, the secretary said, he
                                                wants to instill a culture of saving in the department.
conclusions.      Instead, the Department                                                           DoD photo by Cherie Cullen
based the FY 2010 goals, depicted in
Figure 1-4, on the 2008 National Defense Strategy objectives, plus an
additional objective focused on business operations.

    Strategic Goal 1, ―Win Our Nation’s
    Wars,‖ focuses on the ongoing conflict
    and extended stabilization campaigns in                      Figure 1-4. FY 2010 Strategic Goals
    Afghanistan and Iraq.
    Strategic Goal 2, ―Deter Conflict and                           Goal 1                Goal 2                Goal 3
    Promote       Security,‖   focuses on                           Win Our            Deter Conflict          Defend
    integrated security cooperation and                             Nation’s           and Promote              the
    reorienting the Armed Forces to deter                            Wars                Security             Homeland
    and defend against transnational
    terrorists around the world.
                                                                                Primary Warfighting Goals
    Strategic Goal 3, ―Defend the Homeland,‖
    focuses on DoD’s contributions to our
    homeland defense mission. Success,                                                    Goal 4
    under this goal, requires that all elements                                Integrate Business Operations
    of national power work together to protect
    our national interests.
                                                                                     Supporting Goal                   B10-04
    Strategic Goal 4, ―Integrate Business
    Operations,‖ focuses on improving and
    integrating DoD business operations to
    better support the warfighter.


                                                                           Management’s Discussion and Analysis
                                                            11
Department of Defense Agency Financial Report for FY 2010

Department of Defense Performance Hierarchy
Primary responsibility for performance
improvement rests with the Deputy                     Figure 1-5. FY 2010 Strategic Goals
Secretary of Defense in his role as the Chief
Management Officer (CMO). The Deputy                               Mission
                                                                   Drivers
Secretary is assisted by the Deputy                   National
CMO/DoD       Performance       Improvement           Security
Officer, who advises and integrates                   Strategy
                                                                 National
performance     information     across    the                    Defense
Department. The Principal Staff Assistants                       Strategy
within the Office of the Secretary of                 National                Mission
Defense, in coordination with the Joint               Military
                                                      Strategy               Strategic
Chiefs of Staff, recommend the strategic                                      Goals
objectives   and     performance      targets,
                                                                              Strategic     Personnel
determined to be the most relevant for                                       Objectives     Accountability
enterprise (DoD-wide) strategic focus. The
strategic objectives and performance                                 OSD Enterprise-Level
targets (measures and milestones) are                                Performance Targets
subject to annual refinement based on
changes in missions and priorities.                                  DoD Component-Level
                                                                     Performance Targets
Figure 1-5 highlights that every level within
the Department is accountable for                                       Program-Level
performance and delivering results.                                  Performance Targets
                                                                                                B10-05
FY 2010 Department of Defense Key
Performance Outcomes
The Department’s initial FY 2010 Performance Plan included
53 performance targets at the enterprise (DoD-wide) level. Subsequently,
the Deputy Secretary of Defense, in his role as CMO, approved a number of
changes based on new Administration
direction calling for, among other things,       Figure 1-6. FY 2010 DoD Key
development of a limited number of Priority
Performance Goals.         As a result, the
                                                 Performance Outcome Analysis
                                                      Targets               Targets
Department increased the number of                    at Risk              on Track
enterprise-level performance targets, from 53          26%                   74%
to 66 targets, in FY 2010.
The following tables, organized by DoD
Strategic Goal and Objective, depict 19 key
performance outcomes for FY 2010. Unless
otherwise stated, the tables report progress
through third quarter, FY 2010. Based on
third quarter data, the Department is on track        74% of Performance Targets on Track
                                                                                                     B10-18
to meet 74 percent (Figure 1-6) of these key
outcomes.


                                                                 Management’s Discussion and Analysis
                                                 12
Department of Defense Agency Financial Report for FY 2010

Strategic Goal 1: Win Our Nation’s Wars
Two key performance outcomes reflect the Department’s success in meeting
its military operational objectives in Afghanistan and Iraq. As reflected in the
following chart, all Combatant Commanders reported they were ready to
execute 100 percent of their Current Operations. In addition, the Joint
Contracting Command (JCC) was successful in addressing critical personnel
shortfalls in theater. As of third quarter, the JCC achieved its longer term
goal for maintaining a 90 percent assignment rate of Contracting Officer
Representatives (CORs) supporting Afghan contingency operations.

  STRATEGIC GOAL 1: WIN OUR NATION’S WARS
                                                                       Annual Performance Targets/Results
                                   Strategic Plan Long-Term                                      FY 2010
    Performance Measures                                               FY 2009      FY 2010
                                     Performance Targets                                          3 Qtr
                                                                       Results      Targets
                                                                                                 Results
 Strategic Objective 1. OCO: Successfully conduct Overseas Contingency Operations (OCO) and support
                             contingency business operations.
 1.OCO: Percent of the
                                 1. OCO: For each fiscal year,
 Combatant Commanders’
                                 DoD COCOMs will be ready to
 (COCOMs) Current -Operations                                        100%         100%         100%
                                 execute 100 percent of Current
 which they report ready to
                                 Operations.
 execute
                                 1. OCO: Beginning in FY 2012,
 *1.OCO: Percent assigned of     the DoD will maintain an
 required Contracting Officer    assignment rate of 90 percent of
                                                                     Not
 Representatives (CORs)          required Contracting Officer                     85%          90%
                                                                     Available
 supporting Afghan contingency   Representatives (CORs)
 operations                      supporting Afghan contingency
                                 operations.
 *Reflects DoD priority goal.

Strategic Goal 2: Deter Conflict and Promote Security
Five performance outcomes are key to satisfying the Department’s
deterrence missions and achieving its national security objectives. The first
two targets focus on Combatant Command readiness. As of third quarter,
all Combatant Command reported they were ready to execute 100 percent
of their Core or Theater Campaign Plan missions; however, they are falling
short in meeting the goal of being ready to execute all of their Contingency
Plans due to heavy resource commitment to our current efforts in
Afghanistan. A third measure focuses on DoD Special Operations Forces’
capability to address irregular/unconventional warfare. As of third quarter,
the Department surpassed its annual target for increasing the number of
DoD Special Operations personnel and is on track to meet its technology
security actions target for providing international partners with access to
equipment, technology, and training. The fifth and final outcome focuses on
Defense Enterprise Human Intelligence (HUMINT). As of the third quarter,
the Department exceeded its annual performance target by achieving a
99 percent customer satisfaction rate with Defense HUMINT support.


                                                                    Management’s Discussion and Analysis
                                                   13
Department of Defense Agency Financial Report for FY 2010


 STRATEGIC GOAL 2: DETER CONFLICT AND PROMOTE SECURITY
                                                                      Annual Performance Targets/Results
                                   Strategic Plan Long-Term                                        FY 2010
   Performance Measures                                             FY 2009       FY 2010
                                     Performance Targets                                            3 Qtr
                                                                    Results       Targets
                                                                                                   Results
 Strategic Objective 2.1F1:     Institutionalize irregular warfare and strengthen alliances and partnerships
                                in order to deter conflicts and promote international security.
 2.1F1: Percent of Combatant     2.1F1: For each fiscal year,
 Commanders (COCOMs) that        DoD COCOMs will be ready to
 are ready to execute their      execute 100 percent of Core or    100%         100%           100%
 Core or Theater Campaign        Theater Campaign Plan
 Plan missions                   missions.
 2.1F1: Percent of COCOMs’       2.1F1: For each fiscal year,
 Contingency Plans which they    DoD COCOMs will be ready to
 report ready to execute         execute 100 percent of their      89%          80%             78.6%
                                 Contingency Plans.


 2.1F1: Cumulative percent       2.1F1: By FY 2012, DoD will
 increase in DoD Special         increase its Special Forces and
 Forces and Navy SEAL            Navy SEAL personnel by            23%          26%            27%
 personnel achieved              32 percent from the FY 2006
                                 actual end strength of 13,206.

 2.1F1: Annual number of         2.1F1: Beginning in FY 2007,
 Technology Security Actions     DoD will increase the number
 (TSAs) approved                 of relevant technologies
                                                                   143,600      146,472        96,149
                                 involving transfers to
                                 international partners by
                                 two percent per year.
 Strategic Objective 2.1X2:     Improve intelligence, surveillance, and reconnaissance (ISR) to enhance
                                Battle Space awareness.
 2.1X2: Rate of customer         2.1X2: By FY 2011, DoD will
 satisfaction with Defense       achieve and maintain a
 enterprise HUMINT support       customer satisfaction rate with
                                 Defense Enterprise HUMINT         99%          88%            99%
                                 support of 90 percent or
                                 greater.



Strategic Goal 3: Defend the Homeland
The Department assesses its contributions to our homeland defense mission
by measuring two key performance outcomes, both of which focus on the
capabilities necessary to mitigate attacks on the U.S. and its territories. As of
third quarter, the Department is slightly ahead of schedule in destroying treaty-
declared category 1 chemical weapons. In addition, DoD is on track to have
13 additional zonal diagnostic labs built and equipped for biological agent
detection and response by the end of the FY 2010.




                                                                   Management’s Discussion and Analysis
                                                      14
Department of Defense Agency Financial Report for FY 2010


STRATEGIC GOAL 3: DEFEND THE HOMELAND
                                                                       Strategic Plan Long-term Performance
                                                                                       Targets
   Performance Measures                 Performance Measures                                        FY 2010
                                                                       FY 2009        FY 2010
                                                                                                      3 Qtr
                                                                       Results        Targets
                                                                                                    Results
Strategic Objective 3.1F2:        Improve capabilities to prevent and mitigate attacks on U.S. personnel,
                                  facilities, and key assets.
3.1F2: Cumulative percent of        3.1F2: By FY 2021, DoD will
treaty-declared category 1          have destroyed 100 percent of
chemical weapons destroyed          treaty-declared category 1       65.5%          74.2%          75%
                                    chemical weapons.
3.1F2: Cumulative number of         3.1F2: By FY 2013, DoD will
zonal diagnostic labs built and     have built and equipped 43
equipped for biological agent       zonal diagnostic labs for        19             32             20
detection and response              biological agent detection and
                                    response.



Strategic Goal 4: Integrate Business Operations
The Department assesses its infrastructure operations by measuring ten key
performance targets. The first two targets address the acquisition function.
While the Department exceeded its target in hiring additional acquisition
personnel, the number of significant cost overruns on Major Defense
Acquisition Programs (MDAPs) has more than tripled over the prior year
(FY 2009) level. In addition, the Icelandic volcano delayed air shipments to
the European theater, preventing the Department from achieving its FY 2010
customer wait time target for providing joint warfighting support to our
operating forces.
The Department is on track to achieve four key performance outcomes that
affect its ability to maintain an ―All Volunteer‖ military force. One outcome
reflects implementation of a healthcare-related process change used to
determine military medical fitness for duty. As of third quarter, DoD
surpassed its annual target concerning the percent of military members
participating in a single disability evaluation. In addition, the Department
continues to maintain its prescribed Active and Reserve Component end
strength, and reducing the number of soldiers under stop loss.
The Department made less progress in two priority performance areas
associated with security assistance and DoD audit readiness. As of the third
quarter, FY 2010, the Department was under-executing its security
assistance training target, but was projected to meet the training target by
fiscal year end. Additionally, the Department was at risk of not meeting its
audit readiness target for DoD appropriations received, primarily due to
contractual process delays. However, the Department expects to have the
independent audit firm validation contract in place and have 80 percent of
this goal validated by the end of FY 2011.


                                                                     Management’s Discussion and Analysis
                                                         15
Department of Defense Agency Financial Report for FY 2010

The tenth and final key outcome focuses on another DoD priority
performance goal area—i.e., personnel security clearance reform. By third
quarter, FY 2010, the Department had cut in half the number of days it took
in the prior year (FY 2009) to adjudicate personnel security clearance cases.

 STRATEGIC GOAL 4: INTEGRATE BUSINESS OPERATIONS
                                                                            Strategic Plan Long-term Performance
                                                                                            Targets
    Performance Measures               Performance Measures                                              FY 2010
                                                                            FY 2009        FY 2010
                                                                                                           3 Qtr
                                                                            Results        Targets
                                                                                                         Results
 Strategic Objective 4.2E:        Improve acquisition performance by integrating lifecycle management
                                  principles into DoD and Service acquisition, maintenance, and sustainment
                                  processes.

 *4.2E: Number of Major            4.2E: Beginning in FY 2010, DoD
 Defense Acquisition Program       will ensure the number of
 (MDAP) breaches equal to or       breaches (significant cost
 greater than 15 percent of        overruns) for MDAPs is equal to or
 current Acquisition Program       less than the previous fiscal year.      2          2             7
 Baseline (APB) unit cost or
 equal to or greater than 30
 percent of original APB unit
 cost

 *4.2E: Cumulative increase in     4.2E: By FY 2015, DoD will
 the number of DoD civilian and    increase the total number of DoD
 military end strength             civilian and military personnel          1,985      6,065         6,248
 performing acquisition            performing acquisition functions by
 functions                         19,887 end strength.

 Strategic Objective 4.2L:        Integrate joint supply chains from source of supply to operational customers.

 4.2L: Average customer wait       4.2L: Beginning in FY 2007, DoD
 time                              will reduce average customer wait        16.2       15            16.7
                                   time to 15 days.

 Strategic Objective 4.2M:        Ensure the trust of the Total Force, their families, and the nation through
                                  superior care and support.

 4.2M: Percent of military         4.2M: By FY 2011, 100 percent of
 members participating in a        military members will participate in
 single, disability                a single, disability evaluation/
 evaluation/transition medical     transition medical exam to               27%        40%           47%
 exam to determine fitness for     determine fitness for duty and
 duty and disability rating        disability rating.

 Strategic Objective 4.2P:        Maintain and shape a mission ready All Volunteer force and enhance the
                                  civilian workforce.
 4.2P: Percent variance in         4.2P: For each fiscal year, DoD
 Active Component end              must maintain Active component
 strength                          end strength at or not to exceed
                                   three percent above the                  0.9%       0-3%          0.9%
                                   SECDEF/NDAA-prescribed end
                                   strength for that fiscal year.




                                                                          Management’s Discussion and Analysis
                                                        16
Department of Defense Agency Financial Report for FY 2010


 STRATEGIC GOAL 4: INTEGRATE BUSINESS OPERATIONS

                                                                              Strategic Plan Long-term Performance
                                                                                              Targets
    Performance Measures                   Performance Measures                                         FY 2010
                                                                              FY 2009     FY 2010        3 Qtr
                                                                              Results     Targets       Results
 4.2P: Percent variance in            4.2P: For each fiscal year, DoD
 Reserve Component end                Reserve component end strength
 strength                             will not vary by more than
                                                                             0%         +/-3%         1%
                                      three percent from the SECDEF/
                                      NDAA-prescribed end strength for
                                      that fiscal year.
 4.2P: Number of soldiers             4.2P: By FY 2011, the
 under stop loss                      Department will reduce the
                                      number of soldiers under stop loss     9,753      6,609         4,794
                                      to zero.
 Strategic Objective 4.2T:           Prepare the force to meet current and emerging challenges faced by
                                     operational commanders and reinvigorate the acquisition and security
                                     cooperation workforces.
 *4.2T: Cumulative percent of         4.2T: By FY 2011, DoD will
 incumbents who have been             increase the percent of
 trained in security assistance       incumbents who trained in security
                                                                             67%          80%          70%
 in positions that require            assistance for positions that
 security assistance training         require security assistance training
                                      to 95 percent or better.
 Strategic Objective 4.2U:           Strengthen joint headquarters, personnel security clearance, and financial
                                     management activities.
 *4.2U: Percent of DoD                4.2U: By FY 2013, 100 percent of
 Statement of Budgetary               DoD Statement of Budgetary
 Resources Appropriations             Resources Appropriations
 Received (line 3A) validated         Received (line 3A) will be             18.5%        53%          18.5%
                                      reviewed, verified for accuracy,
                                      and ―validated‖ or approved as
                                      audit-ready.
 *4.2U: Average number of             4.2U: Beginning in FY 2010, the
 days required to adjudicate the      Department will adjudicate the
 fastest 90 percent of initial top    fastest 90 percent of initial top
                                                                             25           20           11
 secret and secret personnel          secret and secret personnel
 security clearance cases             security clearance cases within 20
                                      days.
 *Reflects DoD priority goal.



The Department will address final year-end results for all 66-performance
outcomes in DoD’s more detailed performance report for FY 2010, submitted
with the FY 2012 Congressional Budget Justification on or about
February 7, 2011 at http://www.defenselink.mil/comptroller/.




                                                                           Management’s Discussion and Analysis
                                                           17
Department of Defense Agency Financial Report for FY 2010

Message from the Chief Financial Officer
As Chief Financial Officer for the Department of Defense (DoD), I am
pleased to present our Agency Financial Report for FY 2010. This report
summarizes how the Department managed $691.2 billion in funds
appropriated by the Congress to sustain America’s Armed Forces and to
support operations in Afghanistan and Iraq. We believe that the information
found here will be helpful to taxpayers who want to understand Defense
spending.
DoD financial managers can be proud of some significant
accomplishments.      Most importantly, they ensure that
warfighters have the resources and financial services needed
to meet the country’s national security requirements.
DoD also has been a successful partner in the
Administration’s efforts to reduce improper payments. The
Department’s improper payment rate for vendors is less than
a tenth of one percent. The rate is less than one percent for
most types of payments to employees, and the majority of
these are underpayments that are quickly corrected.
However, DoD financial management suffers from enterprise-
wide problems with systems and processes, and the lack of
auditable financial statements is one manifestation of these
problems.      In response, DoD has established a new
approach to this longstanding problem, focusing its efforts to achieve
auditability on the budgetary and other information most used to manage.
The new approach has provided a common focus and a sense that the audit
effort is worthwhile. To implement this new approach, DoD also has:
         Established long term but also interim goals for achieving auditable
         statements;
         Created a governance process that includes close partnership with
         the Department’s chief management officers; and
         Programmed substantial resources to correct the problems that
         prevent auditability.
As DoD’s Chief Financial Officer, I am fully committed to meeting the
resource needs of our warfighters. I am equally committed to managing
taxpayer dollars in a manner that is effective and efficient, and to providing
high-quality financial information that fully documents the Department’s
financial activities.




                                                         Management’s Discussion and Analysis
                                              18
Department of Defense Agency Financial Report for FY 2010

Financial Performance Overview
The Department displays significant strengths in its financial management of
taxpayer resources. Most importantly, Defense financial managers are
successfully providing DoD’s warfighters with the resources and financial
services necessary to meet our national security objectives. They are doing
so in Afghanistan, Iraq, and around the world.
The Department also has effective financial processes for many key
functions. For example, DoD’s payment processes successfully ensure
timely and accurate payments in a very high percentage of cases, including
employee payments, with 99 percent accuracy. In addition, DoD issues over
$30 billion in commercial payments every month ($1.5 billion every business
day), with an error rate at less than a tenth of one percent.
The Department has reduced interest payments dramatically. As of
August 2010, DoD had reduced interest penalty payments by 29 percent
since FY 2007, despite a 26 percent increase in amounts paid. Along with
these significant improvements, DoD’s summary cash reconciliation rates
with the Department of the Treasury are very high. As we work to further
improve DoD financial management, we must be careful not to achieve
improvements at the expense of these successes.
Overall, the Department has made progress toward improving financial
information and audit readiness in several entities. For example, the U.S.
Army Corps of Engineers achieved fully auditable financial statements.
Several Defense Agencies maintain auditable statements, including the
Defense Finance and Accounting Service and the Defense Contract Audit
Agency. Several large trust funds managed by DoD also are auditable. It
also is clear, however, that the most daunting challenges for the Department
remain ahead, particularly the challenge of moving the Military Services
toward auditability.

Enterprise-Level Weaknesses
The Department recognizes that there are enterprise-wide weaknesses in
DoD financial management. Some enterprise-level issues currently prevent
the Department as a whole from receiving an unqualified opinion on its
financial statements. The DoD’s current business environment – including
systems and processes – do not record the financial results of business
events (such as contract signing) in a consistent and reliable manner. Many
of DoD’s information systems are old, designed decades ago to meet
budgetary rather than proprietary accounting standards, and tend to be non-
standard and without good financial controls.
The Department’s enormous size and geographical dispersion substantially
complicate the Department’s financial improvement efforts. The DoD
obligates an average of $2 billion to $3 billion every business day and
handles hundreds of thousands of payment transactions, which take place in
thousands of worldwide locations, including war zones. Because of DoD’s

                                                        Management’s Discussion and Analysis
                                             19
Department of Defense Agency Financial Report for FY 2010

size and mission requirements, it is not feasible to deploy a vast number of
accountants to manually reconcile our books.
For these reasons, the Government Accountability Office (GAO) designated
DoD’s financial management operations and controls as a high-risk area in
1995. The GAO assessment reflects the inherent problems that have
developed as DoD business operations have grown within a large,
decentralized organization that is both mission-oriented and functionally
―stove-piped.‖ In this environment, individual organizational elements
control and execute their budgets using different processes, controls, and
systems, which makes it problematic to aggregate and report financial
information as envisioned by the Chief Financial Officers Act. Further, the
lack of compliant, integrated financial and financial-feeder business systems
is a material weakness that makes this challenge even more daunting for an
organization with this size and complexity.
Audits performed by DoD IG identified long-standing material weaknesses
that continue for FY 2010. The material weaknesses fall into two categories:
   (1)     Noncompliant Systems. Most legacy systems do not comply
           with the wide range of systems requirements, and do not provide
           assurance that core financial systems and related information is
           traceable to source transactional information.          Smaller
           organizations have successfully applied compensating controls,
           as demonstrated by favorable audit opinions, but these are not
           practical in larger organizations, such as the Military
           Departments.
   (2)     Legacy Financial Processes. Many financial processes, such
           as accounts receivable and accounts payable, do not comply with
           Generally Accepted Accounting Principles (GAAP) because they
           are dependent on the noncompliant legacy systems currently
           used to compile financial information for DoD financial
           statements.
The Department acknowledges these material weaknesses. DoD is working
toward implementing solutions to improve Department-wide financial
processes, controls, and systems.

Audit Readiness
The Department plans to achieve its financial management goals and audit
readiness through an active partnership between the Deputy Chief
Management Officer (DCMO), the Under Secretary of Defense (Comptroller)
(USD(C)), and the Department’s Chief Management Officers (CMOs). This
partnership allows us to draw support from across the enterprise, including
the acquisition, logistics, and other business communities. To enhance
oversight and governance, USD(C) created the Financial Improvement and
Audit Readiness (FIAR) Governance Board, co-chaired by the DoD
Comptroller and the DCMO. This board includes the Military Department

                                                         Management’s Discussion and Analysis
                                             20
Department of Defense Agency Financial Report for FY 2010

CMOs, DoD’s financial management leaders, and senior representatives
from the functional communities. The Department also established the DoD
Audit Advisory Committee (DAAC), which provides independent advice to
the Secretary of Defense regarding DoD’s financial management, including
financial reporting policies, processes, systems of internal controls, audit
processes, and processes for monitoring compliance with relevant laws and
regulations. The DAAC members, appointed by the Secretary of Defense to
three-year terms, are distinguished members of the audit, accounting, and
financial communities.
The Department’s Audit Readiness Plan. The Department has instituted
a new approach to improve information and move toward audit readiness.
Recognizing that many decisions are budget-related, DoD adjusted its FIAR
strategy (depicted in Figure 1-7) to focus first on improving processes,
controls, and systems that produce budgetary information and the existence
and completeness (E&C) information needed to manage mission-critical
assets. At the same time, the Department will seek a cost-effective
approach that results in an unqualified audit opinion on all its financial
statements.      For more information on DoD’s FIAR Plan, refer to
http://comptroller.defense.gov/FIAR/.


  Figure 1-7. FIARAudit Readiness Strategy




                                                                                         B10-20




By focusing on accuracy and timeliness of budgetary information, the
Department will improve the reliability of information used most often by
management and meet the goal of obtaining auditable financial statements,
starting with the Statement of Budgetary Resources (SBR). Improving the
reliability of information on the existence and completeness of mission-critical
assets – such as Military Equipment, Real Property, Inventory, Operating
Materials and Supplies, and General Equipment – will ensure that dependable
information is available to those who manage assets.
Over the last year, the Department took a number of significant steps to
ensure progress in achieving FIAR goals. These steps include:
   Redefining the FIAR strategy to focus improvement efforts on the
   information most used to manage;


                                                           Management’s Discussion and Analysis
                                               21
Department of Defense Agency Financial Report for FY 2010

   Setting long-term and interim goals;
   Increasing resources (people and dollars) for FIAR activities within the
   Office of the USD(C) and Component entities;
   Expanding the FIAR Governance Board to include most senior DoD
   financial leaders, functional community representatives, and DCMO, and
   the Military Department CMOs;
   Developing a phased-improvement methodology, identifying essential
   key tasks within each phase; and
   Formally issuing DoD-wide FIAR guidance that explains, in detail, the
   FIAR strategy and FIAR methodology.

Audit Progress to Date. The following FY 2010 achievements highlighted
in Figure 1-8 reflect the Department’s progress to improve financial
management:
   The United States Marine Corps (USMC) asserted audit readiness and
   the DoD IG is auditing its FY 2010 Statement of Budgetary Resources.
   Although the audit outcome may not immediately result in a ―clean
   opinion,‖ USMC made significant progress in improving budget and other
   financial information and obtaining support from various communities to
   achieve auditable financial statements.
   The Defense Information Systems Agency Working Capital Fund
   addressed financial management deficiencies identified in a 2009 audit
   and asserted audit readiness for its financial statements.
   The Air Force and the Defense Logistics Agency asserted audit
   readiness on Appropriations Received
   in the fourth quarter of FY 2010.    Figure 1-8. FIARPriority Audit
   The Navy asserted audit readiness for                         Readiness Assertions
   existence and completeness of Military      Component         Audit Readiness Assertions        Date
   Equipment and the Ordnance category         All Financial Statements
   of Operating Materials and Supplies in      DISA - WCF        All Financial Statements         3Q 2010
   the fourth quarter of FY 2010.              Statement of Budgetary Resources (SBR) Audit
                                               USMC              SBR                              4Q 2008
   The Navy asserted audit readiness for       Navy              Appropriations Received          2Q 2009
   Transportation of People in the fourth      Navy              Civilian Pay                     3Q 2010
   quarter of FY 2010.                         Air Force         Appropriations Received          4Q2010
   Air Force continues to make significant     Air Force         Rescissions                      4Q2010
                                               Air Force         Non-expenditure Transfers        4Q2010
   progress to achieve its Mission Critical
                                               DLA               Appropriations Received          4Q 2010
   Asset Existence and Completeness            Mission Critical Asset Existence and Completeness Audit
   priority for Military Equipment and         Navy              Military Equipment               4Q 2010
   Operating Materials and Supplies before     Navy              OM&S - Ordnance                  4Q 2010
   the end of FY 2011.




                                                          Management’s Discussion and Analysis
                                              22
Department of Defense Agency Financial Report for FY 2010

Full Auditability
The FY 2010 National Defense Authorization Act (NDAA) requires the
Department to assert that its financial statements are ready for audit no later
than September 30, 2017. The Department is committed to improving the
reliability and accuracy of financial information with the highest priority
placed on information most useful for decision-making. This priority has not
changed, and the Department is continuing to focus on budget and mission
critical-asset information.
In its report on the FY 2011 NDAA, the Senate Armed Services Committee
directed the Department to perform a cost-benefit analysis of asset valuation
alternatives and to develop a business case to justify its resulting decision.
The Department currently is assessing the costs and associated benefits of
reporting and auditing Balance Sheet cost information and will report the
results in the May 2011 FIAR Plan Status Report. The Department also is
discussing possible changes in financial reporting with the Office of
Management and Budget (OMB) and the GAO.
In conclusion, the Department will aggressively work toward achieving
current priorities and will continue to work with the Congress, GAO, and
OMB to resolve the Department’s concerns related to the cost of attaining
full auditability under the existing Federal accounting and auditing standards.

 Figure 1-9. FIARPlan Relationship to the DoD Strategic Management Plan
            and Other DoD Plans
                                       DoD Strategic Management Plan
               1                   2                 3                  4                         5
        Volunteer Force     Contingency Ops Acquisition Reform Civilian Workforce           Financial Mgmt



                                               Financial Improvement
                                Asset                                                       Defense Enterprise
   OUSD (AT&L) Plans                            and Audit Readiness          FM System
                             Accountability                                                  Transition Plan
                                                    (FIAR) Plan             Improvements
                             and Valuation


                                 Asset                                                      Component ETP and
 Component Accountability                      Component Financial           FM System
                              Accountability                                               System Implementation
         Plans                                  Improvement Plans           Improvements
                              and Valuation                                                        Plans



Improvements to Financial Systems
Working within the framework of the Business Enterprise Architecture (BEA)
that defines basic standards for end-to-end business processes and data,
the Department continues implementation of Enterprise Resource Planning
(ERP) systems.       These ERP initiatives target implementation of a
standardized financial information structure that is compliant with Federal
Financial Management Improvement Act (FFMIA) and BEA requirements.
In FY 2010, the Services and Defense Agencies made significant progress
in implementing ERPs. The Army implemented two mini-deployments and a
larger wave three deployment in the General Fund Enterprise Business
System to 5,000 end users. The Navy deployed its ERP to 12,000 users


                                                                                           Management’s Discussion and Analysis
                                                                       23
Department of Defense Agency Financial Report for FY 2010

within the Naval Air Systems Command, Naval Supply Systems Command,
and Space and Naval Warfare Systems Center. The Air Force deployed
complete accounting capability to Scott Air Force Base using the Defense
Enterprise Accounting and Management System.
The Department also successfully implemented the Defense Agencies
Initiative for all accounting functionality at two Defense Agencies. The Air
Force, in partnership with the Defense Finance and Accounting Service,
implemented Columbus Cash Accountability System. This system will
identify Fund Balance with Treasury in-transit collection and disbursement
transactions that need correction, redirection, or research, thereby providing
actionable information for corrective action.
In addition, Military Departments and Defense Agencies implemented the
Real Property Installation Lifecycle Management System to improve real
property installation management and visibility and achieve better
connection to direct and indirect costs.
The Department will continue to implement ERP solutions to improve the
accuracy and reliability of its financial statements. The Investment Review
Boards and the Defense Business Systems Management Committee will
continue to provide oversight to ensure that progress continues and that
implementation issues are timely and effectively resolved.

Financial Analysis
The Department’s FY 2010 financial statements are presented in the Financial
Information section. The DoD’s management is responsible for the integrity of
the financial information presented in these financial statements. At this time,
management cannot provide reasonable assurance of effective internal
management controls over financial reporting; however, DoD’s financial
improvement initiatives and systems’ modernization efforts continue to
demonstrate progress.        The Department’s leadership is committed to
improving internal controls and safeguarding the resources entrusted to us.
These statements were prepared from the books and records of the
Department in accordance with U.S. generally accepted accounting principles
(USGAAP), when possible, the Office of Management and Budget (OMB)
Circular No. A-136, ―Financial Reporting Requirements,‖ and the ―DoD
Financial Management Regulation.‖
The financial statements have been prepared to report DoD’s financial
position and results of operations, and include the:
   Statement of Budgetary Resources
   Statement of Net Cost
   Balance Sheet
   Statement of Changes in Net Position



                                                           Management’s Discussion and Analysis
                                               24
Department of Defense Agency Financial Report for FY 2010

Summary of FY 2010 Financial Reporting.
For FY 2010, the financial statements for six of                Figure 1-10. Audit Opinions
33 reporting entities within the Department                           DoD Reporting Entity         Audit Opinions
received unqualified audit opinions.        See                  U.S. Army Corps of Engineers        Unqualified
Figure 1-10.                                                     Military Retirement Fund            Unqualified
                                                                 Defense Commissary Agency           Unqualified
Budgetary Resources. In accordance with
                                                                 Defense Finance and
Federal statutes and implementing regulations,                                                       Unqualified
                                                                 Accounting Service
obligations may be incurred and payments made                    Defense Contract Audit Agency       Unqualified
only to the extent that budgetary resources are       Office of the Inspector General                Unqualified
available to cover such items. The Statement of                                                                 B10-11

Budgetary Resources presents the DoD’s total
budgetary resources, their status at the end of the year, and the relationship
between the budgetary resources and the outlays made against them.
The Department’s FY 2010 enacted appropriations total $691.2 billion, as
depicted in Figure 1-3 on page 9. The Department also received resources
from the U.S. Treasury for retirement and health benefits and appropriations
in support of civil work projects executed by the U.S. Army Corps of
Engineers. In total, the Department received $769 billion in FY 2010
resources, as shown in Figure 1-11. Additional budgetary resources for the
year include $201 billion for outstanding requirements carried forward from
FY 2009, $187 billion in collections related to reimbursed activity, and
$73 billion in contract authority. In total, the Department had $1.2 trillion in
available budgetary resources.
Of the $1.2 trillion in total budgetary resources, $1.1 trillion (92 percent)
were obligated and $994 billion (90 percent) of obligations were disbursed.
The remaining ten percent of unobligated budgetary resources relate to


  Figure 1-11. FY 2010 Total Budgetary Resources
                                                                                    $769B                  $ in Billions

                     $ in Billions
                                     $1.2T                       Family
                                                                                Operations,
                                                                                Readiness &
                                                                                                 Procurement
                                                                Housing &                           $126
                                                                                  Support            16%
        Contract Authority                                      Facilities         $303
                 $73 (6%)                                         $25               39%                  Civil Works
    Reimbursed Collections                                        3%                                          $5
               $187 (15%)                                                                                    1%
  Brought Forward Authority
               $201 (16%)
        Civil Work Projects                      Breakout
                  $ 5 (1%)
                                                 FY 2010
          Trust Fund Receipts                  Appropriations
                    $ 73 (6%)                    Received


                                                                Military                               Employer
    Enacted Appropriations                                       Pay &                                Contribution to
              $691 (56%)                                        Benefits         Research    Military Retirement
                                                                 $125           Development Retirement Benefits
                                                                  16%              & Test    Benefits     $27
                                                                                    $85         $73        4%
 B10-12                                                                             11%        10%


                                                                      Management’s Discussion and Analysis
                                                    25
Department of Defense Agency Financial Report for FY 2010

appropriations available to cover multi-year modernization projects, which
require additional time to procure.
The Department obligated much of its FY 2010 resources to responsibly
draw down the military forces in Iraq as it concluded Operation Iraqi
Freedom and transitioned to Operation New Dawn. In Afghanistan, U.S.
forces worked with Afghan Security Forces and international partners to
build a country that will not be a safe haven for terrorists. In addition, the
Department used resources to maintain readiness to conduct missions
abroad as well as to modernize and recapitalize equipment that greatly
improve combat capabilities.
Net Cost of Operations. The Statement of Net Cost reports total expenses
incurred less the revenues received from external sources to finance those
expenses. The resulting balance of net cost is essentially equivalent to the
outlays reported on the Statement of Budgetary Resources, less the assets
purchased plus accrued liabilities and accounts payable. Differences
between outlays of budgetary resources and net cost generally arise from
the timing of expenses recognized. The Statement of Net Cost presents net
cost of all the Department’s programs for the Military Services and
Components, as well as the Military Retirement benefits as depicted in
Figure 1-12.


 Figure 1-12. Net Cost of Operations
 Net Cost of   586.0   601.4   670.2   651.5    802.8
 Operations                                                                   RDT&E     Health           $ in Billions

                                                                               $73.1    Care          Family
                                                               Procurement              $34.1        Housing &
                                                                  $103.4        9%
                                                                                         4%          Facilities
                                                                   13%                                 $2.4
                                                    Breakout
                                                                                                        1%
                                                    $802.8B




                                                                                                            Military
                                                                Operations,
                                                                                Military Pay     Civil     Retirement
                                                                Readiness                                   Benefits
                                                                 & Support      & Benefits       Works
                                                                                                            $204.8
                                                                  $220.2          $153.3         $11.5        26%
                                                                    27%             19%           1%
 Military  FY 06       FY 07   FY 08   FY 09    FY 10
 Retirement101.5
 DoD Costs 484.5
                        73.9
                       527.5
                               136.2
                               534.0
                                        79.6
                                       571.9
                                                204.8
                                                598.0
                                                                                $802.8B                            B10-14




The Department’s costs incurred relate primarily to operational activities and
military retirement and health benefits. These costs were offset with
revenues from external sources primarily from earnings on investments and
contributions for retirement and health benefits, as well as earnings from
reimbursed activities, resulting in $802.8 billion in net costs of operations.
As depicted in Figure 1-12, the $802.8 billion represents a $151.3 billion
(23 percent) increase from FY 2009. The Military Retirement Benefits
accounted for $125.2 billion (83 percent) of the increase largely due to a

                                                               Management’s Discussion and Analysis
                                               26
Department of Defense Agency Financial Report for FY 2010

$136.4 billion increase from changes in key actuarial assumptions, offset by
an $11.7 billion increase in earned revenue. Also contributing to the
increase is $19.0 billion in procurement costs to modernize and recapitalize
equipment, greatly improving combat capabilities, and a $9.6 billion increase
in Military Pay and Benefits to attract and retain high-quality military
personnel to execute the Department’s mission.
Balance Sheet. The Balance Sheet, which
reflects the Department’s financial condition as
of September 30, 2010 (Figure 1- 13), reports              Figure 1-13. Net Assets and
the DoD’s resources (Assets), the amounts                               Liabilities                      $ in Millions

                                                                                 Balance Sheet
owed requiring use of assets available
                                                            Total Assets                             $ 1,930.3
(Liabilities), and the difference between them              Total Liabilities                        $ 2,322.4
(Net Position).                                             Total Net Position                       $ (392.1)
                                                                                                            B10-11a

The $1.9 trillion in assets shown in (Figure 1-14)
represents amounts the Department owns and manages. Assets increased
$132.9 billion (7 percent) from FY 2009, largely due to increases in
Investments in U.S. Treasury securities and increases in General Property,
Plant, and Equipment.

  Figure 1-14. Assets and Liabilities
     Fund Balance                                               Military Retirement and                $ in Billions
                       Investments      Accounts
     with Treasury        $499.6                                 Employment Benefits
        $521.6                         Receivable                       $2,176.7
                           26%            $11.6
          27%                                                             94%
                                           1%




     Property, Plant                         Other          Other Liabilities                    Environmental
                           Inventory         Assets                                              and Disposal
     and Equipment           $232.2                             $49.9             Accounts
         $595.7                               $69.6               2%               Payable         Liabilities
                              12%              4%                                                    $62.9
          30%                                                                       $32.9
                                                                                     1%               3%

                     Assets $1.9T                                        Liabilities $2.3T                     B10-15


The $62.7 billion net increase in investments relate to expected normal
growth to cover unfunded portions of future military retirement and health
benefits. Funds not needed to pay current benefits are held in separate trust
and special funds and are invested in U.S. Treasury securities.
The $37.5 billion net increase in General Property Plant and Equipment
includes increases of $11.5 billion in facilities (buildings and structures) and
$7.8 billion in construction in progress. These increases were associated with
construction and maintenance of housing, wounded warrior facilities and
schools, and recapitalization of other medical facilities. In addition, Military
Equipment increased $7.2 billion, reflecting the Department’s commitment to
modernize and recapitalize equipment to improve combat capabilities.


                                                               Management’s Discussion and Analysis
                                                      27
Department of Defense Agency Financial Report for FY 2010

The Department’s liabilities increased $160.5 billion (7 percent) during
FY 2010, primarily due to growth in actuarial liabilities (Figure 1-15) related
to military retirement pension and health care benefits. The Department is
confident in its ability to meet its financial obligations. The U.S. Treasury will
fund $1.4 trillion (60 percent) of the $2.3 trillion in liabilities resulting from
actuarial liability that existed at the inception of the Military Retirement and
Health programs. Additionally, approximately $552.4 billion is already
available, primarily invested in U.S. Treasury securities that cover an
additional 24 percent of the outstanding liability. Figure 1-15 identifies the
unfunded liabilities that require future resources.

  Figure 1-15. Unfunded Liabilities
                                                                        All Other Unfunded Liabilities $19.8 (1%)
         Liabilities Covered by
         Budgetary Resources                                            Unfunded Environmental Liabilities $58.7 (4%)
                  $552.4                                                DoD Unfunded Military Retirement and Health
                                                                        Benefits $338.0 (19%)

            24%                          Breakout
                              76%                                       Unfunded Military Retirement and Health
                                                                        Benefits funded by Treasury
                                                                        $1,353.5 (76%)


                 Liabilities
              Not Covered by                                            $ in Billions
            Budgetary Resources
                 $1,770.0                                                                                                 B10-14




Summary
Although the financial statements are not auditable for FY 2010, the
Department’s financial managers are meeting warfighter needs for
resources and financial services.       The
Department is committed to resolving its
financial management challenges by
moving away from ―stove-piped‖ financial
and accounting systems toward end-to-end
business processes that cross multiple
disciplines. A top priority is to achieve
auditability of the Statements of Budgetary
Resources (SBR) and to verify the
existence and completeness of mission-
critical assets. Focusing on the information
people use to manage and make decisions,          Under Secretary of Defense Comptroller Robert Hale, left, and Vice Adm.
                                                  Steve Stanley, then Director, Force Structure, Resources and Assessment,
DoD can lay the groundwork for the broad          Joint Staff, hold a press conference to provide an overview of the Fiscal Year
business       management      requirements       2011 budget and the Fiscal Year 2010 supplemental war funding request at
necessary for financial reform.         This      the Pentagon in Arlington, Virginia, Feb. 1, 2010.

approach will improve the business                                                     (DoD photo by Cherie Cullen/Released)

operations, along with the quality and integrity of information, and ultimately
allow DoD’s financial statements to be reliable and auditable.


                                                                               Management’s Discussion and Analysis
                                                              28
Department of Defense Agency Financial Report for FY 2010

Management Assurances




                                                  Management’s Discussion and Analysis
                                        29
Department of Defense Agency Financial Report for FY 2010

Managers’ Internal Control Program
The Department is responsible for establishing, maintaining, and assessing
internal controls in order to provide reasonable assurance that it meets the
objectives of the Federal Managers’ Financial Integrity Act (FMFIA),
31 U.S.C 3512, Sections 2 and 4, and the Federal Financial Management
Improvement Act (FFMIA), Public Law 104-208. The OMB provides FMFIA
guidance in OMB Circular No. A-123, entitled ―Management’s Responsibility
for Internal Control in the Federal Government.‖
In addition, the Department provides FMFIA guidance in DoD
Instruction 5010.40, ―Managers’ Internal Control Program (MICP)
Procedures,‖ and annually, the Office of the Under Secretary of Defense
(Comptroller) (OUSD(C)) provides detailed MICP implementing guidance
memoranda.
The MICP requires the Department’s management to conduct self-
assessments     of    internal    management
controls, in accordance with the FMFIA.
These internal management controls are the
checks and balances that assist program and
financial managers to achieve results and
safeguard the integrity of the programs. The
FMFIA requires the head of each agency to
provide an annual assurance statement that
outlines what the agency has done to meet
these requirements, including details for
                                             U.S. Army General David H. Petraeus, commander, International Security
remaining material weaknesses. The detailed Assistance Force, talks to soldiers on Forward Operating Base Salerno in Khost
FMFIA results are available in Addendum A, province, Afghanistan, Aug. 19, 2010. The soldiers are assigned to the 101st
                                             Airborne Division's Air Assault, 3rd Brigade Combat Team.
Other Accompanying Information, under                                           U.S. Air Force Photo By Staff Sgt. Bradley Lail
Management Assurances and Financial                                                                                          .
Statement Material Weaknesses.
Management uses the following criteria to classify conditions as material
weaknesses:
    Merits the attention of the Executive Office of the President and the
    relevant Congressional oversight committees;
    Impairs fulfillment of essential operations or mission;
    Significantly weakens established safeguards against waste, loss,
    unauthorized use or misappropriation of funds, property, other assets, or
    conflicts of interest;
    Substantial noncompliance with laws and regulations; or
    Nonconformance with government-wide, financial management system
    requirements.




                                                                          Management’s Discussion and Analysis
                                                           30
Department of Defense Agency Financial Report for FY 2010

The Department’s leadership is committed to ensuring effective internal
management controls for all mission-essential processes to support the
reliability of financial information. The MICP holds managers throughout the
Department accountable for ensuring effective internal management controls
in their areas of responsibility. All Components are required to conduct a
robust programmatic approach to establish and assess internal
management controls for all non-financial, mission-essential operations.
Components that produce stand-alone financial statements also are required
to include financial reporting assurance in their programs.
The Department revitalized the MICP in FY 2010. In December 2009 the
OUSD(C) program managers met with Component leaders and hosted a
two-day seminar to communicate the Chief Financial Officer’s vision and the
risk-based, self-assessment approach.             The Department tasked
Components to assign responsibility for the analysis of specific functional
areas within the organization to the workforce and to incentivize employees
to self-report inefficiencies that may potentially impact the mission of the
organization.
The Department advocates a ―tone at the top‖ approach, with renewed
emphasis on the importance of the internal control program that will
permeate the culture of the entire organization. Instead of relying on
external auditors to identify material internal control weaknesses, DoD
employees have the in-depth knowledge and expertise in their operations to
identify and develop solutions that mitigate high-risk control weaknesses.
For FY 2011, the Department plans to validate each Component’s
implementation of MICP principles to include documentation of functional
processes and procedures and solutions for correcting inefficiencies and
related internal control deficiencies. This documentation is comprised of
flowcharting key business processes that impact financial reporting and non-
financial operations, identifying and assessing risk within the processes,
identifying internal controls, testing internal controls, establishing or
strengthening controls found to be deficient, and reporting on the results of
the assessments and tests.
In FY 2010, for nonfinancial operations, the
Department is reporting two additional             Statement of Assurance
internal control weaknesses: 1) Personnel
Resources, Qualifications and Training, and          More information regarding the
2) Acquisition and Procurement. Both of              Department’s process for
these weaknesses complement the GAO and              developing the Statement of
DoD IG recommendations to elevate these              Assurance is available at:
two items as both ―High Risk‖ and of              http://www.defenselink.mil/comptroller/micp.html.
―Management Concern‖ due to the significant
impact inefficiencies in these areas have had
on the overall mission of the Department.



                                                         Management’s Discussion and Analysis
                                             31
Department of Defense Agency Financial Report for FY 2010

Top Management Challenges and Management’s Responses
The Reports Consolidation Act of 2000 requires the annual financial report
include a statement from the DoD IG that summarizes the most serious
management and performance challenges facing the Agency and briefly
assesses the progress toward addressing those challenges. The DoD IG
identified the following eight management and performance challenges
facing the Department for FY 2010. These challenges are in addition to
GAO’s list of government-wide, high-risk management areas.
   Financial Management
   Acquisition Processes and Contract Management
   Joint Warfighting and Readiness
   Information Assurance, Security, and Privacy
   Health Care
   Equipping and Training Iraqi and Afghan Security Forces
   Nuclear Enterprise
   American Recovery and Reinvestment Act (ARRA)

The following pages highlight these challenges and management’s
assessment in addressing these issues.

1. Financial Management. The Department continues to face financial
   management challenges that adversely affect its ability to provide
   reliable, timely, and useful financial and managerial data needed to
   support operating, budgeting, and policy decisions. In the FY 2009 audit
   of DoD’s consolidated financial statements, DoD IG reported the same
   13 material internal control weaknesses as the previous year,
   weaknesses that affect the safeguarding of assets, proper use of funds,
   and impair the prevention and identification of fraud, waste, and abuse.
   These pervasive and longstanding financial management issues directly
   affect DoD’s ability to obtain an unqualified opinion on its financial
   statements. The DoD IG is auditing the U.S. Marine Corps’ FY 2010
   Statement of Budgetary Resources (SBR), the first audit of a Military
   Component’s financial statement.        The U.S. Marine Corps has
   encountered many challenges during this first-time audit, and the
   Department is learning from this audit experience as well. Although DoD
   is far from reaching an unqualified opinion, the Department has
   demonstrated improvement. The ongoing initiatives in the area of
   financial management demonstrate that the Department is responding to
   the significant and pervasive financial management issues and is
   positioning itself to leverage planned systems and business
   improvements to achieve sustainable and long-term solutions.



                                                       Management’s Discussion and Analysis
                                            32
Department of Defense Agency Financial Report for FY 2010

Management’s Assessment. The Department adjusted its FIAR strategy
to focus on improving information most often needed to manage the
Department. Recognizing that many decisions are budget related, DoD’s
priorities focus on improving processes, controls, and systems that produce
budgetary information and the information needed to manage DoD’s
mission-critical assets. To date, the Department has made measured
progress in improving financial information. Specifically, the DoD IG is
auditing the Marine Corp’s FY 2010 SBR resulting in significant
improvements to budget and other financial information. In addition, the
Defense Information Systems Agency Working Capital Fund addressed
financial management deficiencies and asserted audit readiness for its
financial statements; and the Air Force and Defense Logistics Agency
asserted audit readiness on appropriations received in the fourth quarter for
FY 2010. The DoD’s leadership remains focused on improving information
most needed to manage the Department.
2. Acquisition Processes and Contract Management. Acquisition
   initiatives that began in the 1990s led to reductions in acquisition
   oversight resources. When the spending trend dramatically reversed
   after September 11, 2001, the Department was not able to react quickly
   to the need for more contract and oversight support. In FY 2010, the
   Defense budget, including funds for contingency operations, exceeded
   nearly $700 billion. This total is more than double the last DoD budget
   preceding September 11, 2001. Keeping pace with this spending would
   be a difficult proposition if acquisition and oversight resources were
   increasing at a proportional rate. In 2009, the level of staffing of the
   acquisition workforce was below those in 1998. Efforts to train and
   ready the DoD acquisition workforce to handle a significant increase in
   workload demand and complexity resulting from extensive services
   contracting, counter-insurgency operations, and other critical missions
   continue to challenge the Department. The DoD continues to make
   limited progress in controlling the cost and schedule of major acquisition
   programs and will have to make critical decisions about which systems
   should be cut based on competing resources. Through the last two DoD
   budgets, the Secretary of Defense has made difficult decisions by
   proposing to end all or part of at least a half dozen major defense
   acquisition programs that were either no longer needed or performing
   poorly.
Management’s Assessment. The Secretary of Defense established a
23-point plan of action to reform acquisition processes through initiatives
that target affordability and control cost growth; incentivize productivity and
innovation in industry; promote real competition; improve tradecraft in
services acquisition; and reduce non-productive processes and
bureaucracy. The Department is implementing these initiatives and is
monitoring policy implementation and compliance.              In addition, the
Department recently developed a new Joint Contingency Contracting


                                                          Management’s Discussion and Analysis
                                              33
Department of Defense Agency Financial Report for FY 2010

Handbook that provides essential information, tools, templates, and training
material to meet the challenges in any contracting environment. In addition,
the Department increased its acquisition workforce by 6,200 professionals
and continued to work toward achieving the Secretary of Defense’s growth
goals of 20,000 professionals by FY 2015.
3. Joint Warfighting and Readiness.             Despite the high operating
   tempo, U.S. Forces are executing their missions globally. Sustained
   operations in Iraq and Afghanistan have affected equipment, the troops,
   and their families. In the near-term, DoD’s execution of the withdrawal in
   Iraq and the redeployment or resetting of equipment, either for use in
   Afghanistan or for standing inventory, requires management’s continued
   attention and presents its own challenges to the overall joint warfighting
   and readiness process. In the long-term, the Department faces the
   challenge of resetting the Services; retraining skills that have not been
   required for the current operations; and reengaging with other nations’
   militaries. This challenge encompasses the need to ensure basic
   services continue uninterrupted for the members of the armed forces and
   their families. Available resources and capabilities are finite and require
   constant monitoring to enable the Department to operate successfully
   with the shifting global dynamics. Maintaining readiness, resetting the
   force during the extended war, modernizing to face future challenges,
   and allowing troops to reconnect with their families are challenges that
   the Department and the Congress must continually address.
Management’s Assessment.              The Department remains focused on
ensuring the forces deployed to fight our Nation’s wars are trained,
equipped, and ready to perform their assigned missions. Our forward-
deployed forces are ready, but that readiness often comes at the expense of
the non-deployed force readiness. Non-deployed forces often experience
less than optimal dwell time and focus their non-deployed training time on
their next Iraq or Afghanistan mission requirements. This focus, however,
can result in forces not being trained for the full spectrum of potential global
missions, and combined with the impact of stay-behind equipment and
personnel turmoil, can lead to reduced readiness levels. Withdrawing large
numbers of troops and equipment from Iraq, while simultaneously increasing
force and equipment levels in Afghanistan, is an extremely complex
operation. To successfully meet this challenge of the future, the Department
will have to engage the total force, which will include continued use of the
Reserve Components for operational missions.               The Department is
expending significant effort to ensure this is accomplished in the most
effective and cost-efficient manner. We also recognize our obligation to
properly take care of our soldiers, sailors, airmen, and marines -- and their
families -- that have carried the burden of extended combat operations,
multiple deployments, and the resultant human toll from those efforts. We
must be particularly vigilant of those traumatized in our Nation’s battles,
trauma which can have long-term effects on the individual. The Department


                                                           Management’s Discussion and Analysis
                                               34
Department of Defense Agency Financial Report for FY 2010

is intent on striking the optimal, albeit delicate balance to meet our
competing needs in these challenging fiscal times.           Key competing
challenges include maintaining readiness, resetting the force, structuring the
force to meet future threats, modernization, and taking care of our most
valuable asset – our people.
4. Information Assurance, Security, and Privacy. Managing risk
   continues to be a daunting challenge to the Department. One significant
   area where the Department must assess the risk that a particular threat
   will adversely impact its operations is in the acceptance and use of
   internet-based capabilities. Internet-based capabilities include social
   networking services, social media, instant messaging, and discussion
   forums. During this past year, DoD has taken steps to address the
   issues surrounding its use of Internet-based capabilities. Another
   challenge that DoD faces is defending its information and information
   systems against today’s mounting cyber threats. On a daily basis, those
   wanting to not only steal DoD information but do harm to DoD programs,
   operations, and personnel continuously attack DoD’s information
   technology infrastructures.     In May 2010, DoD announced the
   establishment of the U.S. Cyber Command, a sub-unified command
   subordinate to the U.S. Strategic Command that will work to improve
   DoD’s capabilities to ensure resilient, reliable information and
   communication networks, counter cyberspace threats, and assure
   access to cyberspace.
Management’s Assessment. On February 25, 2010, the Deputy
Secretary of Defense issued Directive-Type Memorandum (DTM) 09-026,
which establishes DoD policy and assigns responsibilities for effective use of
Internet-based capabilities, including social networking services. While DoD
has postured itself to embrace the benefits of Internet-based capabilities in
its daily operations, it still faces a challenge of ensuring Commanders at all
levels and heads of DoD Components take the appropriate actions to
safeguard missions and preserve operations security. In May 2010, DoD
took a significant step to address its most daunting challenge of defending
its information and information systems by announcing the establishment of
the U.S. Cyber Command. The U.S. Cyber Command will improve DoD’s
capabilities to ensure resilient, reliable information and communication
networks, counter cyberspace threats, and assure access to cyberspace.
Service elements, such as the Army Forces Cyber Command, will support
the U.S. Cyber Command’s mission. To be successful, the Department will
be required to use all its current cyber assets and develop new ones.
Civilian acquired cyber capabilities reside in the Reserve Component is one
place to expand the Department’s cyber capabilities. While the Department
has taken a significant step, challenges remain in centralizing cyberspace
operations, developing workable strategies, protecting information networks,
and obtaining cyber expertise.



                                                         Management’s Discussion and Analysis
                                              35
Department of Defense Agency Financial Report for FY 2010

In March 2010, the Department announced proposed changes to the
Defense Federal Acquisition Regulation Supplement (DFARS) in the Federal
Register Volume 75, No. 41, that address requirements for safeguarding
unclassified information. In addition, DoD continued to enhance the
Defense Industrial Base (DIB) Cyber Security and Information Assurance
Program, established in 2007. Under DoD Instruction 5205.13, dated
January 29, 2010, DoD outlined its policy to create a timely, coordinated,
and effective partnership with the DIB to develop standard policy and
procedures in areas such as contracting and acquisition and to improve the
protection of unclassified DoD information on DIB unclassified systems and
networks.
5. Health Care. The DoD Military Health System (MHS) must provide
   quality care for approximately 9.6 million eligible beneficiaries within
   fiscal constraints while facing increased user demands, legislative
   imperatives, and inflation that make cost control difficult in both the
   public and private sectors. The DoD budget for health care costs was
   approximately $50 billion in FY 2010, an increase of more than
   60 percent ($31 billion) since FY 2005. The DoD Military Health System
   has been moving forward on improving health care while attempting to
   control costs. The MHS implemented the Quadruple Aim Concept,
   building upon the Institute for Healthcare Improvement’s Triple Aim
   concept that describes the results achieved when all elements of a
   health care system work together. Quarterly Force Health Protection
   Survey results show continued improvement in service members’
   medical readiness, except for the Reserves and National Guard. The
   Department established specific milestones to implement a personal
   health record prototype and to expand bi-directional sharing of health
   information with the Department of Veterans Affairs. The Department
   has encountered delays in establishing the electronic health record, but
   continues to progress in sharing electronic medical records with the
   Department of Veterans Affairs.
Management’s Assessment. The Department is actively working to
eliminate unnecessary administrative overhead and unwarranted variation in
both its clinical and administrative processes. The DoD agreed upon a set
of strategic imperatives, used in quarterly reviews, to ensure it meets its
targets for both quality and cost. One area of particular emphasis this year
is to reduce overutilization of emergency rooms, a significant contributor to
recent increases in per capita cost.
The Department is working with the Reserves and National Guard to
address challenges in force readiness, particularly in the area of mental
readiness. Recent data is showing significant improvement in overall
medical readiness. Our human capital team is actively addressing the need
for additional mental health services in support of the readiness of the force.
Over the past three years, DoD added nearly 3000 new mental health
professionals to the workforce and expanded the TRICARE network in the

                                                          Management’s Discussion and Analysis
                                              36
Department of Defense Agency Financial Report for FY 2010

area of behavioral health. Deployment of the Patient Centered Medical
Home, which includes embedded behavioral health workers in primary care,
will add to the capability to address the psychological health needs of
service members and their families.
The Department is continuously improving care for the wounded, ill, and
injured, and their families. Since 2007, over 13,000 Service members have
enrolled in the integrated disability evaluation system. The Department
reduced the disability evaluation period, and Service member satisfaction
with the process is improving. In addition, the National Intrepid Center of
Excellence, which provides specialized services for service members with
Post Traumatic Stress Disorder and traumatic brain injuries, will reach full
operating status before the end of the year.
In addition, strengthened acquisition structure and processes ensure effective
and efficient major acquisitions, such as the Electronic Health Record. The
Department of Defense and the Department of Veterans Affairs are working
together to implement the Virtual Lifetime Electronic Record (VLER), with
successful pilots now operating at several sites. The VLER vision is to make
health, benefits, and personnel information of a Service member or Veteran
from the time of accession to internment, available as necessary. The MHS is
actively working to achieve meaningful use of health information with the rapid
implementation of secure messaging and providing essential health
information to patients in digital formats.
6. Equipping and Training Iraq and Afghan Security Forces. The
   Department faces significant challenges in accomplishing U.S. policy
   and related DoD military strategic goals in Southwest Asia. In Iraq, DoD
   is continuing the training, equipping, and mentoring of the Iraqi Security
   Forces (ISF), including development of the ISF’s logistics sustainment
   base, while conducting a responsible drawdown of military forces by
   December 31, 2011. In addition, DoD is faced with transitioning all
   remaining training, equipping, and mentoring activities to the Office of
   Security Cooperation under Chief of Mission authority, as well as laying
   the groundwork for a robust security assistance and Foreign Military
   Sales program that will endure after the last U.S. military forces leave in
   December 2011. In the Afghanistan-Pakistan region, DoD challenges
   include an intensive effort to train, equip, and mentor the Afghan
   National Security Forces to enable them to assume a lead security
   operations role to enable a conditions-based drawdown of U.S. combat
   forces beginning the summer of 2011. Another major objective includes
   assisting the Pakistan Security Forces develop the capacity to maintain
   internal security and eliminate extremist Taliban and al-Qaeda forces in
   the Northwest Frontier safe haven. Limited resources are available for
   these complex tasks.
Management’s Assessment. The DoD objective between now and
December 2011 is to develop an ISF capable of providing internal security


                                                          Management’s Discussion and Analysis
                                              37
Department of Defense Agency Financial Report for FY 2010

as well as a minimal foundation for external defense. Following the
withdrawal of U.S. forces from Iraq in December 2011, the ISF will continue
to mature in their leadership roles providing security and overall stability for
the citizens of Iraq. The citizens of Iraq continue to develop their confidence
in the ISF, and it is becoming clear that the growing professionalism of the
ISF is a source of national pride.
A key strategic focus remains on training, equipping, and partnering with the
Afghan National Security Forces (ANSF) to enable the transition of lead
security responsibility to the Government of Afghanistan and initiate a
―conditions-based‖ redeployment of U.S. combat forces, beginning in
July 2011, with the ANSF leading security responsibilities by 2014.
The North Atlantic Treaty Organization (NATO) and the Government of
Afghanistan continue to grow both the quality and quantity of the ANSF.
Both the Afghan National Army (ANA) and the Afghan National Police (ANP)
still need support from the international community—particularly in pledging
institutional trainers for the ANSF and Operational Mentoring and Liaison
Teams and Police Operational Mentoring and Liaison Teams—in order to
train the ANSF and provide mentors and partners in the field.
As of August 2010, both ANA and ANP force levels were well above target
goals, at approximately 136,000 and 120,000, respectively. NATO Training
Mission-Afghanistan implemented several positive changes in the ANSF
training regime since November 2009, including increasing the number of
trainers, providing better marksmanship training, adding literacy training, and
opening branch schools for higher end training. Still challenges remain,
including Officer and Non-Commissioned Officer shortages.
7. Nuclear Enterprise. Since the end of the Cold War, there has been a
   dramatic decline in the level and intensity of focus on the nuclear
   enterprise and the nuclear mission.      To reverse this trend, the
   Department is re-focusing on the nuclear enterprise. The Department
   continues to analyze and identify key deficiencies and methods for
   improvement and to develop and implement corrective action plans.
   Sustained commitment is required to create an environment that
   emphasizes the nuclear mission and provides adequate funding and
   leadership to ensure implementation.
Management’s Assessment. The Department continues to make
substantial progress in improving the nuclear enterprise. The DoD has
taken positive action to address recommendations made in DOD IG and
other oversight reports, conducted reviews of the enterprise to identify and
correct deficiencies, and created new management structures, such as the
Air Force Global Strike Command. In addition, the release of the Nuclear
Posture Review and the Section 1251 Report to the Congress on DoD plans
for the nuclear deterrent over the next ten years have provided an
overarching path forward for sustaining the nuclear enterprise. The
Department remains fully committed to restoring confidence in the nuclear

                                                           Management’s Discussion and Analysis
                                               38
Department of Defense Agency Financial Report for FY 2010

enterprise and in the safe handling and accountability of DoD nuclear
assets. While success in accomplishing this task will require years of
sustained commitment, the Department will continue to engage in a robust
effort to implement report recommendations and corrective action plans to
address deficiencies.
8. American Recovery and Reinvestment Act (ARRA). Under ARRA,
   the Congress initially appropriated $7.4 billion to the Department to
   preserve and create jobs; promote economic recovery; assist those most
   affected by the recession; provide investments to increase economic
   efficiency through technological advances in science and health; and
   invest in transportation, environmental protection, and other
   infrastructure. The DoD Agency Plan and four program-specific plans
   met the 12 minimum OMB requirements. As noted in our 2009 DOD IG
   Assessment of Progress, DoD execution of the Recovery Act was not
   moving as quickly as the Department had planned, and much of the
   spending and actual work on the projects would occur in FY 2010. The
   DoD Recovery Act funds for facility repair projects, valued at $4.3 billion,
   were to expire for obligation at the end of FY 2010. The DoD continued
   to press forward to obligate these funds and, as of September 30, 2010,
   with the aid of a statutorily directed $260.5 million ARRA rescission,
   obligated 99.9 percent of the remaining $4.0 billion in expiring funds. The
   DoD also achieved its goal of expending by the end of FY 2010 at least
   45 percent of all ARRA funds by expending 45 percent by
   September 30, 2010. Funds for new construction are available for
   obligation until FY 2014. As of September 30, 2010, DoD had obligated
   71 percent of these funds. The continuing pressure to commence
   activities and expend Recovery Act funds as quickly as possible,
   consistent with prudent management, will add pressure to the
   Department’s understaffed contracting professionals to award and
   administer contracts in an expedited manner. Additionally, without
   adequate and continuous management attention to Recovery Act
   implementation, especially contractor oversight and recipient reporting,
   the Department will have a recurring challenge to effectively meet the
   intent of the Recovery Act and maintain adequate transparency,
   accountability, and stewardship of taxpayer funds.
Management’s        Assessment.          As of September 30, 2010, the
Department obligated $6.5 billion (90 percent) and disbursed $3.2 billion
(45 percent) of the $7.2 billion in ARRA funds for over 4,600 projects at over
400 sites. Obligations for Military Construction and Energy Conservation
Investment projects and outlays for all programs will continue through
FY 2011.




                                                          Management’s Discussion and Analysis
                                              39
Department of Defense Agency Financial Report for FY 2010

Other Management Information and Initiatives
Department of Defense Implementation of the ARRA of 2009
On February 17, 2009, the Congress passed
ARRA and appropriated $7.4 billion to the             Figure 1-16. Recovery Act Funds
Department for military construction, facility
repair, energy efficiency investments, near-
                                                      for the Department of Defense
term energy research, and assistance to
                                                                      Military     Homeowner’s
certain military members and civilians, who                        Construction:       Assistance
experienced financial losses during the                                $2.18B        Fund: $0.6B
U.S. housing market downturn. In addition,
the USACE received $4.6 billion for its civil                                           Near Term
                                                                                          Energy
works program that is separate from DoD’s                      Facility              Technology
other ARRA funds. The Congress rescinded                                                Research:
                                                           Infrastructure                   $0.3B
$0.23 billion of ARRA funds in Public Law                   Investments:
                                                               $4.01B
111-226, reducing the total DoD Recovery                                                  Energy
Act funding to $7.2 billion (Figure 1-16). The                                      Conservation
                                                                                      Investment
purpose for these investments is to stimulate
                                                                  $7.2B
                                                                                  Program: $0.1B
the U.S. economy while enhancing our                                                         B10-06

national security. Building new facilities,
repairing aging facilities, or bringing buildings up to date with the most modern
energy efficiency standards creates and preserves U.S. jobs. Targeted
research on energy projects creates technical jobs and aids the Department in
reducing its long-term energy costs and improving current energy efficiency in
the near-term.
As of September 30, 2010, the Department obligated $6.5 billion (90 percent)
and disbursed $3.2 billion (45 percent) in ARRA funds of the $7.2 billion in
ARRA funds for over 4,600 projects at over 400 sites. Savings of $370 million
realized from project awards funded 380 of these projects. The table below
describes the breakout of obligation and disbursements by major programs.
Obligations for Military Construction and Energy Conservation Investment
projects and disbursements for all programs will continue through FY 2011.

                         PROGRAM                             For Period Ended September 30, 2010
 Dollars in Billions                                       Authority      Obligations   Expenditures
 Facilities Sustainment, Restoration, and Modernization       $ 4.01        $ 4.00         $ 2.18
 Military Construction                                        $ 2.18        $ 1.55         $ 0.26
 Energy Conservation Investment                               $ 0.12        $ 0.09         $ 0.05
 Near Term Energy-Efficient Technologies                      $ 0.30        $ 0.30         $ 0.13
 Home Owners Assistance Program                               $ 0.56        $ 0.52         $ 0.48
 TOTAL                                                        $ 7.17        $ 6.46         $ 3.10


For details regarding the Department’s recovery act implementation and
accountability, refer to DoD website at http://www.defenselink.mil/recovery.

                                                              Management’s Discussion and Analysis
                                                      40
Department of Defense Agency Financial Report for FY 2010

The Department’s Path Forward for 2011 and Beyond
Protecting the American people and advancing our Nation’s interests is a
mission the Department does not take lightly. Recognizing that the U.S. is
a Nation at war, the U.S. and its allies and partners remain engaged in a
broader war – a multifaceted political, military and moral struggle – against
al-Qaeda and its allies around the world. As a global power, the strength
and influence of the U.S. intertwine deeply with the fate of the broader
international system – a system of alliances, partnerships, and multinational
institutions that our country has helped build and sustain for more than sixty
years. The U.S. military must, therefore, be prepared to support broad
national goals of promoting stability in key regions, providing assistance to
nations in need, and promoting the common good.
With these realities in mind, the Department must rebalance the capabilities
of America’s Armed Forces to prevail in today’s wars while building the
capabilities needed to deal with future threats. The Department also must
reform DoD’s institutions and processes to better support the urgent needs
of the warfighter; buy weapons that are usable, affordable, and truly needed;
and spend taxpayer dollars wisely and responsibly.
In order to help defend and advance our national interests, the Department
balances resources and risk to prevail in today’s wars, prevent and deter
conflict, prepare to defeat adversaries and succeed in a wide range of
contingencies, and preserve and enhance the All-Volunteer Force. These
priorities shape not only considerations on the capabilities our Armed Forces
need, but also the aggregate capacity required to accomplish current and
future missions. The approach must evolve and adapt in response to a
changing security environment.
As the U.S. military proceeds with the responsible drawdown in Iraq, the
U.S. will continue to play important roles advising, training, and supporting
Iraqi forces and to work with partners and allies to locate and dismantle
terrorist networks. While U.S. forces are heavily engaged in current wars,
DoD’s prevent-and-deter activities focus on preventing the emergence or
reemergence of transnational terrorist threats and deterring other potential
major adversaries. In addition, the Defense Department will continue to
provide the President with options across a wide range of contingencies,
such as responding to an attack or natural disasters at home, defeating
aggression by adversary states, supporting and stabilizing fragile states that
face serious internal threats, and preventing human suffering due to mass
atrocities or large-scale natural disasters abroad.
To significantly enhance the U.S. forces’ ability to protect and advance U.S.
interests, the Department is focusing on rebalancing America’s Armed
Forces in preparing them for the future by achieving the following key
objectives:




                                                         Management’s Discussion and Analysis
                                              41
Department of Defense Agency Financial Report for FY 2010

   Defend the U.S. and support civil authorities at home
   Succeed in counterinsurgency, stability and counterterrorism operations
   Build the security capacity of partner states
   Deter and defeat aggression in anti-access environments
   Prevent proliferation and counter weapons of mass destruction
   Operate effectively in cyberspace

Years of war have demanded that America’s Armed Forces rapidly innovate
and adapt—the Department’s institutional base must do the same. The
Secretary is taking actions that enable the Department to redirect resources
away from lower-priority programs and activities to address needs that are
more pressing. Where it has not been possible to set initiatives in motion to
meet certain future operational needs, the Secretary has identified vectors
for the evolution of the force, calling on DoD Components to devote
sustained efforts toward developing new concepts and capabilities to
address those needs. Assessments of future operating environments will
continue, with an eye toward refining our understanding of future needs. At
the same time, the Department will continue to look aggressively for savings
in underperforming programs and activities, divestiture, technology
substitution, less-pressing mission and program areas, and other accounts,
so that more resources can be devoted to filling these gaps.
The Department also is assessing other
areas      requiring     particular    attention. “In order to help defend and advance
Reforming security assistance will be             our national interests, the Department
necessary to meet urgent warfighter needs         of Defense balances resources and
and to create new and more responsive             risk among four priority objectives:
mechanisms        for   security     assistance.  prevail in today’s wars, prevent and
Improving how we buy will transform how the
                                                  deter conflict, prepare to defeat
Department matches requirements with
mature technologies, maintains disciplined        adversaries and succeed in a wide
systems         engineering         approaches,   range of contingencies, and preserve
institutionalizes rapid acquisition capabilities, and enhance the All-Volunteer Force.”
and implements more comprehensive                                            Excerpt from 2010 QDR
testing.     Our efforts must also include
reforming the U.S. export control system for the 21st century, and spurring
continued improvements in the provision of rapid logistical support to our
forces abroad. Strengthening the industrial base will maintain our strategic
advantage by establishing a consistent, realistic, and long-term strategy for
shaping the structure and capabilities of the defense technology and
industrial bases—a strategy that better accounts for the rapid evolution of
commercial technology, as well as the unique requirements of ongoing
conflicts.




                                                           Management’s Discussion and Analysis
                                               42
Department of Defense Agency Financial Report for FY 2010


The established priorities, along with both the FY 2010 and FY 2011 budgets, reflect the
Secretary’s consistent emphasis on ensuring the Department does everything possible to
enable success in today’s wars while preparing for a complex and uncertain future. The
Department’s key priority objectives along with modernization of capabilities and its investment
portfolios is critical to shaping how the Department of Defense will support America’s men and
women in uniform today, and build the policy and programmatic foundation for security in the
years to come.

Summary
While focusing on balancing the capabilities to fight today’s wars, the Department's leadership
remains committed to improving financial management processes, controls, and systems. The
size and complexity of DoD’s business operations and the rapid pace of change in the business
environment make it imperative to create a more agile, responsive, and efficient organization.
The Department stands strong and committed to transforming the DoD’s institutions and
processes, including our financial management practices, to better support the urgent needs of
the warfighter; buy weapons that are usable, affordable, and truly needed; and spend taxpayer
dollars wisely and responsibly.




                                                        Management’s Discussion and Analysis
                                              43
Department of Defense Agency Financial Report for FY 2010


Financial Information
Independent Auditor’s Report




                                                            Financial Information
                                         44
Department of Defense Agency Financial Report for FY 2010




                                                            Financial Information
                                         45
Department of Defense Agency Financial Report for FY 2010




                                                            Financial Information
                                         46
Department of Defense Agency Financial Report for FY 2010




                                                            Financial Information
                                         47
Department of Defense Agency Financial Report for FY 2010




                                                            Financial Information
                                         48
Department of Defense Agency Financial Report for FY 2010




                                                            Financial Information
                                         49
Department of Defense Agency Financial Report for FY 2010




                                                            Financial Information
                                         50
Department of Defense Agency Financial Report for FY 2010




                                                            Financial Information
                                         51
Department of Defense Agency Financial Report for FY 2010




                                                            Financial Information
                                         52
Department of Defense Agency Financial Report for FY 2010




                                                            Financial Information
                                         53
Department of Defense Agency Financial Report for FY 2010


PRINCIPAL FINANCIAL STATEMENTS AND NOTES
Limitations of the Financial Statements
The principal financial statements have been prepared to report the financial position and
results of operations of the Department, pursuant to the requirements of 31 U.S.C. 3515(b).
The statements are prepared from accounting records of the Department in accordance with
OMB Circular No. A-136 and, to the extent possible, USGAAP. The statements, in addition to
the financial reports, are used to monitor and control budgetary resources, which are prepared
from the same records. The statements should be read with the realization that they are for a
component of the U.S. Government, a sovereign entity.
The financial statements of the Department include four principal statements listed in Figure 2-1.
The financial statements reflect the aggregate financial posture of the Department and include both
the proprietary (federal accounting standards) and budgetary resources of the Department. The
Department is large and complex with an asset base of $1.9 trillion, and more than 3 million military
and civilian employees on installations in every state and around the world.



 Figure 2-1. Four Principal Financial Statements
 Statement               What Information It Provides
 Balance Sheet           Reflects the Department’s financial position as of the statement date (September 30, 2010). The
                         assets are the amount of future economic benefits owned or managed by the Department. The
                         liabilities are amounts owed by the Department. The net position is the difference between the
                         assets and liabilities.
 Statement of Net Cost   Shows separately the components of the net cost of the Department’s operations for the period. Net
                         cost is equal to the gross cost incurred by the Department less any exchange revenue earned from
                         its activities.
 Statement of Changes    Presents the sum of the cumulative results of operations since inception and unexpended
 in Net Position         appropriations provided to the Department that remain unused at the end of the fiscal year. The
                         statement focuses on how the net cost of operations is financed. The resulting financial position
                         represents the difference between assets and liabilities as shown on the consolidated balance sheet.
 Statement of            Provides information about how budgetary resources were made available as well as their status at
 Budgetary Resources     the end of the period. It is the only financial statement exclusively derived from the Department’s
                         budgetary general ledger in accordance with budgetary accounting rules.




                                                                                                   Financial Information
                                                            54
Department of Defense Agency Financial Report for FY 2010

 Department of Defense Consolidated Balance Sheet
 Agency Wide                                                                                     Dollars in Millions
                                                                                                  Restated
                                                                                 2010               2009
                                                                              Consolidated      Consolidated
 ASSETS (Note 2)
 Intragovernmental:
    Fund Balance with Treasury (Note 3)                                       $   521,641.7       $    502,754.3
    Investments (Note 4)                                                          497,136.9            434,884.0
    Accounts Receivable (Note 5)                                                    1,249.2              1,219.6
    Other Assets (Note 6)                                                           1,874.7              2,594.7
    Total Intragovernmental Assets                                            $ 1,021,902.5       $    941,452.6
  Cash and Other Monetary Assets (Note 7)                                            2,066.7             2,316.8
  Accounts Receivable, Net (Note 5)                                                  9,756.2             7,731.4
  Loans Receivable (Note 8)                                                            522.3               398.5
  Inventory and Related Property, Net (Note 9)                                     232,234.3           229,270.0
  General Property, Plant and Equipment, Net (Note 10)                             595,656.6           558,131.0
  Investments (Note 4)                                                               2,489.7             2,017.1
  Other Assets (Note 6)                                                             65,635.1            56,131.9
  Stewardship Property, Plant & Equipment (Note 10)
  TOTAL ASSETS                                                                $ 1,930,263.4       $ 1,797,449.3

  LIABILITIES (Note 11)
  Intragovernmental:
   Accounts Payable (Note 12)                                                 $     1,754.5       $     2,207.8
   Debt (Note 13)                                                                     518.3               391.7
   Other Liabilities (Note 15)                                                     13,781.4            11,485.7
   Total Intragovernmental Liabilities                                        $    16,054.2       $    14,085.2
 Accounts Payable (Note 12)                                                        31,135.4            35,579.8
 Military Retirement and Other Federal Employment Benefits (Note 17)            2,176,698.9         2,012,166.1
 Environmental and Disposal Liabilities (Note 14)                                  62,902.2            66,230.0
 Loan Guarantee Liability (Note 8)                                                     19.8                21.1
 Other Liabilities (Note 15)                                                       35,563.5            33,837.9
 Commitments & Contingencies (Note 16)
 TOTAL LIABILITIES                                                            $ 2,322,374.0       $ 2,161,920.1

  NET POSITION
  Unexpended Appropriations - Earmarked Funds (Note 23)                        $        304.8    $           5.6
  Unexpended Appropriations - Other Funds                                           528,499.8          503,394.3
  Cumulative Results of Operations - Earmarked Funds                            (1,440,006.0)      (1,343,134.7)
  Cumulative Results of Operations - Other Funds                                    519,090.8          475,264.0
  TOTAL NET POSITION                                                           $ (392,110.6)      $ (364,470.8)

  TOTAL LIABILITIES AND NET POSITION                                           $ 1,930,263.4      $ 1,797,449.3




The accompanying notes are an integral part of these financial statements.


                                                                                          Financial Information
                                                                         55
Department of Defense Agency Financial Report for FY 2010

 Department of Defense Consolidated Statement of Net Cost
 Agency Wide                                                                                    Dollars in Millions
                                                                                                 Restated
                                                                                 2010              2009
                                                                              Consolidated     Consolidated
 Program Costs
 Gross Costs                                                                    $ 701,969.3      $    669,954.2
           Military Retirement Benefits                                             56,741.5            56,179.3
           Civil Works                                                              13,300.4            11,712.0
           Military Personnel                                                     154,374.9           144,750.6
           Operations, Readiness & Support                                        276,976.6           272,133.8
           Procurement                                                            107,960.0             89,150.2
           Research, Development, Test & Evaluation                                 82,506.6            84,388.7
           Family Housing & Military Construction                                   10,109.3            11,639.6
           (Less: Earned Revenue)                                                 (63,242.2)          (46,167.9)
 Net Cost before Losses/(Gains) from Actuarial Assumption Changes
 for Military Retirement Benefits                                               $ 638,727.1      $    623,786.3
           Losses/(Gains) from Actuarial Assumption Changes for Military
           Retirement Benefits                                                    164,089.0             27,703.1
  Net Cost of Operations                                                        $ 802,816.1      $    651,489.4




The accompanying notes are an integral part of these financial statements.


                                                                                         Financial Information
                                                                         56
Department of Defense Agency Financial Report for FY 2010


 Department of Defense Consolidated Statement of Changes in Net Position
 Agency Wide
                                                                                                                                                                                                                                    Dollars in Millions
                                                                                                                                                                   Restated                     Restated                                 Restated
                                                                                  2010                  2010                 2010               2010                                                                   2009
                                                                                                                                                                     2009                         2009                                     2009
                                                                             Earmarked Funds      All Other Funds        Eliminations        Consolidated                                                          Eliminations
                                                                                                                                                               Earmarked Funds              All Other Funds                            Consolidated

   Cumulative Results Of Operations
   Beginning Balances                                                         $   (1,252,265.5)   $     385,526.0    $              0.0      $   (866,739.5)    $           (1,259,693.0)    $    335,935.7    $              0.0     $     (923,757.3)
   Prior Period Adjustments:
       Changes in accounting principles                                                    0.0                 0.0                  0.0                  0.0                         0.0            1,689.6                   0.0               1,689.6
     Corrections of errors                                                              (276.3)           (854.9)                   0.0            (1,131.2)                          0.5         (11,545.3)                  0.0            (11,544.8)
   Beginning balances, as adjusted                                            $   (1,252,541.8)   $     384,671.1    $              0.0      $   (867,870.7)    $           (1,259,692.5)    $    326,080.0    $              0.0     $     (933,612.5)


   Budgetary Financing Sources:
       Appropriations used                                                                23.9          738,746.2                   0.0           738,770.1                          3.8          708,428.3                   0.0             708,432.1
       Nonexchange revenue                                                             2,960.9              (15.0)                  0.0             2,945.9                      2,767.7              (13.7)                  0.0               2,754.0
       Donations and forfeitures of cash and cash equivalents                             46.3                 0.0                  0.0                46.3                         38.0                 0.2                  0.0                  38.2
       Transfers(in/out without reimbursement)                                          (780.1)             983.2                   0.0               203.1                       (836.7)             930.9                   0.0                  94.2
     Other                                                                                 1.4             (810.5)                  0.0              (809.1)                         0.0               (4.2)                  0.0                  (4.2)
   Other Financing Sources (Non-Exchange)
       Donations and forfeitures of property                                               0.0                 6.4                  0.0                  6.4                         0.7                 1.5                  0.0                   2.2
       Transfers(in/out without reimbursement )                                         (244.3)             810.5                   0.0               566.2                        (88.2)              45.4                   0.0                 (42.8)
       Imputed financing                                                                   0.6           18,507.2              12,911.6             5,596.2                          0.0           17,017.3              12,313.5               4,703.8
     Other                                                                                29.0            2,417.5                   0.0             2,446.5                        (19.2)           1,272.9                   0.0               1,253.7
   Total Financing Sources                                                    $        2,037.7    $     760,645.5    $         12,911.6      $    749,771.6         $            1,866.1     $    727,678.6    $         12,313.5     $       717,231.2
   Net Cost of Operations                                                              88,237.1         727,489.5              12,910.5           802,816.1                     (5,284.6)         669,087.5              12,313.5             651,489.4
   Net Change                                                                 $      (86,199.4)   $      33,156.0    $              1.1      $    (53,044.5)        $             7,150.7    $     58,591.1    $              0.0     $        65,741.8
   Cumulative Results of Operations                                           $   (1,338,741.2    $     417,827.1    $              1.1      $   (920,915.2)        $ (1,252,541.8)          $    384,671.1    $              0.0     $     (867,870.7)


   Unexpended Appropriations
   Beginning Balances                                                                      5.6          504,339.3                   0.0           504,344.9                          4.9          446,864.3                   0.0             446,869.2
   Prior Period Adjustments:
     Correction of Error                                                                   0.0            (945.0)                   0.0             (945.0)                          0.0           24,949.2                   0.0              24,949.2
   Beginning balances, as adjusted                                            $            5.6    $     503,394.3    $              0.0      $    503,399.9         $                4.9     $    471,813.5    $              0.0     $       471,818.4


   Budgetary Financing Sources:
       Appropriations received                                                           323.2          775,081.9                   0.0           775,405.1                          4.5          754,440.5                   0.0             754,445.0
       Appropriations transferred (in/out)                                                20.2              608.6                   0.0               628.8                          0.0             (188.4)                  0.0               (188.4)
       Other adjustments                                                                   0.1          (11,859.2)                  0.0           (11,859.1)                         0.0          (14,243.0)                  0.0            (14,243.0)
     Appropriations used                                                                 (23.9)        (738,746.2)                  0.0          (738,770.1)                        (3.8)        (708,428.3)                  0.0           (708,432.1)
   Total Budgetary Financing Sources                                          $          319.6    $       25,085.1   $              0.0      $      25,404.7            $             0.7    $      31,580.8   $              0.0     $        31,581.5
   Unexpended Appropriations                                                  $          325.2    $     528,479.4    $              0.0      $    528,804.6         $                5.6     $    503,394.3    $              0.0     $       503,399.9
   Net Position                                                               $   (1,338,416.0)   $     946,306.5    $              1.1      $   (392,110.6)        $ (1,252,536.2)          $    888,065.4    $              0.0     $     (364,470.8)




The accompanying notes are an integral part of these financial statements.

                                                                                                                                                                                                                                          Financial Information
                                                                                                                                        57
Department of Defense Agency Financial Report for FY 2010

Department of Defense Combined                                                Budgetary                           Nonbudgetary
Statement Of Budgetary Resources                                          Financing Accounts                   Financing Accounts
Agency Wide
                                                                                          Restated                         Restated
Page 1 of 2                                                             2010                2009             2010            2009
Dollars in Millions                                                   Combined            Combined         Combined        Combined
Budgetary Resources
Unobligated balance, brought forward,
                                                                      $      146,041.0    $   134,381.8 $          23.6    $    26.3
October 1
Recoveries of prior year unpaid obligations                                    54,701.2        63,272.9             0.0         47.5
Budget authority
 Appropriation                                                               899,278.4        855,564.3             0.0          0.0
 Borrowing authority                                                               0.0              0.0            26.8         58.4
 Contract authority                                                           73,059.7         67,626.3             0.0          0.0
Spending authority from offsetting collections
 Earned:
   Collected                                                                 184,468.6        178,143.5            69.6         45.1
   Change in receivables from federal sources                                  (350.9)          1,188.9             0.0          0.0
 Change in unfilled customer orders:
    Advance received                                                          (81.9)            1,030.8              0.0          0.0
    Without advance from federal sources                                    2,415.7               (88.3)          (34.9)       (10.8)
 Expenditure transfers from trust funds                                       851.0               862.5              0.0          0.0
 Subtotal                                                             $ 1,159,640.6       $ 1,104,328.0 $           61.5   $     92.7
Nonexpenditure transfers, net, anticipated
                                                                                 803.3            (15.7)            0.0          0.0
and actual
Temporarily not available pursuant to
                                                                             (60,328.7)       (39,190.4)            0.0          0.0
Public Law
Permanently not available                                                 (87,880.6)          (85,969.3)          (13.9)        (0.1)
Total Budgetary Resources                                             $ 1,212,976.8       $ 1,176,807.3 $           71.2   $   166.4
Status of Budgetary Resources
Obligations incurred:
 Direct                                                                   857,647.6           847,069.9            46.3        142.7
 Reimbursable                                                             195,380.6           183,695.8             0.0          0.0
 Subtotal                                                             $ 1,053,028.2       $ 1,030,765.7    $       46.3    $   142.7
Unobligated balance:
  Apportioned                                                                137,589.8        128,132.0            24.8          0.3
  Exempt from apportionment                                                    6,172.0          3,374.0             0.0          0.0
  Subtotal                                                            $      143,761.8    $   131,506.0    $       24.8    $     0.3
Unobligated balance not available                                          16,186.8            14,535.6             0.1         23.4
Total status of budgetary resources                                   $ 1,212,976.8       $ 1,176,807.3    $       71.2    $   166.4




The accompanying notes are an integral part of these financial statements.


                                                                                                                Financial Information
                                                                          58
Department of Defense Agency Financial Report for FY 2010

Department of Defense Combined                                               Budgetary                         Nonbudgetary
Statement of Budgetary Resources                                         Financing Accounts                 Financing Accounts
Agency Wide
                                                                                         Restated                       Restated
Page 2 of 2                                                             2010               2009           2010            2009
Dollars in Millions                                                   Combined           Combined       Combined        Combined
Change in Obligated Balance:
Obligated balance, net
 Unpaid obligations, brought forward,
 October 1                                                                   453,958.7     432,118.5           770.4         872.9
 Less: Uncollected customer payments from
                                                                         (67,702.3)        (66,602.2)         (132.2)       (143.0)
 federal sources, brought forward, October 1
 Total unpaid obligated balance                                       $ 386,256.4        $ 365,516.3    $       638.2   $     729.9
Obligations incurred net                                               1,053,028.2        1,030,765.7            46.3         142.7
Less: Gross outlays                                                    (993,664.7)        (945,652.5)         (197.3)       (197.7)
Less: Recoveries of prior year unpaid
                                                                         (54,701.2)        (63,272.9)            0.0         (47.5)
obligations, actual
Change in uncollected customer payments
                                                                             (2,064.7)      (1,100.5)           34.9          10.8
from federal sources
Obligated balance, net, end of period
  Unpaid obligations                                                         458,621.0     453,958.8           619.4         770.4
  Less: Uncollected customer payments
                                                                         (69,767.0)        (67,702.7)          (97.3)       (132.2)
  from federal sources
 Total, unpaid obligated balance, net,
                                                                      $ 388,854.0        $ 386,256.1    $      522.1    $    638.2
 end of period
Net Outlays
Net Outlays:
 Gross outlays                                                           993,664.7          945,652.5          197.3         197.7
 Less: Offsetting collections                                          (185,237.8)        (180,036.9)          (69.6)        (45.1)
 Less: Distributed offsetting receipts                                  (77,722.2)         (65,912.1)             0.0           0.0
 Net Outlays                                                          $ 730,704.7        $ 699,703.5    $      127.7    $    152.6




The accompanying notes are an integral part of these financial statements.


                                                                                                             Financial Information
                                                                        59
Department of Defense Agency Financial Report for FY 2010

Note 1. Significant Accounting Policies
1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of
operations of the Department of Defense (DoD), as required by the Chief Financial Officers Act
of 1990, expanded by the Government Management Reform Act of 1994, and other appropriate
legislation. The financial statements have been prepared from the books and records of the
Department in accordance with, to the extent possible, U.S. generally accepted accounting
principles (USGAAP) promulgated by the Federal Accounting Standards Advisory Board; the
Office of Management and Budget (OMB) Circular No. A-136, Financial Reporting
Requirements; and the DoD Financial Management Regulation (FMR). The accompanying
financial statements account for all resources for which the Department is responsible unless
otherwise noted. Information relative to classified assets, programs, and operations is excluded
from the statements or otherwise aggregated and reported in such a manner that it is not
discernable.
The Department is unable to fully implement all elements of USGAAP and OMB Circular No.
A-136, due to limitations of financial and nonfinancial management processes and systems that
support the financial statements. The Department derives reported values and information for
major asset and liability categories largely from nonfinancial systems, such as inventory and
logistics systems. These systems were designed to support reporting requirements for
maintaining accountability over assets and reporting the status of federal appropriations rather
than preparing financial statements in accordance with USGAAP. The Department continues to
implement process and system improvements addressing these limitations.
The Department has 13 auditor-identified material weaknesses: (1) Financial Management
Systems; (2) Fund Balance with Treasury; (3) Accounts Receivable; (4) Inventory; (5) Operating
Materials [sic] and Supplies; (6) General Property, Plant, and Equipment; (7) Government-
Furnished Materials [sic] and Contractor-Acquired Materials [sic]; (8) Accounts Payable; (9)
Environmental Liabilities; (10) Statement of Net Cost; (11) Intragovernmental Eliminations; (12)
Other Accounting Entries; and (13) Reconciliation of Net Cost of Operations to Budget.
1.B. Mission of the Reporting Entity
The Department was established by the National Security Act of 1947. The Department
provides the military forces needed to deter war and protect the security of our country. Since
the creation of America’s first army in 1775, the Department and predecessor organizations
have evolved into a global presence with a worldwide infrastructure dedicated to defending the
United States by deterring and defeating aggression and coercion in critical regions.
The Department includes the Military Departments and the Defense Agencies. The Military
Departments consist of the Army, the Navy (of which the Marine Corps is a component), and the
Air Force. The Defense Agencies provide support services commonly used throughout the
Department.
1.C. Appropriations and Funds
The Department receives appropriations and funds as general, working capital (revolving), trust,
special, and deposit funds. The Department uses these appropriations and funds to execute
missions and subsequently report on resource usage.
General Funds are used for financial transactions funded by congressional appropriations,
including personnel, operation and maintenance, research and development, procurement, and
military construction. These general funds also include supplemental funds enacted by the

                                                                           Financial Information
                                              60
Department of Defense Agency Financial Report for FY 2010

American Recovery and Reinvestment Act (Recovery Act) of 2009. Details relating to Recovery
Act appropriated funds are available on line at http://www.defenselink.mil/recovery.
Working Capital Funds (WCF) received funding to establish an initial corpus through an
appropriation or a transfer of resources from existing appropriations or funds. The corpus
finances operations and transactions that flow through the fund. The WCF resources the goods
and services sold to customers on a reimbursable basis and maintains the corpus.
Reimbursable receipts fund future operations and generally are available in their entirety for use
without further congressional action.       At various times, Congress provides additional
appropriations to supplement WCF as an infusion of cash when revenues are inadequate to
cover costs within the corpus.
Trust funds contain receipts and expenditures of funds held in trust by the government for use in
carrying out specific purposes or programs in accordance with the terms of the donor, trust
agreement, or statute. Special fund accounts are used to record government receipts reserved
for a specific purpose. Certain trust and special funds may be designated as earmarked funds.
Earmarked funds are financed by specifically identified revenues, required by statute to be used
for designated activities, benefits or purposes, and remain available over time. The Department
is required to separately account for and report on the receipt, use and retention of revenues
and other financing sources for earmarked funds.
Deposit funds are used to record amounts held temporarily until paid to the appropriate
government or public entity. They are not Department funds, and as such, are not available for
the Department’s operations. The Department is acting as an agent or custodian for funds
awaiting distribution.
The Department is a party to allocation transfers with other federal agencies as a transferring
(parent) entity or receiving (child) entity. An allocation transfer is an entity’s legal delegation of
authority to obligate budget authority and outlay funds on its behalf. Generally, all financial
activity related to allocation transfers (e.g., budget authority, obligations, outlays) is reported in
the financial statements of the parent entity. Exceptions to this general rule apply to specific
funds for which OMB has directed that all activity be reported in the financial statements of the
child entity. These exceptions include U.S. Treasury-Managed Trust Funds, Executive Office of
the President (EOP), and all other funds specifically designated by OMB. Based on an
agreement with OMB, funds for Security Assistance programs are reported separately from the
Department's financial statements and notes.
The Department receives allocation transfers from the following agencies: Departments of
Agriculture, Interior, Energy, and Transportation; the Appalachian Regional Commission; and
the Federal Highway Administration.
Additionally, the Department receives allocation transfers from certain funds meeting the OMB
exception and all related activity is included in the Department’s financial statements. The
exceptions reported by the Department include South Dakota Terrestrial Wildlife Habitat
Restoration, Inland Waterways and Harbor Maintenance, and the EOP other than funds
executed by Defense Security Cooperation Agency for Security Assistance.
As a parent, the Department allocates funds to the Departments of Transportation and
Agriculture, and reports all related activity in these financial statements.
1.D. Basis of Accounting
The Department’s financial management systems are unable to meet all full accrual accounting
requirements. Many of the Department’s financial and nonfinancial feeder systems and
processes were designed and implemented prior to the issuance of USGAAP. These systems

                                                                               Financial Information
                                                 61
Department of Defense Agency Financial Report for FY 2010

were not designed to collect and record financial information on the full accrual accounting basis
as required by USGAAP. Most of the Department’s financial and nonfinancial legacy systems
were designed to record information on a budgetary basis.
The Department’s financial statements and supporting trial balances are compiled from the
underlying financial data and trial balances of the Military Services and Defense Agencies and
their sub-entities. The underlying data is largely derived from budgetary transactions
(obligations, disbursements, and collections), from nonfinancial feeder systems, and accruals
made for major items such as payroll expenses, accounts payable, and environmental liabilities.
Some of the sub-entity level trial balances may reflect known abnormal balances resulting
largely from business and system processes. At the consolidated level, these abnormal
balances may not be evident. Disclosures of abnormal balances are made in the applicable
footnotes, but only to the extent that the abnormal balances are evident at the consolidated
level.
The Department is determining the actions required to bring financial and nonfinancial feeder
systems and processes into compliance with USGAAP. One such action is the current revision
of accounting systems to record transactions based on the U.S. Standard General Ledger
(USSGL). Until all of the Department’s financial and nonfinancial feeder systems and processes
are able to collect and report financial information as required by USGAAP, the Department’s
financial data will be derived from budgetary transactions, data from nonfinancial feeder
systems, and accruals.
1.E. Revenues and Other Financing Sources
The Department receives congressional appropriations as financing sources for general funds
that expire annually, on a multi-year basis, or do not expire. When authorized by legislation,
these appropriations are supplemented by revenues generated by sales of goods or services.
The Department recognizes revenue as a result of costs incurred for goods and services
provided to other federal agencies and the public. Full-cost pricing is the Department’s standard
policy for services provided as required by OMB Circular No. A-25, User Charges. The
Department recognizes revenue when earned within the constraints of its current system
capabilities. In some instances, revenue is recognized when bills are issued.
Depot Maintenance and Ordnance WCF activities recognize revenue according to the
percentage of completion method. Supply Management WCF activities recognize revenue from
the sale of inventory items.
The Department does not include nonmonetary support provided by U.S. allies for common
defense and mutual security in amounts reported in the Statement of Net Cost and Note 21,
Reconciliation of Net Cost of Operations to Budget. The U.S. has cost sharing agreements with
countries having a mutual or reciprocal defense agreement, where U.S. troops are stationed, or
where the U.S. Fleet is in a port.
1.F. Recognition of Expenses
For financial reporting purposes, the Department’s policy requires the recognition of operating
expenses in the period incurred. Current financial and nonfinancial feeder systems were not
designed to collect and record financial information on the full accrual accounting basis.
Estimates are made for major items such as payroll expenses, accounts payable, environmental
liabilities, and unbilled revenue. In the case of Operating Materiel and Supplies (OM&S),
operating expenses are generally recognized when the items are purchased. Efforts are
underway to transition to the consumption method for recognizing OM&S expenses. Under the
consumption method, OM&S would be expensed when consumed. Due to system limitations, in

                                                                            Financial Information
                                               62
Department of Defense Agency Financial Report for FY 2010

some instances expenditures for capital and other long-term assets may be recognized as
operating expenses.     The Department continues to implement process and system
improvements to address these limitations.
1.G. Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminate intraentity activity and balances from
consolidated financial statements in order to prevent overstatement for business with itself.
However, the Department cannot accurately identify intragovernmental transactions by
customer because the Department’s systems do not track buyer and seller data at the
transaction level. Generally, seller entities within the Department provide summary seller-side
balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal
Department accounting offices. In most cases, the buyer-side records are adjusted to agree
with the Department’s seller-side balances and are then eliminated. The Department is
implementing replacement systems and a standard financial information structure which will
incorporate the necessary elements that will enable the Department to correctly report,
reconcile, and eliminate intragovernmental balances.
The U.S. Treasury’s Federal Intragovernmental Transactions Accounting Policies Guide and
Treasury Financial Manual Part 2 – Chapter 4700, Agency Reporting Requirements for the
Financial Report of the United States Government, provide guidance for reporting and
reconciling intragovernmental balances. While the Department is unable to fully reconcile
intragovernmental transactions with all federal agencies, the Department is able to reconcile
balances pertaining to investments in federal securities, borrowings from the U.S. Treasury and
the Federal Financing Bank, Federal Employees’ Compensation Act transactions with the
Department of Labor, and benefit program transactions with the Office of Personnel
Management.
The Department’s proportionate share of public debt and related expenses of the Federal
government is not included. The Federal government does not apportion debt and related costs
to federal agencies. The Department’s financial statements do not report any public debt,
interest, or source of public financing, whether from issuance of debt or tax revenues.
Generally, financing for the construction of the Department’s facilities is obtained through
appropriations. To the extent this financing ultimately may have been obtained through the
issuance of public debt, interest costs have not been capitalized since the U.S. Treasury does
not allocate such costs to the Department.
1.H. Transactions with Foreign Governments and International Organizations
Each year, the Department sells defense articles and services to foreign governments and
international organizations under the provisions of the Arms Export Control Act of 1976. Under
the provisions of the Act, the Department has authority to sell defense articles and services to
foreign countries and international organizations generally at no profit or loss to the Federal
Government. Payment in U.S. dollars is required in advance.
1.I. Funds with the U.S. Treasury
The Department’s monetary resources are maintained in U.S. Treasury accounts. The
disbursing offices of Defense Finance and Accounting Service (DFAS), the Military
Departments, the U.S. Army Corps of Engineers (USACE), and the Department of State’s
financial service centers process the majority of the Department’s cash collections,
disbursements, and adjustments worldwide. Each disbursing station prepares monthly reports
to the U.S. Treasury on checks issued, electronic fund transfers, interagency transfers, and
deposits.

                                                                           Financial Information
                                              63
Department of Defense Agency Financial Report for FY 2010

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by
appropriation on interagency transfers, collections received, and disbursements issued. The
U.S. Treasury records these transactions to the applicable Fund Balance with Treasury (FBWT)
account. On a monthly basis, the Department's FBWT is adjusted to agree with the U.S.
Treasury's accounts.
1.J. Cash and Other Monetary Assets
Cash is the total of cash resources under the control of the Department, which includes coin,
paper currency, negotiable instruments, and amounts held for deposit in banks and other
financial institutions. Foreign currency consists of the total U.S. dollar equivalent of both
purchased and nonpurchased foreign currencies held in foreign currency fund accounts.
Foreign currency is valued using the U.S. Treasury prevailing rate of exchange.
The majority of cash and all foreign currency is classified as ―nonentity‖ and is restricted.
Amounts reported consist primarily of cash and foreign currency held by disbursing officers to
carry out their paying, collecting, and foreign currency accommodation exchange missions.
The Department conducts a significant portion of operations overseas. Congress established a
special account to handle the gains and losses from foreign currency transactions for five
general fund appropriations:(1) operations and maintenance; (2) military personnel; (3) military
construction; (4) family housing operation and maintenance; and (5) family housing
construction. The gains and losses are calculated as the variance between the exchange rate
current at the date of payment and a budget rate established at the beginning of each fiscal
year. Foreign currency fluctuations related to other appropriations require adjustments to the
original obligation amount at the time of payment. The Department does not separately identify
foreign currency fluctuation transactions.
1.K. Accounts Receivable
Accounts receivable from other federal entities or the public include: accounts receivable, claims
receivable, and refunds receivable. Allowances for uncollectible accounts due from the public
are based upon an analysis of collection experience by fund type. The Department does not
recognize an allowance for estimated uncollectible amounts from other federal agencies.
Claims against other federal agencies are to be resolved between the agencies in accordance
with dispute resolution procedures defined in the Intragovernmental Business Rules published
in the Treasury Financial Manual at http://www.fms.treas.gov/tfm/vol1/07-03.pdf.
1.L. Direct Loans and Loan Guarantees
The Department operates a direct loan and loan guarantee program authorized by the National
Defense Authorization Act for FY 1996 (Public Law (PL) 104-106, Section 2801). The Act
includes a series of authorities that allow the Department to work with the private sector to
renovate military housing. The Department’s goals are to obtain private capital to leverage
government dollars, make efficient use of limited resources, and use a variety of private sector
approaches to build and renovate military housing faster and at a lower cost to the American
taxpayers.
The Act also provides the Department with a variety of authorities to obtain private sector
financing and expertise to improve military housing. The Department uses these authorities
individually or in combination.        They include guarantees (both loan and rental),
conveyance/leasing of existing property and facilities, differential lease payments, investments
(both limited partnerships and stock/bond ownership), and direct loans.



                                                                            Financial Information
                                               64
Department of Defense Agency Financial Report for FY 2010

The National Defense Authorization Act for FY 2005 (PL 108-375, Section 2805) provided
permanent authorities to the Military Housing Privatization Initiative (MHPI).
The Department operates the Armament Retooling and Manufacturing Support Initiative under
Title 10 United States Code 4551-4555. This loan guarantee program is designed to encourage
commercial use of inactive government facilities. The revenue generated from property rental
offsets the cost of maintaining these facilities.
The Department administers the Foreign Military Financing program on behalf of the EOP. This
program is authorized by sections 23 and 24 of the Arms Export Control Act of 1976, as
amended, PL 90-629, as amended, and Section 503(a). This program provides loans to help
countries purchase U.S. produced weapons, defense equipment, services, or military training.
The direct loans and loan guarantees related to Foreign Military Sales are not included in these
financial statements, per the Department’s agreement with OMB; this information is provided
separately as other accompanying information.
The Federal Credit Reform Act of 1990 governs all amended direct loan obligations and loan
guarantee commitments made after FY 1991.
1.M. Inventories and Related Property
The Department values approximately 72 percent of resale inventory using the moving average
cost method. An additional 9 percent (fuel inventory) is reported using the first-in-first-out
method. The Department reports the remaining 19 percent of resale inventories at an
approximation of historical cost using latest acquisition cost adjusted for holding gains and
losses. The latest acquisition cost method is used because legacy inventory systems were
designed for materiel management rather than accounting. Although these systems provide
visibility and accountability over inventory items, they do not maintain historical cost data
necessary to comply with Statement of Federal Financial Accounting Standards (SFFAS) No. 3,
Accounting for Inventory and Related Property. Additionally, these systems cannot produce
financial transactions using the USSGL, as required by the Federal Financial Management
Improvement Act of 1996 (PL 104-208). The Department is continuing to transition the balance
of the inventories to the moving average cost method through the use of new inventory systems.
Most transitioned balances, however, were not baselined to auditable historical cost and remain
noncompliant with SFFAS No. 3.
The Department manages only military or government-specific materiel under normal
conditions. Materiel is a unique term that relates to military force management, and includes
items such as ships, tanks, self-propelled weapons, aircraft, etc., and related spares, repair
parts, and support equipment. Items commonly used in and available from the commercial
sector are not managed in the Department’s materiel management activities. Operational
cycles are irregular, and the military risks associated with stock-out positions have no
commercial parallel. The Department holds materiel based on military need and support for
contingencies. The Department is currently developing a methodology to be used to account for
―inventory held for sale‖ and ―inventory held in reserve for future sale,‖ with a completion date of
year-end FY 2011 reporting.
Related property includes OM&S and stockpile materiel. The OM&S, including munitions not
held for sale, are valued at standard purchase price. The Department uses both the
consumption method and the purchase method of accounting for OM&S. Items that are
centrally managed and stored, such as ammunition and engines, are generally recorded using
the consumption method and are reported on the Balance Sheet as OM&S. When current
systems cannot fully support the consumption method, the Department uses the purchase
method. Under this method, materiel and supplies are expensed when purchased. During FY
2010 and FY 2009, the Department expensed significant amounts using the purchase method
                                                                              Financial Information
                                                65
Department of Defense Agency Financial Report for FY 2010

because the systems could not support the consumption method or management deemed that
the item was in the hands of the end user. This is a material weakness for the Department and
long-term system corrections are in process. Once the proper systems are in place, these items
will be accounted for under the consumption method of accounting.
The Department determined that the recurring high dollar-value of OM&S in need of repair is
material to the financial statements and requires a separate reporting category. Many high-
dollar items, such as aircraft engines, are categorized as OM&S rather than military equipment.
The Department recognizes excess, obsolete, and unserviceable inventory and OM&S at a net
realizable value of $0 pending development of an effective means of valuing such materiel.
Inventory available and purchased for resale includes consumable spare and repair parts, and
repairable items owned and managed by the Department. This inventory is retained to support
military or national contingencies. Inventory held for repair is damaged inventory that requires
repair to make it suitable for sale. Often, it is more economical to repair these items rather than
to procure them. The Department often relies on weapon systems and machinery no longer in
production. As a result, the Department supports a process that encourages the repair and
rebuilding of certain items. This repair cycle is essential to maintaining a ready, mobile, and
armed military force. Work in process balances include: (1) costs related to the production or
servicing of items, including direct material, labor, and applied overhead;
(2) the value of finished products or completed services that are yet to be placed in service; and
(3) munitions in production and depot maintenance work with associated costs incurred in the
delivery of maintenance services.
1.N. Investments in U.S. Treasury Securities
The Department reports investments in U.S. Treasury securities at cost, net of amortized
premiums or discounts. Premiums or discounts are amortized over the term of the investments
using the effective interest rate method or another method that yields similar results. The
Department’s intent is to hold investments to maturity unless they are needed to finance claims
or otherwise sustain operations. Consequently, a provision is not made for unrealized gains or
losses on these securities.
The Department invests in nonmarketable, market-based U.S. Treasury securities, which are
issued to federal agencies by the U. S. Treasury’s Bureau of the Public Debt. They are not
traded on any securities exchange but mirror the prices of particular U.S. Treasury securities
traded in the government securities market.
The Department’s net investments are held by various trust and special funds. These funds
include the Military Retirement Fund; Medicare-Eligible Retiree Health Care Fund; Other
Defense Organizations General Fund trust and special funds; donations (gift funds); and the
U. S. Treasury managed trust funds reported by USACE including the South Dakota Terrestrial
Habitat Restoration, Inland Waterways, and Harbor Maintenance Trust Funds.
Other investments represent joint ventures with private developers constructing or improving
military housing on behalf of the Department under the authority of the MHPI, authorized by
PL 104-106, Section 2801. These investments do not require market value disclosure. The
Department’s potential losses on these ventures are limited to the amounts invested.
1.O. General Property, Plant and Equipment
The Department uses the estimated historical cost for valuing military equipment. The
Department identified the universe of military equipment by accumulating information relating to
program funding and associated military equipment, equipment useful life, program acquisitions,

                                                                             Financial Information
                                                66
Department of Defense Agency Financial Report for FY 2010

and disposals to establish a baseline. The military equipment baseline is updated using
expenditure, acquisition, and disposal information.
The Department’s General Property, Plant, and Equipment (PP&E) capitalization threshold is
$100 thousand except for real property, which is $20 thousand. The Department has not fully
implemented the threshold for real property; therefore, the Department is primarily using the
capitalization threshold of $100 thousand for General PP&E, and most real property.
With the exception of USACE Civil Works and WCF, General PP&E assets are capitalized at
historical acquisition cost when an asset has a useful life of two or more years and when the
acquisition cost equals or exceeds the Department’s capitalization threshold. The Department
also requires the capitalization of improvements to existing General PP&E assets if the
improvements equal or exceed the capitalization threshold and extend the useful life or increase
the size, efficiency, or capacity of the asset. The Department depreciates all General PP&E,
other than land, on a straight-line basis.
The WCFs capitalize all PP&E used in the performance of their mission. These assets are
capitalized as General PP&E, whether or not they meet the definition of any other PP&E category.
The USACE Civil Works General PP&E is capitalized at acquisition cost plus capitalized
improvements when an asset has a useful life of two or more years and the acquisition cost
exceeds $25 thousand. The exception is buildings and structures related to hydropower
projects, which are capitalized regardless of cost.
When it is in the best interest of the government, the Department provides government property
to contractors to complete contract work. The Department either owns or leases such property,
or it is purchased directly by the contractor for the government based on contract terms. When
the value of contractor-procured General PP&E meets or exceeds the Department’s
capitalization threshold, federal accounting standards require that it be reported on the
Department’s Balance Sheet.

The Department developed policy and a reporting process for contractors with government
furnished equipment that provides appropriate General PP&E information for financial statement
reporting. The Department requires that entities maintain, in their property systems, information
on all property furnished to contractors. These actions are structured to capture and report the
information necessary for compliance with federal accounting standards. The Department has
not fully implemented this policy primarily due to system limitations.
1.P. Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, the
Department’s policy is to record advances or prepayments in accordance with USGAAP. As
such, payments made in advance of the receipt of goods and services should be reported as an
asset on the Balance Sheet. The Department’s policy is to expense and/or properly classify
assets when the related goods and services are received. The Department has not fully
implemented this policy primarily due to system limitations.
1.Q. Leases
Lease payments for the rental of equipment and operating facilities are classified as either
capital or operating leases. When a lease is essentially equivalent to an installment purchase of
property (a capital lease), and the value equals or exceeds the current capitalization threshold,
the Department records the applicable asset as though purchased, with an offsetting liability,
and depreciates it. The Department records the asset and liability at the lesser of the present
value of the rental and other lease payments during the lease term (excluding portions
                                                                           Financial Information
                                               67
Department of Defense Agency Financial Report for FY 2010

representing executory costs paid to the lessor) or the asset’s fair market value. The discount
rate for the present value calculation is either the lessor’s implicit interest rate or the
government’s incremental borrowing rate at the inception of the lease. The Department, as the
lessee, receives the use and possession of leased property, for example real estate or
equipment, from a lessor in exchange for a payment of funds. An operating lease does not
substantially transfer all the benefits and risks of ownership. Payments for operating leases are
expensed over the lease term as they become payable.
Office space and leases entered into by the Department are the largest component of operating
leases and are based on costs gathered from existing leases, General Services Administration
bills, and interservice support agreements. Future year projections use the Consumer Price
Index.
1.R. Other Assets
Other assets include those assets, such as military and civil service employee pay advances,
travel advances, and certain contract financing payments that are not reported elsewhere on the
Department’s Balance Sheet.
The Department conducts business with commercial contractors under two primary types of
contracts: fixed price and cost reimbursable. To alleviate the potential financial burden on the
contractor that long-term contracts can cause, the Department may provide financing payments.
Contract financing payments are defined in the Federal Acquisition Regulation, Part 32, as
authorized disbursements to a contractor prior to acceptance of supplies or services by the
government. Contract financing payment clauses are incorporated in the contract terms and
conditions and may include advance payments, performance-based payments, commercial
advances and interim payments, progress payments based on cost, and interim payments
under certain cost reimbursement contracts. It is the Department’s policy to record certain
contract financing payments as other assets. The Department has not fully implemented this
policy primarily due to system limitations.
Contract financing payments do not include invoice payments, payments for partial deliveries,
lease and rental payments, or progress payments based on a percentage or stage of
completion. The Defense Federal Acquisition Regulation Supplement authorizes progress
payments based on a percentage or stage of completion only for construction of real property,
shipbuilding and ship conversion, alteration, or repair. Progress payments based on percentage
or stage of completion are reported as Construction in Progress.
1.S. Contingencies and Other Liabilities
The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by
SFFAS No. 12, Recognition of Contingent Liabilities Arising from Litigation, defines a
contingency as an existing condition, situation, or set of circumstances that involves an
uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more
future events occur or fail to occur. The Department recognizes contingent liabilities when past
events or exchange transactions occur, a future loss is probable, and the loss amount can be
reasonably estimated.
Financial statement reporting is limited to disclosure when conditions for liability recognition do
not exist, but there is at least a reasonable possibility of incurring a loss or additional losses.
The Department’s risk of loss and resultant contingent liabilities arise from pending or
threatened litigation or claims and assessments due to events such as aircraft, ship and vehicle
accidents; medical malpractice; property or environmental damages; and contract disputes.


                                                                             Financial Information
                                                68
Department of Defense Agency Financial Report for FY 2010

Other liabilities also arise as a result of anticipated disposal costs for the Department’s assets.
Consistent with SFFAS No. 6, Accounting for Property, Plant, and Equipment, recognition of an
anticipated environmental disposal liability begins when the asset is placed into service. Based
on the Department’s policy, which is consistent with SFFAS No. 5, Accounting for Liabilities of
the Federal Government, nonenvironmental disposal liabilities are recognized when
management decides to dispose of an asset. The Department recognizes nonenvironmental
disposal liabilities for military equipment nuclear-powered assets when placed into service.
These amounts are not easily distinguishable and are developed in conjunction with
environmental disposal costs.
1.T. Accrued Leave
The Department reports liabilities for military leave and accrued compensatory and annual leave
for civilians. Sick leave for civilians is expensed when taken. The liabilities are based on
current pay rates.
1.U. Net Position
Net position consists of unexpended appropriations and cumulative results of operations.
Unexpended appropriations represent the amounts of budget authority that are unobligated and
have not been rescinded or withdrawn. Unexpended appropriations also represent amounts
obligated for which legal liabilities for payments have not been incurred.
Cumulative results of operations represent the net difference between expenses and losses,
and financing sources (including appropriations, revenue, and gains) since inception. The
cumulative results of operations also include donations and transfers in and out of assets that
were not reimbursed.
1.V. Treaties for Use of Foreign Bases
The Department has the use of land, buildings, and other overseas facilities that are obtained
through various international treaties and agreements negotiated by the Department of State.
The Department purchases capital assets overseas with appropriated funds, however, the host
country retains title to the land and capital improvements. Treaty terms generally allow the
Department continued use of these properties until the treaties expire. In the event treaties or
other agreements are terminated, use of the foreign bases is prohibited and losses are recorded
for the value of any nonretrievable capital assets. The settlement due to the U.S. or host nation
is negotiated and takes into account the value of capital investments and may be offset by the
cost of environmental cleanup.
1.W. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements
and collections matched at the transaction level to specific obligations, payables, or receivables
in the source systems and those reported by the U.S. Treasury.
Supported disbursements and collections are evidenced by corroborating documentation.
Unsupported disbursements and collections do not have supporting documentation for the
transaction and most likely would not meet audit scrutiny.
The Department’s policy is to allocate supported undistributed disbursements and collections
between federal and nonfederal categories based on the percentage of distributed federal and
nonfederal accounts payable and accounts receivable. Supported undistributed disbursements
and collections are then applied to reduce accounts payable and receivable accordingly.
Unsupported, undistributed disbursements are recorded as disbursements in transit and reduce

                                                                             Financial Information
                                                69
Department of Defense Agency Financial Report for FY 2010

nonfederal accounts payable.           Unsupported, undistributed collections are recorded in
nonfederal other liabilities.
1.X. Fiduciary Activities
Fiduciary cash and other assets are not assets of the Department and are not recognized on the
balance sheet. Fiduciary activities are reported in the financial statement note schedules.
1.Y. Significant Events
During FY 2010, the Department implemented Statement of Federal Financial Accounting
Standard (SFFAS) No. 33, ―Pensions, Other Retirement Benefits, and Other Postemployment
Benefits: Reporting the Gains and Losses from Changes in Assumptions and Selecting
Discount Rates and Valuation Dates‖ that prescribes a standard for selecting the discount rate
and valuation date used in estimating actuarial liabilities and requires a separate presentation of
gains and losses from changes in long-term assumptions used to estimate the actuarial liability.
Refer to Note 17, Military Retirement and Other Federal Employment Benefits and Note 18,
General Disclosures Related to the Statement of Net Cost, for additional information.

Note 2. Nonentity Assets

 Nonentity Assets                                                                    Dollars in Millions


 As of September 30
                                                                                   Restated
                                                           2010
                                                                                     2009
 Intragovernmental Assets
      Fund Balance with Treasury                       $            620.5      $                 823.2
      Accounts Receivable                                              0.5                          0.0
      Total Intragovernmental Assets                   $            621.0      $                 823.2
 Nonfederal Assets
      Cash and Other Monetary Assets                   $           2,001.0     $              2,239.4
      Accounts Receivable                                          6,412.3                    4,583.5
      Other Assets                                                  184.8                        186.2
      Total Nonfederal Assets                          $           8,598.1     $              7,009.1
 Total Nonentity Assets                                $           9,219.1     $              7,832.3
 Total Entity Assets                                   $       1,921,044.3     $         1,789,617.0
 Total Assets                                          $       1,930,263.4     $         1,797,449.3


Nonentity assets are assets for which the Department maintains stewardship accountability and
reporting responsibility but are not available for the Department’s normal operations.
The Department identified the following restatements: (1) errors impacting ending account
balances while migrating from a manual to an automated interface between budget execution
and financial statement reporting systems; (2) property, plant and equipment valued incorrectly;
(3) overstated accounts receivable (nonfederal) established to recover pharmacy costs from
drug manufacturers; (4) inventory valued incorrectly; and (5) contract financing payments based
on auditor-recommended adjustments. To correct the errors, the Department restated Note 2,
Nonentity Assets, Total Entity Assets by $2.0 billion. Refer to Note 26, Restatements, for further
information.


                                                                             Financial Information
                                                 70
Department of Defense Agency Financial Report for FY 2010

Intragovernmental Fund Balance with Treasury (FBWT) consists of deposit funds. Deposit
funds are generally used to record amounts held temporarily until paid to the appropriate party.
Additionally, the balance includes residual amounts of seized Iraqi cash and the Development
Fund for Iraq (DFI). Seized Iraqi cash is former Iraqi regime monies confiscated by coalition
forces and restricted for support of the Iraqi people. The DFI consists of proceeds from Iraqi oil
sales, repatriated assets from the United States and other nations, and deposits from
unencumbered oil-for-food proceeds. DFI funds are restricted for Iraqi infrastructure and other
Iraqi support needs.
Intragovernmental Accounts Receivable consists of amounts due from cancelled appropriations.
Nonfederal Cash and Other Monetary Assets primarily consists of cash held by Disbursing
Officers to carry out payment, collection, and foreign currency accommodation exchange
missions.
Nonfederal Accounts Receivable consists of amounts due from canceled year appropriations,
and interest, fines, and penalties due on debt. Generally, the Department cannot use the
collections and must distribute them to the U.S. Treasury. Where the Department has specific
statutory authority to retain collections from certain canceled year accounts receivable, those
receivables are reported as entity assets.
Nonfederal Other Assets consists of an Advance Payment Pool Agreement with a nonprofit
educational institution to finance research and development projects.

Note 3. Fund Balance with Treasury
 Fund Balance with Treasury                                                          Dollars in Millions

 As of September 30                                          2010                    2009
 Fund Balance
      Appropriated Funds                               $         507,886.2     $           491,763.4
      Revolving Funds                                               9,965.4                   7,804.2
      Trust Funds                                                   2,400.9                   1,874.0
      Special Funds                                                  716.3                       395.8
      Other Fund Types                                               672.9                       916.9
      Total Fund Balance                                $        521,641.7      $          502,754.3
 Fund Balance Per Treasury Versus Agency
      Fund Balance per Treasury                         $        528,003.5      $          509,703.2
      Fund Balance per Agency                                    521,641.7                 502,754.3

 Reconciling Amount                                     $           6,361.8     $             6,948.9



Other Fund Types primarily consists of deposit funds, receipt accounts, and Development Fund
for Iraq.
The Department shows a reconciling net difference of $6.4 billion with the U.S. Treasury. This
includes canceling year authority of $5.5 billion, unavailable receipts of $688.0 million, and
fiduciary activities of $178.9 million.




                                                                              Financial Information
                                               71
Department of Defense Agency Financial Report for FY 2010



 Status of Fund Balance with Treasury                                Dollars in Millions

 As of September 30
                                                                     Restated
                                                2010
                                                                       2009
 Unobligated Balances
    Available                             $         143,733.4    $         131,437.2
   Unavailable                                      503,114.4              440,714.6
 Obligated Balance not yet Disbursed                459,240.3              454,275.7
 Nonbudgetary FBWT                                      807.8                    899.8
 NonFBWT Budgetary Accounts                        (585,254.2)           (524,573.0)
 Total Fund Balance                       $         521,641.7    $         502,754.3

The Department identified errors impacting ending FY 2009 account balances while migrating
from a manual to an automated interface between budget execution and financial statement
reporting systems. To correct the errors, the Department restated Note 3, Fund Balance with
Treasury, Status of Fund Balance with Treasury. Refer to Note 26, Restatements, for further
information.
The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support
the FBWT and is a reconciliation between budgetary and proprietary accounts. It primarily
consists of unobligated and obligated balances. The balances reflect the budgetary authority
remaining for disbursement against current or future obligations.
Unobligated Balance is classified as available or unavailable and represents the cumulative
amount of budgetary authority that has not been set aside to cover outstanding obligations. The
unavailable balance consists primarily of funds invested in U.S. Treasury securities that are
temporarily precluded from obligation by law. Certain unobligated balances are restricted for
future use and are not apportioned for current use. Unobligated balances for trust fund
accounts are restricted for use by the public law that established the funds.
Obligated Balance not yet Disbursed represents funds that have been obligated for goods and
services not received and those received, but not paid.
Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit
funds, unavailable receipt accounts, clearing accounts, and nonentity FBWT.
NonFBWT Budgetary Accounts reduces the Status of FBWT and consists of investments in
U.S. Treasury securities, unfilled customer orders without advance, contract and borrowing
authority, and receivables.




                                                                                  Financial Information
                                              72
Department of Defense Agency Financial Report for FY 2010

Note 4. Investments and Related Interest

 Investments and Related Interest                                                                          Dollars in Millions
                                                                           2010
                                                                          Amortized                 Market
                                                            Amortization             Investments,
                                                Cost                     (Premium) /                Value
                                                              Method                     Net
As of September 30                                                        Discount                Disclosure
 Intragovernmental Securities
 Nonmarketable, Market-Based
       Military Retirement Fund        $        325,124.5     See Below   $    (6,559.6)   $   318,564.9      $ 351,050.7
       Medicare-Eligible Retiree
                                                168,568.9     See Below        (4,134.2)       164,434.7          182,212.1
       Health Care Fund
       US Army Corps of
                                                  5,716.8     See Below           (11.2)          5,705.6            5,987.4
       Engineers
       Other Funds                                3,525.3     See Below           (39.3)          3,486.0            3,670.9
Total Nonmarketable,Market-
                                       $        502,935.5                 $   (10,744.3)   $ 492,191.2        $ 542.921.1
     Based
 Accrued Interest                                 4,945.7                                         4,945.7            4,945.7
 Total Intragovernmental
                                        $       507,881.2                 $ (10,744.3)     $ 497,136.9        $ 547,866.8
 Securities
 Other Investments
 Total Other Investments                $         2,489.7                 $          0.0   $      2,489.7                 N/A
 Amortization Method Used: Effective Interest



 Investments and Related Interest                                                                          Dollars in Millions
                                                                        Restated 2009
                                                                          Amortized
                                                            Amortization              Investments, Market Value
                                            Cost                         (Premium) /
                                                              Method                      Net       Disclosure
As of September 30                                                         Discount
Intragovernmental Securities
 Nonmarketable,
 Market-Based
     Military Retirement Fund           $      281,250.3     See Below    $ (5,774.0)      $ 275,476.3        $ 283,292.6
     Medicare-Eligible Retiree
                                               150,184.3     See Below        (3,345.5)        146,838.8         150,820.6
     Health Care Fund
     US Army Corps of
                                                 5,239.5     See Below           (41.7)          5,197.8             5,363.2
     Engineers
     Other Funds                                 2,915.6     See Below           (28.8)          2,886.8             2,618.8
     Total Nonmarketable,
                                        $      439,589.7     See Below    $ (9,190.0)      $ 430,399.7        $ 442,095.2
     Market-Based
  Accrued Interest                               4,484.3                                         4,484.3             4,484.3
 Total Intragovernmental
                                        $      444,074.0                  $ (9,190.0)      $ 434,884.0        $ 446,579.5
 Securities
Other Investments
 Total Other Investments                $        2,017.1                  $        0.0     $     2,017.1                 N/A
Amortization Method Used: Effective Interest




                                                                                                Financial Information
                                                               73
Department of Defense Agency Financial Report for FY 2010

The Department invests primarily in non-marketable, market-based securities which fluctuate in
tandem with the current selling price of the equivalent marketable security on the open market.
These securities are purchased with the intent to hold until maturity, thus balances are not
adjusted to market value.
The U.S. Treasury securities are issued to the earmarked funds as evidence of its receipts and
are an asset to the Department and a liability to the U.S. Treasury. The Federal Government
does not set aside assets to pay future benefits or other expenditures associated with
earmarked funds. The cash generated from earmarked funds are deposited in the U.S.
Treasury, which uses the cash for general government purposes. Since the Department and
the U.S. Treasury are both part of the Federal Government, these assets and liabilities offset
each other from the standpoint of the Federal Government as a whole. For this reason, they do
not represent an asset or a liability in the U.S. Governmentwide financial statements.
The U.S. Treasury securities provide the Department with authority to draw upon the U.S.
Treasury to make future benefit payments or other expenditures. When the Department
requires redemption of these securities to make expenditures, the Government will finance them
from accumulated cash balances by raising taxes or other receipts, borrowing from the public or
repaying less debt, or curtailing other expenditures. The Federal Government uses the same
method to finance all other expenditures.
Other Funds primarily consists of $2.2 billion in investments of the DoD Education Benefits
Trust Fund, $843.0 million in investments of the Host Nation Support for U.S. Relocation
Activities Trust Fund, and $413.8 million in investments of the Voluntary Separation Incentive
Trust Fund.
Note 5. Accounts Receivable

 Accounts Receivable                                                                   Dollars in Millions

                                                            2010
                                                       Allowance For              Accounts
                                   Gross Amount Due      Estimated              Receivable, Net
 As of September 30                                    Uncollectibles

   Intragovernmental Receivables        $    1,249.2                    N/A        $           1,249.2

   Nonfederal Receivables
                                            10,411.4               (655.2)                     9,756.2
   (From the Public)

 Total Accounts Receivable              $   11,660.6        $      (655.2)         $         11,005.4




                                                                              Financial Information
                                               74
Department of Defense Agency Financial Report for FY 2010


Accounts Receivable                                                                          Dollars in Millions

                                                                 Restated
                                                                   2009
                                                               Allowance For              Accounts
                                       Gross Amount Due          Estimated              Receivable, Net
 As of September 30                                            Uncollectibles

   Intragovernmental Receivables             $   1,219.6                        N/A           $       1,219.6

   Nonfederal Receivables
                                                 8,245.8                    (514.4)                   7,731.4
   (From the Public)

Total Accounts Receivable                    $   9,465.4            $       (514.4)           $       8,951.0



Accounts receivable represent the Department’s claim for payment from other entities. The
Department only recognizes an allowance for uncollectible amounts from the public. Claims
with other federal agencies are resolved in accordance with the Intragovernmental Business
Rules.
The Department identified errors impacting ending account balances while migrating from a
manual to an automated interface between budget execution and financial statement reporting
systems; and overstated accounts receivable (nonfederal) established to recover pharmacy
costs from drug manufacturers. To correct the errors, the Department restated Note 5,
Accounts Receivable. Refer to Note 26, Restatements, for further information.
Note 6. Other Assets
 Other Assets                                                                                Dollars in Millions

                                                                                            Restated
 As of September 30                                                2010
                                                                                             2009
 Intragovernmental Other Assets
      Advances and Prepayments                             $               1,749.8      $             2,469.8
      Other Assets                                                          124.9                        124.9
      Total Intragovernmental Other Assets                 $               1,874.7      $             2,594.7
 Nonfederal Other Assets
      Outstanding Contract Financing Payments              $              63,420.7      $            54,541.6
      Advances and Prepayments                                             1,810.7                    1,234.1
      Other Assets (With the Public)                                        403.7                        356.2
      Total Nonfederal Other Assets                        $              65,635.1      $            56,131.9
 Total Other Assets                                        $              67,509.8      $            58,726.6


The Department overstated contract financing payments in FY 2009. To adjust the balances,
the Department restated Nonfederal Other Assets by $505.6 million. Refer to Note 26,
Restatements, for further information.
Intragovernmental Other Assets represents the Department’s right to approximately 6 million
barrels of crude oil held by the Department of Energy.



                                                                                      Financial Information
                                                   75
Department of Defense Agency Financial Report for FY 2010

The balance of Outstanding Contract Financing Payments includes $61.9 billion in contract
financing payments and an additional $1.6 billion in estimated future payments to contractors
upon delivery and government acceptance of satisfactory products. Refer to Note 15, Other
Liabilities, for further information.
Contract terms and conditions for certain types of contract financing payments convey rights to
the Government that protect the contract work from state or local taxation, liens or attachment
by contractor's creditors, transfer of property, or disposition in bankruptcy. However, these
rights should not be misconstrued to mean that ownership of contractor’s work has transferred
to the Federal Government. The Federal Government does not have the right to take the work,
except as provided for in contract clauses related to termination or acceptance, and the
Department is not obligated to make payment to contractors until delivery and acceptance.
The balance of Other Assets (With the Public) includes $218.9 million for inventory returned to
vendors pending credit and $184.8 million for an Advance Payment Pool Agreement with a
nonprofit institution.
Note 7. Cash and Other Monetary Assets
 Cash and Other Monetary Assets                                                        Dollars in Millions

 As of September 30                                                  2010                  2009
 Cash                                                            $          634.8      $           810.8
 Foreign Currency                                                       1,431.9                   1,506.0

 Other Monetary Assets                                                        0.0                     0.0

 Total Cash, Foreign Currency, and Other Monetary Assets         $      2,066.7        $          2,316.8


Cash (except for $65.7 million in undeposited collections and imprest funds) and Foreign
Currency represent nonentity assets and are restricted and unavailable to fund the
Department's mission.

Note 8. Direct Loan and Loan Guarantees
Direct Loan and Loan Guarantee Programs
The Department operates the following direct loan and/or loan guarantee programs:
    Military Housing Privatization Initiative (MHPI) and
    Armament Retooling and Manufacturing Support Initiative (ARMS)
The Federal Credit Reform Act of 1990 governs all new and amended direct loan obligations
and loan guarantee commitments made after FY 1991.
Direct loans are reported at the net present value of the following projected cash flows:
    Loan disbursements;
    Repayments of principal; and
    Payments of interest and other payments over the life of the loan after adjusting for
    estimated defaults, prepayments, fees, penalties, and other recoveries.
Loan guarantee liabilities are reported at the net present value. The cost of the loan guarantee
is the net present value of the following estimated projected cash flows:

                                                                                Financial Information
                                                  76
Department of Defense Agency Financial Report for FY 2010

    Payments by the Department to cover defaults and delinquencies, interest subsidies, or
    other payments; offset by
    Payments to the Department including origination and other fees, penalties, and recoveries.
Military Housing Privatization Initiative
The MHPI includes both direct loan and loan guarantee programs. The programs are
authorized by the National Defense Authorization Act for FY 1996 (PL 104-106, Section 2801)
and includes a series of authorities that allow the Department to work with the private sector to
renovate and build military family housing. The MHPI accelerates the construction of new
housing built to market standards and leverages private sector capital. One of the goals of the
Department is to obtain private sector capital to leverage government dollars. The Department
provides protection to the private sector partner against specific risks, such as base closure or
member deployment.
Armament Retooling and Manufacturing Support Initiative
The ARMS Initiative, Title 10 United States. Code 4551-4555, is a loan guarantee program
designed to encourage commercial use of the Army's inactive ammunition plants through
incentives for businesses willing to locate to a government ammunition production facility. The
production capacity of these facilities is greater than current military requirements, however; this
capacity may be needed by the military in the future. Revenues from property rentals are used
to help offset the overhead costs for the operation, maintenance and environmental cleanup at
the facilities.
In an effort to preclude any additional loan liability, the Army instituted an ARMS loan guarantee
moratorium in FY 2004. The Army continues to operate under the moratorium and does not
anticipate new loans.


 Summary of Direct Loans and Loan Guarantees                                            Dollars in Millions

                                                                  2010                 2009
 Loans Receivable
 Direct Loans:
 Foreign Military Loan Liquidating Account                    $            0.0   $                     0.0
 Military Housing Privatization Initiative                               522.3                      398.4
 Foreign Military Financing Account                                        0.0                         0.0
 Military Debt Reduction Financing Account                                 0.0                         0.0
   Total Direct Loans                                         $          522.3   $                  398.4
 Defaulted Loan Guarantees:
 Foreign Military Financing Account                                        0.0                         0.0
 Military Housing Privatization Initiative                                 0.0                         0.0
 Armament Retooling & Manufacturing Support Initiative                     0.0                         0.1
   Total Default Loan Guarantees                              $            0.0   $                     0.1
 Total Loans Receivable                                       $          522.3   $                  398.5
 Loan Guarantee Liability
 Foreign Military Liquidating Account                         $            0.0   $                     0.0
 Military Housing Privatization Initiative                                16.2                       18.7
 Armament Retooling & Manufacturing Support Initiative                     3.6                        2.4
   Total Loan Guarantee Liability                             $           19.8   $                   21.1


                                                                                 Financial Information
                                                         77
Department of Defense Agency Financial Report for FY 2010



 Direct Loans Obligated                                                                        Dollars in Millions

                                                                  2010                     2009
 Direct Loans Obligated Prior to FY 1992
 (Allowance for Loss Method):
    Foreign Military Loan Liquidating Account
    Loans Receivable Gross                                $                 0.0            $                  0.0
    Interest Receivable                                                     0.0                               0.0
    Foreclosed Property                                                     0.0                               0.0
    Allowance for Loan Losses                                               0.0                               0.0
      Value of Assets Related to Direct Loans, Net                          0.0                               0.0
 Direct Loans Obligated After FY 1991
 (Present Value Method):
    Military Housing Privatization Initiative
    Loans Receivable Gross                                $               651.5            $               510.9
    Interest Receivable                                                     0.0                               0.0
    Foreclosed Property                                                     0.0                               0.0
    Allowance for Subsidy Cost (Present Value)                           (129.2)                         (112.5)
      Value of Assets Related to Direct Loans                              522.3                           398.4
    Foreign Military Financing Account
    Loans Receivable Gross                                                  0.0                               0.0
    Interest Receivable                                                     0.0                               0.0
    Foreclosed Property                                                     0.0                               0.0
    Allowance for Subsidy Cost (Present Value)                              0.0                               0.0
      Value of Assets Related to Direct Loans                               0.0                               0.0
    Military Debt Reduction Financing Account
    Loans Receivable Gross                                                  0.0                               0.0
    Interest Receivable                                                     0.0                               0.0
    Foreclosed Property                                                     0.0                               0.0
    Allowance for Subsidy Cost (Present Value)                              0.0                               0.0
      Value of Assets Related to Direct Loans                               0.0                               0.0
    Total Direct Loans Receivable                             $           522.3        $                   398.4


Loans receivable, net, or value of assets related to loans, is not the same as the proceeds the
Department would expect to receive from selling the loans.
Interest receivable is calculated using the interest earned method.

 Total Amount of Direct Loans Disbursed                                                        Dollars in Millions

                                                                  2010                         2009
 Direct Loan Programs
    Military Housing Privatization Initiative             $                151.0   $                       171.7
    Foreign Military Financing Account                                       0.0                              0.0
    Military Debt Reduction Financing Account                                0.0                              0.0
    Total                                                 $                151.0   $                       171.7



                                                                                   Financial Information
                                                     78
Department of Defense Agency Financial Report for FY 2010



 Subsidy Expense for Direct Loan by Program
                                                                                                                           Dollars in Millions

                  2010                       Interest             Defaults                   Fees                  Other               Total
                                            Differential
New Direct Loans Disbursed:
Military Housing Privatization Initiative   $      18.7           $          16.2        $          0.0        $           0.0     $       34.9
Foreign Military Financing Account                     0.0                    0.0                   0.0                    0.0              0.0
Military Debt Reduction Financing
                                                       0.0                    0.0                   0.0                    0.0              0.0
Account
  Total                                     $      18.7           $          16.2        $          0.0        $           0.0     $       34.9
                                             Interest
                  2009                                            Defaults                   Fees                  Other               Total
                                            Differential
New Direct Loans Disbursed:
Military Housing Privatization Initiative   $      16.0       $              16.4        $          0.0        $           0.0        $    32.4
Foreign Military Financing Account                  0.0                       0.0                   0.0                    0.0
Military Debt Reduction Financing
                                                       0.0                    0.0                   0.0                    0.0              0.0
Account
Total                                       $      16.0       $              16.4        $          0.0        $           0.0        $    32.4
                                            Modifica-        Interest Rate Technical                         Total
                  2010                       tions           Reestimates Reestimates                      Reestimates                  Total

Direct Loan Modifications and Reestimates:
Military Housing Privatization Initiative   $          0.0    $              (4.0)       $      (7.7)          $      (11.7)       $ (11.7)
Foreign Military Financing Account                     0.0                     0.0                0.0                    0.0            0.0
Military Debt Reduction Financing
                                                       0.0                    0.0                   0.0                    0.0              0.0
Account
 Total                                      $          0.0    $              (4.0)       $      (7.7)          $      (11.7)       $ (11.7)

                  2009                      Modifica-        Interest Rate Technical    Total                                         Total
                                             tions           Reestimates Reestimates Reestimates
Direct Loan Modifications and Reestimates:
Military Housing Privatization Initiative   $          0.0     $             (3.4)   $         (12.5)      $        ( 15.9) $ ( 15.9)
Foreign Military Financing Account                     0.0                    0.0                 0.0                   0.0       0.0
Military Debt Reduction Financing
                                                       0.0                    0.0                   0.0                    0.0              0.0
Account

  Total                                     $          0.0     $             (3.4)   $         (12.5)      $          (15.9)      $       (15.9)

                                                2010                  2009
Total Direct Loan Subsidy Expense:
Military Housing Privatization Initiative    $     23.2        $             16.5
Foreign Military Financing Account                  0.0                       0.0
Military Debt Reduction Financing
                                                       0.0                    0.0
Account
 Total                                       $     23.2       $              16.5




                                                                                                           Financial Information
                                                             79
Department of Defense Agency Financial Report for FY 2010

Subsidy Rate for Direct Loans by Program                                                             Dollars in Millions
                                                                          Fees and
As of September 30
                                             Interest       Defaults        other         Other            Total
                                            Differential
                                                                         Collections
Budget Subsidy Rates for Direct Loans
Military Housing Privatization Initiative       19.61%          10.43%          0.00%     0.00%               30.04%
Foreign Military Financing Account               0.00%           0.00%          0.00%     0.00%                0.00%
Military Debt Reduction Financing
Account                                          0.00%           0.00%          0.00%     0.00%                 0.00%

Subsidy rates pertain to the loan agreements contracted during the current fiscal year. These
rates cannot be applied to the direct loans disbursed during the current reporting year to yield
the subsidy expense. The subsidy expense for new loans disbursed in the current year results
from disbursements of loans from current and prior year loan agreements. The subsidy
expense reported in the current year also includes reestimates.

 Schedule for Reconciling Subsidy Cost Allowance Balances
 for Post FY1991 Direct Loans                                                                        Dollars in Millions
                                                                         2010                        2009
 Beginning Balance, Changes, and Ending Balance:
 Beginning Balance of the Subsidy Cost Allowance                  $              112.5       $                   103.6
 Add: Subsidy Expense for Direct Loans Disbursed during the Reporting Years by Component
 Interest Rate Differential Costs                                                 18.7                             16.0
 Default Costs (Net of Recoveries)                                                16.2                             16.4
 Fees and Other Collections                                                        0.0                              0.0
 Other Subsidy Costs                                                               0.0                              0.0
 Total of the above Subsidy Expense Components                    $               34.9        $                    32.4
 Adjustments
 Loan Modifications                                               $                 0.0       $                     0.0
 Fees Received                                                                      0.0                             0.0
 Foreclosed Property Acquired                                                       0.0                             0.0
 Loans Written Off                                                                  0.0                             0.0
 Subsidy Allowance Amortization                                                   (6.5)                           (7.6)
 Other                                                                              0.0                             0.0
 Total of the above Adjustment Components                         $               (6.5)       $                   (7.6)
 Ending Balance of the Subsidy Cost Allowance before
                                                                  $              140.9           $               128.4
 Reestimates
 Add or Subtract Subsidy Reestimates by Component
     Interest Rate Reestimates                                                    (4.0)                          (3.4)
     Technical/Default Reestimate                                                 (7.7)                         (12.5)
  Total of the above Reestimate Components                        $              (11.7)                         (15.9)
 Ending Balance of the Subsidy Cost Allowance                     $              129.2           $               112.5




                                                                                          Financial Information
                                                           80
Department of Defense Agency Financial Report for FY 2010

Defaulted Guaranteed Loans                                                                     Dollars in Millions
As of September 30                                             2010                            2009
Defaulted Guaranteed Loans from Pre-FY 1992 Guarantees (Allowance for Loss Method):

Foreign Military Loan Liquidating Amount
   Defaulted Guaranteed Loans Receivable, Gross           $                  0.0           $                  0.0

   Interest Receivable                                                       0.0                              0.0

   Foreclosed Property                                                       0.0                              0.0

   Allowance for Loan Losses                                                 0.0                              0.0
   Value of Assets Related to Defaulted Guaranteed         $                 0.0           $                  0.0
   Loans Receivable, Net



Defaulted Guarranteed Loans from Post-FY 1991 Guarantees (Present Value Method):
Military Housing Privatization Initiative
   Defaulted Guaranteed Loans Receivable, Gross           $                  0.0           $                  0.0

   Interest Receivable                                                       0.0                              0.0

   Foreclosed Property                                                       0.0                              0.0

   Allowance for Subsidy Cost (Present Value)                                0.0                              0.0
  Value of Assets Related to Defaulted Guaranteed          $                 0.0           $                  0.0
  Loans Receivable, Net
Armament Retooling & Manufacturing Support Initiative
   Defaulted Guaranteed Loans Receivable, Gross           $                  0.7           $                  0.7

   Interest Receivable                                                       0.0                              0.0

   Foreclosed Property                                                       0.0                              0.0

   Allowance for Subsidy Cost (Present Value)                               (0.7)                           (0.6)
   Value of Assets Related to Defaulted Guaranteed         $                 0.0           $                  0.1
   Loans Receivable, Net
Total Value of Assets Related to Defaulted
                                                           $                 0.0           $                  0.1
Guaranteed Loans Receivable


Guaranteed Loans Outstanding                                                                   Dollars in Millions
                                                  Outstanding Principal
                                                  of Guaranteed Loans,         Amount of Outstanding
As of September 30                                     Face Value               Principal Guaranteed

                  2010
Guaranteed Loans Outstanding

Military Housing Privatization Initiative            $             461.6            $                      461.6
Armament Retooling & Manufacturing Support                            2.7                                     2.3
Initiative
Foreign Military Liquidating Account                                  0.0                                     0.0
Total                                                $             464.3            $                      463.9



                                                                                        Financial Information
                                                     81
Department of Defense Agency Financial Report for FY 2010

                  2009
 Guaranteed Loans Outstanding

 Military Housing Privatization Initiative                  $                      467.2       $                           467.2
 Armament Retooling & Manufacturing Support                                          3.0                                       2.4
 Initiative
 Foreign Military Liquidating Account                                                0.0                                       0.0
 Total                                                       $                     470.2       $                           469.6


                   2010
 New Guaranteed Loans Disbursed

 Military Housing Privatization Initiative                   $                       0.0       $                               0.0
 Armament Retooling & Manufacturing Support                                          0.0                                       0.0
 Initiative
 Total                                                       $                       0.0       $                               0.0
                   2009
 New Guaranteed Loans Disbursed

 Military Housing Privatization Initiative                   $                       0.0       $                               0.0
 Armament Retooling & Manufacturing Support                                          0.0                                       0.0
 Initiative
 Total                                                       $                       0.0       $                               0.0



 Liabilities for Loan Guarantees                                                                               Dollars in Millions

 As of September 30                                                                2010                          2009
 Liabilities for Losses on Loan Guarantees from Pre 1992
 (Allowance for Loss):
 Foreign Military Liquidating Account                                      $                 0.0       $                       0.0
   Total Loan Guarantee Liability (Pre-FY 1992)                            $                 0.0       $                       0.0
 Liabilities for Loan Guarantee from Post 1991
 (Present Value)
 Military Housing Privatization Initiative                                 $                16.2           $                18.7
 Armament Retooling & Manufacturing Support Initiative                                       3.6                             2.4
   Total Loan Guarantee Liability (Post FY 1991)                           $                19.8           $                21.1
 Total Loan Guarantee Liability                                            $                19.8           $                21.1

 Subsidy Expense for Loan Guarantees by Program
 As of September 30                                                                                            Dollars in Millions
                                              Interest
                  2010                       Differential   Defaults           Fees                Other               Total
New Loan Guarantees Disbursed
Military Housing Privatization Initiative     $       0.0        $   0.0       $      0.0      $           0.0            $ 0.0
Armament Retooling & Manufacturing
                                                      0.0            0.0              0.0                  0.0               0.0
Support Initiative
  Total                                        $      0.0        $   0.0       $      0.0      $           0.0            $ 0.0


                                                                                                   Financial Information
                                                            82
Department of Defense Agency Financial Report for FY 2010

                                             Interest
                  2009                                          Defaults              Fees             Other         Total
                                            Differential
New Loan Guarantees Disbursed
Military Housing Privatization Initiative     $          0.0         $     0.0        $      0.0   $           0.0       $ 0.0
Armament Retooling & Manufacturing
                                                         0.0               0.0               0.0               0.0         0.0
Support Initiative
  Total                                       $          0.0         $     0.0        $      0.0   $           0.0       $ 0.0
                                                            Interest
                                                                       Technical     Total
                  2010                      Modifications     Rate    Reestimates Reestimates                        Total
                                                          Reestimates
Modifications and Reestimates:
Military Housing Privatization Initiative     $          0.0         $    (1.1)   $        (2.4)   $       (3.5)     $ (3.5)
Armament Retooling & Manufacturing
                                                         0.0               0.0               0.0               0.0         0.0
Support Initiative
  Total                                       $          0.0         $    (1.1)   $        (2.4)   $       (3.5)     $ (3.5)
                                                                 Interest   Technical     Total
                  2009                      Modifications          Rate                                              Total
                                                               Reestimates Reestimates Reestimates
 Modifications and Reestimates:
 Military Housing Privatization
                                              $          0.0        $     (1.6)   $        (3.0)   $       (4.6)     $    (4.6)
 Initiative
  Armament Retooling &
                                                         0.0               0.1               0.0               0.1         0.1
  Manufacturing Support Initiative
  Total                                       $          0.0         $    (1.5)   $        (3.0)   $       (4.5)     $    (4.5)
                                                  2010              2009
  Total Loan Guarantee:
  Military Housing Privatization
                                              $      (3.5)       $        (4.6)
  Initiative
  Armament Retooling &
                                                         0.0               0.1
  Manufacturing Support Initiative
  Total                                       $      (3.5)       $        (4.5)


There are no new loan guarantees in FY 2010.


Subsidy Rates for Loan Guarantees by Program
                                              Interest
                                                                                   Fees and
As of September 30                                              Defaults             other             Other         Total
                                            Supplements
                                                                                  Collections
Budget Subsidy Rates for Loan Guarantees
  Military Housing Privatization
                                         0.00%                           0.00%            0.00%           0.00%          0.00%
  Initiative
  Armament Retooling &
                                                    0.00%                0.00%            0.00%           0.00%          0.00%
  Manufacturing Support Initiative


There are no new loan guarantees in FY 2010.



                                                                                                       Financial Information
                                                               83
Department of Defense Agency Financial Report for FY 2010


 Schedule for Reconciling Loan Guarantee Liability Balances for
 Post-FY 1991 Loan Guarantees                                                              Dollars in Millions
 As of September 30                                           2010                         2009
 Beginning Balance, Changes, and Ending Balance:
 Beginning Balance of the Loan Guarantee Liability       $               21.1     $                     24.5
 Add: Subsidy Expense for Guaranteed Loans Disbursed during the Reporting Years by Component
 Interest Supplement Costs                                $               0.0      $                      0.0
 Default Costs (Net of Recoveries)                                        0.0                             0.0
 Fees and Other Collections                                               0.0                             0.0
 Other Subsidy Costs                                                      0.0                             0.0
 Total of the above Subsidy Expense Components            $               0.0      $                      0.0
 Adjustments
 Loan Guarantee Modifications                             $               0.0      $                      0.0
 Fees Received                                                            0.0                             0.0
 Interest Supplements Paid                                                0.0                             0.0
 Foreclosed Property and Loans Acquired                                   0.0                             0.0
 Claim Payments to Lenders                                                0.0                             0.0
 Interest Accumulation on the Liability Balance                           1.1                             1.1
 Other                                                                    1.1                             0.0
 Total of the above Adjustments                           $               2.2       $                     1.1
 Ending Balance of the Loan Guarantee Liability before
 Reestimates                                              $              23.3        $                  25.6

 Add or Subtract Subsidy Reestimates by Component
 Interest Rate Reestimate                                $              (1.1)         $                 (1.5)
 Technical/Default Reestimate                                           (2.4)                           (3.0)
 Total of the above Reestimate Components                $              (3.5)         $                 (4.5)
  Ending Balance of the Loan Guarantee Liability         $              19.8          $                 21.1


Administrative Expenses
Administrative Expenses are limited to separately identified expenses for administering pre-
FY 1992 and post-FY 1991 Direct Loans and Loan Guarantee Programs. The Department does
not maintain a separate program to capture the expenses related to direct loans and loan
guarantees for MHPI. Administrative expenses for the ARMS Initiative represent a fee paid to
the U.S. Department of Agriculture, Rural Business Cooperative Service for servicing the loan
guarantee program.
Note 9. Inventory and Related Property, Net
 Inventory and Related Property                                                            Dollars in Millions

 As of September 30
                                                                                          Restated
                                                              2010
                                                                                           2009
 Inventory, Net                                          $           84,625.0     $                83,288.0
 Operating Materiel & Supplies, Net                               147,011.2                      145,258.4
 Stockpile Materiel, Net                                               598.1                           723.6
 Total Inventory and Related Property                    $        232,234.3       $              229,270.0


                                                                                Financial Information
                                                84
Department of Defense Agency Financial Report for FY 2010

 Inventory, Net                                                                                           Dollars in Millions
                                                                 2010
                                        Inventory,             Revaluation                            Valuation Method
                                                                                   Inventory, Net
As of September 30                     Gross Value              Allowance
Inventory Categories
   Available and Purchased
                                           $   81,226.4          $   (18,648.9)       $    62,577.5       LAC,MAC
   for Resale
   Held for Repair                             28,950.1                (7,947.2)           21,002.9       LAC,MAC
   Excess, Obsolete, and
                                                 8,443.0               (8,443.0)                0.0          NRV
   Unserviceable
   Raw Materiel                                    710.6                     0.0             710.6      MAC,SP,LAC
   Work in Process                               334.0                      0.0            334.0                AC
 Total Inventory, Net                      $ 119,664.1          $    (35,039.1)       $ 84,625.0
 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses     NRV = Net Realizable Value
 SP = Standard Price                                                               MAC = Moving Average Cost
 AC = Actual Cost



 Inventory, Net                                                                                           Dollars in Millions
                                                           Restated 2009
                                        Inventory,           Revaluation                              Valuation Method
                                                                                   Inventory, Net
As of September 30                     Gross Value            Allowance
Inventory Categories
   Available and Purchased
                                           $   87,742.2          $   (23,949.4)       $ 63,792.8          LAC,MAC
   for Resale
   Held for Repair                             28,055.7                (9,578.0)          118,477.7       LAC,MAC
   Excess, Obsolete, and
                                                 7,833.8               (7,833.8)                0.0          NRV
   Unserviceable
   Raw Materiel                                    490.3                     0.0             490.3      MAC,SP,LAC
   Work in Process                                527.2                     0.0            527.2                AC
 Total Inventory, Net                       $ 124,649.2          $   (41,361.2)       $ 83,288.0
 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses     NRV = Net Realizable Value
 SP = Standard Price                                                               MAC = Moving Average Cost
 AC = Actual Cost



During FY 2010, the Department identified inventory valued incorrectly. To correct the error, the
Department restated Note 9, Inventory and Related Property, Available and Purchased for
Resale, by $473.4 million. Refer to Note 26, Restatements, for further information.
Restrictions
The following are restrictions on the use, sale, or disposition of inventory.
    War reserve materiel valued at $2.7 billion;
    Commissary items valued at $401.9 million held for purchase by authorized patrons; and
    Dispositions pending litigation or negotiation valued at $87.6 million.
There are no known restrictions on inventory disposition related to environmental or other
liabilities.
                                                                                                  Financial Information
                                                              85
Department of Defense Agency Financial Report for FY 2010

General Composition of Inventory
Inventory includes spare and repair parts, clothing and textiles, and fuels held for sale.
Inventory is tangible personal property that is:
    Held for sale, or held for repair and eventual sale;
    In the process of production for sale; or
    To be consumed in the production of goods for sale or in the provision of service for a fee.
The Department assigns inventory items to a category based upon the type and condition of the
asset.


 Operating Materiel and Supplies, Net                                                                    Dollars in Millions
                                                                    2010
                                                                                                               Valuation
                                       OM&S, Gross                 Revaluation                                  Method
                                                                                        OM&S, Net
As of September 30                       Value                      Allowance
OM&S Categories
    Held for Use                              $ 131,524.9              $         0.0      $ 131,524.9     SP, LAC, MAC
    Held for Repair                               17,532.2                  (2,045.9)         15,486.3    SP, LAC, MAC
   Excess, Obsolete, and
                                                   2,631.6                  (2,631.6)              0.0           NRV
   Unserviceable
 Total OM&S                                   $ 151,688.7             $     (4,677.5)      $ 147,011.2
 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses    NRV = Net Realizable Value
 SP = Standard Price                                                              MAC = Moving Average Cost




 Operating Materiel and Supplies, Net                                                                    Dollars in Millions
                                                              Restated 2009
                                                                                                               Valuation
                                       OM&S, Gross              Revaluation                                     Method
                                                                                        OM&S, Net
As of September 30                       Value                   Allowance
OM&S Categories
    Held for Use                              $ 128,932.9              $         0.0       $ 128,932.9    SP, LAC, MAC
    Held for Repair                               17,984.2                  (1,658.7)         16,325.5    SP, LAC, MAC
    Excess, Obsolete, and
                                                   3,386.2                  (3,386.2)              0.0           NRV
    Unserviceable
 Total OM&S                                   $ 150,303.3             $     (5,044.9)      $ 145,258.4
 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses    NRV = Net Realizable Value
 SP = Standard Price                                                              MAC = Moving Average Cost



Restrictions
Some munitions included in Operating Materiel and Supplies (OM&S) are restricted due to
condition. Restricted munitions are considered obsolete or unserviceable when they cannot
meet performance requirements. However, obsolete and unserviceable OM&S may be used in
emergency combat situations in which no other suitable munitions are immediately available.



                                                                                                 Financial Information
                                                              86
Department of Defense Agency Financial Report for FY 2010

General Composition of OM&S
OM&S includes spare and repair parts, ammunition, tactical missiles, aircraft configuration pods,
and centrally-managed aircraft engines held for consumption. The Department assigns OM&S
items into a category based upon the type and condition of the asset.


 Stockpile Materiel, Net                                                                      Dollars in Millions
                                                       2010
                                                     Allowance             Stockpile           Valuation
                                   Stockpile,                                                   Method
                                                     for Gains             Materiel,
                                 Materiel Amount
As of September 30                                    (Losses)                Net
Stockpile Material Categories
    Held for Sale                       $   568.8     $          0.0         $        568.8       AC, LCM
   Held in Reserve for Future
                                             29.3                0.0                   29.3       AC, LCM
   Sale
 Total Stockpile Material               $   598.1     $          0.0         $        598.1
 Legend for Valuation Methods:
 AC = Actual Cost                                   LCM = Lower of Cost or Market



 Stockpile Materiel, Net                                                                      Dollars in Millions
                                                    Restated 2009
                                     Stockpile,      Allowance             Stockpile           Valuation
                                      Materiel        for Gains            Materiel,            Method
As of September 30                    Amount          (Losses)                Net
Stockpile Material Categories
    Held for Sale                      $    694.3     $          0.0         $        694.3       AC, LCM
   Held in Reserve for Future
                                             29.3                0.0                   29.3       AC, LCM
   Sale
 Total Stockpile Material              $    723.6     $          0.0          $       723.6
 Legend for Valuation Methods:
 AC = Actual Cost                                     LCM = Lower of Cost or Market

Restrictions
Materiel held by the National Defense Stockpile (NDS) is restricted unless released by
congressional action and made available for sale on the open market. Stockpile materiel may
not be disposed except for: (1) necessary upgrading, refining, or processing; (2) necessary
rotation to prevent deterioration; (3) determination as excess with potential financial loss if
retained; or (4) authorization by law.
Before selling any materiel, Congress must enact specific enabling legislation (e.g., the National
Defense Authorization Act). When authorized to offer materiel for sale, NDS removes the
materiel from Materiel Held in Reserve and reclassifies these items as Materiel Held for Sale.
The estimated market price of the stockpile materiel held for sale as of 4th Quarter, FY 2010, is
$1.3 billion
General Composition of Stockpile Materiel
The Department holds strategic and critical stockpile materiel due to statutory requirements for
use in national defense, conservation, or national emergencies.

                                                                                        Financial Information
                                                    87
Department of Defense Agency Financial Report for FY 2010

Note 10. General PP&E, Net

 General PP&E, Net                                                              2010                         Dollars in Millions

                             Depreciation/                                                 (Accumulated
                                                      Service         Acquisition                                Net Book
 As of                       Amortization                                                  Depreciation/
                                                       Life             Value                                     Value
 September 30                  Method                                                      Amortization)
 Major Asset Classes
Land                               N/A                  N/A               $     10,502.8              N/A        $    10,502.8
Buildings, Structures,
                                   S/L                20 or 40                 207,363.3       (111,929.1)            95,434.2
and Facilities
Leasehold
                                   S/L              Lease term                    976.0            (402.2)               573.8
Improvements
Software                           S/L               2-5 or 10                   9,440.1         (6,148.3)             3,291.8
General Equipment                  S/L                5 or 10                   90,290.3        (58,283.2)            32,007.1
Military Equipment                 S/L                Various                  822,316.6       (408,613.4)           413,703.2
Assets Under Capital                                   Lease
      1                            S/L                                            957.0            (642.2)               314.8
Lease                                                   term
Construction-in-
                                   N/A                  N/A                     38,604.1              N/A             38,604.1
Progress
Other                                                                            1,226.0             (1.2)             1,224.8
Total
                                                                          $ 1,181,676.2      $ (586,019.6)       $ 595,656.6
General PP&E
 1
   Note 15 for additional information on Capital Leases
 Legend for Valuation Methods: S/L = Straight Line N/A = Not Applicable




 General PP&E, Net                                                        Restated 2009                    Dollars in Millions
                             Depreciation/                                                 (Accumulated
                                                      Service         Acquisition                               Net Book
 As of                       Amortization                                                  Depreciation/
                                                       Life             Value                                    Value
 September 30                  Method                                                      Amortization)
 Major Asset Classes
Land                               N/A                  N/A                $    10,501.3              N/A         $ 10,501.3
Buildings, Structures,
                                   S/L                20 or 40                 191,993.0       (108,100.2)            83,892.8
and Facilities
Leasehold
                                   S/L              Lease term                    703.1            (548.0)               155.1
Improvements
Software                           S/L               2-5 or 10                   9,022.9         (5,610.1)             3,412.8
General Equipment                  S/L                5 or 10                   74,776.3        (52,333.9)            22,442.4
Military Equipment                 S/L                Various                  796,842.6       (390,333.2)           406,509.4
Assets Under Capital                                   Lease
      1                            S/L                                            956.3            (601.2)               355.1
Lease                                                   term
Construction-in-
                                   N/A                  N/A                     30,809.5              N/A             30,809.5
Progress
Other                                                                               53.9             (1.3)                 52.6
Total
                                                                          $ 1,115,658.9      $ (557,527.9)       $ 558,131.0
General PP&E
 1
   Note 15 for additional information on Capital Leases
 Legend for Valuation Methods: S/L = Straight Line N/A = Not Applicable


                                                                                                  Financial Information
                                                              88
Department of Defense Agency Financial Report for FY 2010

The Department identified and restated property, plant and equipment valued incorrectly. Refer
to Note 26, Restatements, for further information.
Heritage Assets and Stewardship Land
Statement of Federal Financial Accounting Standards No. 29, ―Heritage Assets and
Stewardship Land,‖ requires note disclosures for these types of assets. The Department’s
policy is to preserve its heritage assets, which are items of historical, cultural, educational, or
artistic importance.
The mission of the Department is to provide the military forces necessary to deter war and
protect the security of the United States. In that mission, the Department, with minor exceptions,
uses most of the buildings and stewardship land in its daily activities and includes the buildings
on the Balance Sheet as multi-use heritage assets (capitalized and depreciated).
Differences in the heritage assets and stewardship land quantities from the FY 2009 ending and
FY 2010 beginning unit counts resulted from efforts to improve quality of reported data. During
FY 2009, FY 2008 data was used to report some categories of heritage assets and stewardship
land.
Heritage assets within the Department consist of buildings and structures, archeological sites,
and museum collections. The Department defines these as follows:
    Buildings and Structures. Buildings and structures that are listed, or eligible for listing, on
    the National Register of Historic Places, including Multi-Use Heritage Assets.
    Archeological Sites. Sites that have been identified, evaluated, and determined to be
    eligible for or are listed on the National Register of Historic Places in accordance with
    Section 110 National Historic Preservation Act.
    Museum Collection Items. Items which are unique for one or more of the following reasons:
    historical or natural significance; cultural, educational, or artistic importance; or significant
    technical or architectural characteristics.
The Department is unable to identify all quantities of heritage assets and stewardship land
added through donation or devise in FY 2010 due to limitations of the Department’s financial
and nonfinancial management processes and systems that feed the financial statements.
Currently, the Department has identified 42 Fine Art Objects acquired through donation or
devise during FY 2010

                                     Measure       As of                                  As of
 Categories                                                    Additions   Deletions
                                     Quantity     9/30/09                                9/30/10
 Buildings and Structures             Each            50,090      25,935       3,271        72,754
 Archeological Sites                  Each            29,650       1,061       2,130        28,581
 Museum Collection Items
                                      Each         1,260,709      68,287       5,205     1,323,791
 (Objects, not including fine art)
 Museum Collection Items
                                      Each            30,238       2,695          70        32,863
 (Objects, fine art)


Stewardship land is land and land rights owned by the Department, but not acquired for, or in
connection with, items of General Property, Plant, and Equipment. All land provided to the
Department from the public domain or at no cost, regardless of its use, is classified as
Stewardship Land.


                                                                               Financial Information
                                                 89
Department of Defense Agency Financial Report for FY 2010

Stewardship land is presented in context of all categories of DoD lands and reported in acres
based on the predominant use of the land. The three categories of Stewardship land held in
public trust are: State-Owned Land, Withdrawn Public-Land, and Public Land.
The Department’s stewardship land consists mainly of mission essential land.
The Department held the following acres of land as of September 30, 2010.

  Facility                                        As of
   Code       Predominant Land Use               9/30/09                                          As of
                                                                Additions      Deletions
              Categories                         (Acres in                                       9/30/10
                                                Thousands)
 9110         Government Owned Land                   6,490          3,626              426          9,690
 9111         State Owned Land                             12          12                12              12
 9120         Withdrawn Public Land                 16,078            117                55         16,140
 9130         Licensed and Permitted Land             2,030           523               203          2,350
 9140         Public Land                                202           12                11             203
 9210         Land Easement                              324           80                27             377
 9220         In-leased Land                             264          112               106             270
 9230         Foreign Land                               448           32                 1            479
              Grand Total                                                                           29,521
              Total – All Other Lands                                                               13,166
              Total – Stewardship Lands                                                             16,355



Other Disclosures
The Department has use of overseas land, buildings, and other facilities obtained through
international treaties and agreements negotiated by the Department of State. Treaty covenants
restrict the Department’s use and disposal of real property (land and buildings) located outside
the United States.
The Department does not have the acquisition value for all General PP&E and uses several
cost methodologies to provide General PP&E values for financial statement reporting purposes.
Other consists of assets awaiting disposal.


 Assets Under Capital Lease                                                                    Dollars in Millions

                                                                                              Restated
 As of September 30                                                 2010
                                                                                               2009
 Entity as Lessee, Assets Under Capital Lease
      Land and Buildings                                        $             759.8      $                 759.8

      Equipment                                                               197.2                        196.5

      Accumulated Amortization                                               (642.2)                     (601.2)

      Total Capital Leases                                      $             314.8      $                 355.1




                                                                                       Financial Information
                                                    90
Department of Defense Agency Financial Report for FY 2010

Note 11. Liabilities Not Covered by Budgetary Resources
 Liabilities Not Covered by Budgetary Resources                                               Dollars in Millions

                                                                                              Restated
 As of September 30                                                   2010
                                                                                               2009
 Intragovernmental Liabilities
      Accounts Payable                                            $            13.2       $                  4.3
      Debt                                                                       5.6                         8.1
      Other                                                                  2,184.4                   1,873.5
      Total Intragovernmental Liabilities                         $          2,203.2      $            1,885.9
 Nonfederal Liabilities
      Accounts Payable                                            $          1,057.1      $               628.2
      Military Retirement and Other Federal Employment Benefits        1,691,538.8                1,587,744.7
      Environmental Liabilities                                          58,671.4                     62,565.3
      Other Liabilities                                                  16,493.5                     14,829.0
      Total Nonfederal Liabilities                                $    1,767,760.8        $       1,665,767.2
 Total Liabilities Not Covered by Budgetary Resources             $    1,769,964.0        $       1,667,653.1
 Total Liabilities Covered by Budgetary Resources                 $     552,410.0         $         494,267.0
 Total Liabilities                                                $    2,322,374.0        $       2,161,920.1



Liabilities Not Covered by Budgetary Resources includes liabilities for which congressional
action is needed before budgetary resources can be provided.
The Department identified errors impacting ending account balances while migrating from a
manual to an automated interface between budget execution and financial statement reporting
systems; and contract financing payments based on auditor recommended adjustments. To
correct the errors, the Department restated Note 11, Liabilities Not Covered by Budgetary
Resources, Total Liabilities Covered by Budgetary Resources by $58.0 million. Refer to Note
26, Restatements, for further information.
Intragovernmental Accounts Payable and Nonfederal Accounts Payable primarily represent
liabilities in cancelled appropriations that, if paid, will be disbursed using funds current in the
year of disbursement.
Debt consists primarily of borrowing from the U.S. Treasury for capital improvements to the
Washington Aqueduct Project. Arlington County and Falls Church, Virginia, will complete
reimbursement to the Department by 2023.
Intragovernmental Liabilities Other primarily consists of $1.4 billion in unfunded Federal
Employees Compensation Act liabilities, $550.3 million in unfunded unemployment liabilities,
and $251.2 million in unfunded Judgment Fund liabilities not due during FY 2009.
Military Retirement and Other Federal Employment Benefits consists of various employee
actuarial liabilities not due and payable during the current fiscal year. These liabilities primarily
consist of $944.1 billion in pension liabilities and $738.9 billion in health benefit liabilities. Refer
to Note 17, Military Retirement and Other Federal Employment Benefits, for additional details
and disclosures.
Environmental Liabilities represents the Department’s liability for existing and anticipated
environmental clean up and disposal.
                                                                                       Financial Information
                                                      91
Department of Defense Agency Financial Report for FY 2010

Nonfederal Liabilities, Other primarily consists of $10.9 billion in unfunded annual leave,
$3.0 billion in expected expenditures for disposal of conventional munitions, and $2.1 billion in
contingent liabilities.
Note 12. Accounts Payable

Accounts Payable                                                                        Dollars in Millions

                                                               2010
                                                         Interest, Penalties,
As of September 30                Accounts Payable       and Administrative              Total
                                                                Fees

Intragovernmental Payables                $    1,754.5                      N/A          $      1,754.5
Nonfederal Payables
(To the Public)                               31,129.0                      6.4               31,135.4

Total Accounts Payable                    $   32,883.5         $            6.4          $    32,889.9




Accounts Payable                                                                        Dollars in Millions

                                                          Restated 2009
                                                         Interest, Penalties,
As of September 30                Accounts Payable       and Administrative              Total
                                                                Fees
Intragovernmental Payables                $    2,207.8                      N/A          $      2,207.8
Nonfederal Payables
(To the Public)                               35,573.5                      6.3               35,579.8

Total Accounts Payable                    $   37,781.3                  $   6.3          $    37,787.6



The Department identified errors impacting ending FY 2009 account balances while migrating
from a manual to an automated interface between budget execution and financial statement
reporting systems. To correct the errors, the Department restated Accounts Payable
(Nonfederal). Refer to Note 26, Restatements, for further information.
Accounts Payable includes amounts owed to federal and nonfederal entities for goods and
services received by the Department.          The Department’s systems do not track
intragovernmental transactions by customer at the transaction level. Buyer-side accounts
payable are adjusted to agree with interagency seller-side accounts receivable. Accounts
Payable was adjusted by reclassifying amounts between federal and nonfederal entities.




                                                                                Financial Information
                                               92
Department of Defense Agency Financial Report for FY 2010

Note 13. Debt
 Debt                                                                             Dollars in Millions

                                                          2010
                                                          Net
                             Beginning Balance                               Ending Balance
 As of September 30                                    Borrowing
Agency Debt
(Intragovernmental)
    Debt to the Treasury             $       391.7            $    126.6             $         518.3
    Debt to the Federal
                                               0.0                   0.0                          0.0
    Financing Bank
Total Agency Debt                        $   391.7            $    126.6             $         518.3



 Debt                                                                             Dollars in Millions

                                                          2009
                                                          Net
                             Beginning Balance                               Ending Balance
 As of September 30                                    Borrowing
Agency Debt
(Intragovernmental)
    Debt to the Treasury             $       245.7        $        146.0             $         391.7
    Debt to the Federal
                                              16.9                 (16.9)                         0.0
    Financing Bank
Total Agency Debt                     $      262.6            $    129.1             $         391.7


The Department’s debt consists of interest and principal payments due to the U.S. Treasury and
the Federal Financing Bank. The Department borrows funds for the Washington Aqueduct
Project, the Military Housing Privatization Initiative, and the Armament Retooling and
Manufacturing Support Program.
The Department must pay the debt on direct loans if borrowers (e.g. county or city governments,
or housing builders) default. For loan guarantees, the Department must pay the amount of
outstanding principal guaranteed.




                                                                            Financial Information
                                               93
Department of Defense Agency Financial Report for FY 2010

Note 14. Environmental Liabilities and Disposal Liabilities

  Environmental Liabilities and Disposal Liabilities                                 Dollars in Millions



 As of September 30                                          2010                    2009
 Environmental Liabilities–Nonfederal
  Accrued Environmental Restoration Liabilities
    Active Installations—Installation Restoration Program
    (IRP) and Building Demolition and Debris Removal
    (BD/DR)                                                  $       8,065.3            $      7,957.4
    Active Installations—Military Munitions
    Response Program (MMRP)                                          4,646.6                   5,223.5

    Formerly Used Defense Sites-IRP & BD/DR
                                                                     3,426.3                   3,452.9
    Formerly Used Defense Sites--MMRP                               11,811.9                  13,545.9
  Other Accrued Environmental Liabilities—Non-BRAC
    Environmental Corrective Action                                   429.2                      772.8
    Environmental Closure Requirements                               2,162.5                   2,193.7
    Environmental Response at Operational Ranges                      127.2                      164.0
    Asbestos                                                         1,335.8                   1,183.3
    Non-Military Equipment                                            113.5                      114.4
    Other                                                            1,201.6                   1,222.8
  Base Realignment and Closure Installations (BRAC)
    Installation Restoration Program                                 3,936.4                   3,684.7
    Military Munitions Response Program                              1,015.5                   1,063.6
   Environmental Corrective Action / Closure Requirements             329.5                      344.0
  Environmental Disposal for Military Equipment /
  Weapons Programs
    Nuclear Powered Military Equipment /
    Spent Nuclear Fuel                                              13,290.9                  12,672.4
    Non-Nuclear Powered Military Equipment                             36.4                        36.4
    Other Weapons Systems                                             183.6                      194.4
  Chemical Weapons Disposal Program
    Chemical Demilitarization – Chemical Materials Agency
    (CMA)                                                            5,286.9                   6,956.0
    CAMD Demilitarization – Assembled Chemical Weapons
    Alternatives (ACWA)                                              5,503.1                   5,447.8


 Total Environmental Liabilities                             $      62,902.2           $      66,230.0


Other Accrued Environmental Liabilities, Non-BRAC, Other primarily consists of remediation
related to Formerly Utilized Sites Remedial Action Program (FUSRAP). The Department is
responsible for FUSRAP, which remediates radiological contamination from the Department of
Energy’s U.S. Atomic Energy and Weapons Program.




                                                                               Financial Information
                                                        94
Department of Defense Agency Financial Report for FY 2010

The unrecognized portion of the estimated total cleanup costs associated with General
Property, Plant & Equipment (PP&E) is $2.9 billion for FY 2010. Not all Components of the
Department are able to compile the necessary information for this disclosure, thus the amount
reported may not accurately reflect the Department’s total unrecognized costs associated with
General PP&E. The Department is implementing procedures to address these deficiencies.
Other Disclosures
Types of Environmental Liabilities and Disposal Liabilities Identified
The Department has cleanup requirements for Defense Environmental Restoration Program
(DERP) sites at active installations, BRAC installations, Formerly Used Defense Sites, sites at
active installations that are not covered by DERP, weapons systems programs, and chemical
weapons disposal programs. The weapons systems programs consist of chemical weapons
disposal, nuclear-powered aircraft carriers, nuclear-powered submarines, and other nuclear
ships. All cleanup is done in coordination with regulatory agencies, other responsible parties,
and current property owners.
Applicable Laws and Regulations for Cleanup Requirements
The Department is required to clean up contamination resulting from past waste disposal
practices, leaks, spills, and other past activity that created a public health or environmental risk.
The Department accomplishes this effort in coordination with regulatory agencies and, if
applicable, other responsible parties and current property owners. The Department is also
required to recognize closure and post-closure costs for its General PP&E and environmental
corrective action costs for current operations. Each of the Department’s major reporting entities
is responsible for tracking and reporting all required environmental information related to
environmental restoration costs, other accrued environmental costs, disposal costs of weapons
systems, and environmental costs related to BRAC actions that have taken place.
The Department follows the Comprehensive Environmental Response, Compensation, and
Liability Act (CERCLA), Superfund Amendment and Reauthorization Act, Resource
Conservation and Recovery Act (RCRA) or other applicable federal or state laws to clean up
contamination. The CERCLA and RCRA require the Department to clean up contamination in
coordination with regulatory agencies, current owners of property damaged by the Department,
and third parties that have a partial responsibility for the environmental restoration. Failure to
comply with agreements and legal mandates puts the Department at risk of incurring fines and
penalties.
The cleanup requirements for nuclear-powered aircraft carriers, submarines, and other nuclear
ships are based on laws that affect the Department’s conduct of environmental policy and
regulations. The Atomic Energy Act of 1954, as amended, assures the proper management of
source, special nuclear, and byproduct materiel. As in all cases with nuclear power, the
Department coordinates actions with the Department of Energy. The Nuclear Waste Policy Act
of 1982 requires all owners and generators of high-level nuclear waste and spent nuclear fuel to
pay their respective shares of the full cost of the program. Finally, the Low-Level Radioactive
Waste Policy Amendments Act of 1986 provides for the safe and efficient management of low-
level radioactive waste.
The Chemical Weapons Disposal Program is based on FY 1986 National Defense Authorization
Act (PL 99-145, as amended) that directed the Department to destroy the unitary chemical
stockpile in accordance with the requirements of the Chemical Weapons Convention Treaty.



                                                                               Financial Information
                                                 95
Department of Defense Agency Financial Report for FY 2010

The Army, as Executive Agent within the Department, provides policy, direction, and oversight
for both the Chemical Stockpile Program and the Nonstockpile Chemical Materiel Project. As
such, the Army is responsible for the safe and economical disposal of the U.S. stockpile of lethal
and incapacitating chemical warfare agents and munitions.
Methods for Assigning Total Cleanup Costs to Current Operating Periods
The Department uses engineering estimates and independently validated models to estimate
environmental costs. The models include the Remedial Action Cost Engineering Requirements
(RACER) application and the Normalization of Data (NORM) System. The Department
validates the models in accordance with DoD Instruction 5000.61 and uses the models to
estimate the liabilities based on data received during a preliminary assessment and initial site
investigation. The Department primarily uses engineering estimates after obtaining extensive
data during the remedial investigation/feasibility phase of the environmental project.
Once the environmental cost estimates are complete, the Department complies with accounting
standards to assign costs to current operating periods. The Department has already expensed
the costs for cleanup associated with General PP&E placed into service before October 1, 1997,
unless the costs are intended to be recovered through user charges. If the costs are to be
recovered through user charges, the Department expenses cleanup costs associated with that
portion of the asset life that has passed since the General PP&E was placed into service. The
Department systematically recognizes the remaining cost over the remaining life of the asset.
For General PP&E placed into service after September 30, 1997, the Department expenses
associated environmental costs systematically over the life of the asset using two methods:
physical capacity for operating landfills and life expectancy in years for all other assets. The
Department expenses the full cost to clean up contamination for Stewardship PP&E at the time
the asset is placed into service.
Nature of Estimates and the Disclosure of Information Regarding Possible Changes Due
to Inflation, Deflation, Technology, or Applicable Laws and Regulations
The Department had changes in estimates resulting from overlooked or previously unknown
contaminants, reestimation based on different assumptions, and other changes in project scope.
Environmental liabilities may change in the future due to changes in laws and regulation,
changes in agreements with regulatory agencies, and advances in technology.
Uncertainty Regarding the Accounting Estimates Used to Calculate the Reported
Environmental Liabilities
The environmental liabilities for the Department are based on accounting estimates, which
require certain judgments and assumptions that are reasonable based upon information
available at the time the estimates are calculated. The actual results may materially vary from
the accounting estimates if agreements with regulatory agencies require remediation to a
different degree than anticipated when calculating the estimates. Liabilities can be further
affected if investigation of the environmental sites reveals contamination levels that differ from
the estimate parameters.
The Department has a liability to take environmental restoration and corrective action for buried
chemical munitions and agents; however, it is unable to estimate at this time because the extent
of the buried chemical munitions and agents is unknown. The Department is also unable to
provide a complete estimate for FUSRAP. The Department has ongoing studies and will update
its estimate as additional liabilities are identified. In addition, not all components of the
Department recognize environmental liabilities associated with General PP&E due to process
and system limitations.
                                                                            Financial Information
                                               96
Department of Defense Agency Financial Report for FY 2010

The Department has the potential to incur costs for restoration initiatives in conjunction with
returning overseas Defense facilities to host nations. The Department is unable to provide a
reasonable estimate at this time because the extent of required restoration is unknown.
Note 15. Other Liabilities

 Other Liabilities                                                                     Dollars in Millions

                                                                     2010
                                                                    Noncurrent
                                             Current Liability                                  Total
As of September 30                                                   Liability
 Intragovernmental
   Advances from Others                           $       1,473.1      $         0.0            $     1,473.1
   Deposit Funds and Suspense Account
                                                           906.0                 0.0                    906.0
      Liabilities
   Disbursing Officer Cash                                2,190.3                0.0                  2,190.3
   Judgment Fund Liabilities                               261.2                 0.0                    261.2
   FECA Reimbursement to the
                                                           621.4             780.9                    1,402.3
      Department of Labor
   Custodial Liabilities                                  3,806.2           2,595.4                   6,401.6
   Employer Contribution and
                                                           530.1                 0.0                    530.1
      Payroll Taxes Payable
   Other Liabilities                                       616.8                 0.0                    616.8
   Total Intragovernmental Other
                                                     $   10,405.1     $     3,376.3                $ 13,781.4
       Liabilities
Nonfederal
   Accrued Funded Payroll and Benefits           $       10,375.8     $          0.0           $     10,375.8
   Advances from Others                                   4,498.7                0.0                  4,498.7
   Deferred Credits                                          0.00                0.0                         0.0

   Deposit Funds and Suspense Accounts                     430.1                 0.0                    430.1
   Temporary Early Retirement Authority                       0.0                0.0                         0.0
   Nonenvironmental Disposal Liabilities
       Military Equipment (Nonnuclear)                        8.8            245.2                      254.0
       Excess/Obsolete Structures                          105.8             131.3                      237.1
       Conventional Munitions Disposal                        0.0           2,072.3                   2,072.3
   Accrued Unfunded Annual Leave                         10,977.1                0.0                 10,977.1
   Capital Lease Liability                                   12.1             63.4                       75.5

   Contract Holdbacks                                      733.6                 0.2                    733.8
   Employer Contribution and Payroll Taxes
                                                           588.5                  0                     588.5
   Payable
   Contingent Liabilities                                 1,255.6           3,793.2                   5,048.8
   Other Liabilities                                       271.3                 0.5                    271.8
   Total Nonfederal Other Liabilities                $   29,257.4     $     6,306.1             $    35,563.5
Total Other Liabilities                              $   39,662.5     $     9,682.4             $    49,344.9




                                                                                 Financial Information
                                                  97
Department of Defense Agency Financial Report for FY 2010

 Other Liabilities                                                                          Amounts in Millions

                                                                      Restated 2009
                                                                        Noncurrent
                                           Current Liability                                       Total
As of September 30                                                       Liability
Intragovernmental
   Advances from Others                        $            1,619.9           $       0.0           $     1,619.9
   Deposit Funds and Suspense Account
                                                             471.4                    0.0                  471.4
   Liabilities
   Disbursing Officer Cash                                  2,419.6                   0.0                 2,419.6
   Judgment Fund Liabilities                                 171.9                    0.0                  171.9
   FECA Reimbursement to the Department
                                                             589.9                 804.0                  1,393.9
   of Labor
   Custodial Liabilities                                    3,676.0                908.8                  4,584.8
   Employer Contribution and
                                                             454.8                    0.0                  454.8
   Payroll Taxes Payable
   Other Liabilities                                         369.4                    0.0                  369.4
   Total Intragovernmental Other
                                                       $    9,772.9           $   1,712.8              $ 11,485.7
   Liabilities
Nonfederal
   Accrued Funded Payroll and Benefits             $        9,799.0       $           0.0          $      9,799.0
   Advances from Others                                     4,472.0                   0.0                 4,472.0
   Deferred Credits                                           (0.3)                   0.0                   (0.3)

   Deposit Funds and Suspense Accounts                       216.4                    0.0                  216.4
   Nonenvironmental Disposal Liabilities
       Military Equipment (Nonnuclear)                          3.5                262.4                   265.9
      Excess/Obsolete Structures                             105.6                 599.0                   704.6
      Conventional Munitions Disposal                           0.0               2,072.3                 2,072.3
   Accrued Unfunded Annual Leave                            9,807.6                   0.0                 9,807.6
   Capital Lease Liability                                    11.4                 100.0                   111.4

   Contract Holdbacks                                        659.9                    0.4                  660.3
   Employer Contribution and Payroll
                                                             741.5                    0.0                  741.5
   Taxes Payable
   Contingent Liabilities                                   1,237.3               2,913.2                 4,150.5
   Other Liabilities                                          835.6                   1.1                   836.7
   Total Nonfederal Other Liabilities              $       27,889.5        $      5,948.4          $     33,837.9
Total Other Liabilities                            $       37,662.4        $      7,661.2          $     45,323.6

The Department identified errors impacting ending FY 2009 account balances while migrating
from a manual to an automated interface between budget execution and financial statement
reporting systems. To correct the errors, the Department restated Other Liabilities (Nonfederal).
Refer to Note 26, Restatements, for additional information.
Nonfederal Other Liabilities primarily consist of accrued estimates for repairs; accrued moving
allowance and miscellaneous expenses; and accrued liabilities for inventory owned and
managed on behalf of foreign governments.



                                                                                      Financial Information
                                                98
Department of Defense Agency Financial Report for FY 2010

Contingent Liabilities includes $1.6 billion related to contracts authorizing progress payments
based on cost as defined in the Federal Acquisition Regulation (FAR). In accordance with
contract terms, specific rights to contractors’ work vests with the Federal Government when a
specific type of contract financing payment is made. This action protects taxpayer funds in the
event of contract nonperformance. These rights should not be misconstrued as rights of
ownership. The Department is under no obligation to pay contractors for amounts greater than
the amounts authorized in contracts until delivery and government acceptance. Due to the
probability the contractors will complete their efforts and deliver satisfactory products, and
because the amount of potential future payments are estimable, the Department has recognized
a contingent liability for estimated future payments which are conditional pending delivery and
government acceptance.
Total contingent liabilities for progress payments based on cost represent the difference
between the estimated costs incurred to date by contractors and amounts authorized to be paid
under progress payments based on cost provisions within the FAR. Estimated contractor-
incurred costs are calculated by dividing the cumulative unliquidated progress payments based
on cost by the contract-authorized progress payment rate. The balance of unliquidated
progress payments based on cost is deducted from the estimated total contractor-incurred costs
to determine the contingency amount.
 Capital Lease Liability                                                                                    Dollars in Millions

                                                             2010 — Asset Category
                                    Land and
                                                            Equipment                   Other                   Total
 As of September 30                 Buildings
Future Payments Due
   2011                        $            41.3                        0.1                     0.0                     41.4
   2012                                     15.5                        0.1                     0.0                     15.6
   2013                                     11.1                        0.0                     0.0                     11.1
   2014                                         8.8                     0.0                     0.0                       8.8
   2015                                         8.7                     0.0                     0.0                       8.7
   After 5 Years                                0.0                     0.0                     0.0                       0.0
   Total Future Lease
                                $           85.4               $        0.2         $           0.0     $               85.6
   Payments Due
   Less: Imputed Interest
                                            10.1                        0.0                     0.0                     10.1
   Executory Costs
Net Capital Lease Liability     $           75.3               $        0.2         $           0.0     $               75.5
Capital Lease Liabilities Covered by Budgetary Resources                                                                70.4
Capital Lease Liabilities Not Covered by Budgetary Resources                                                              5.1
 Capital Lease Liability                                                                                    Dollars in Millions
                                                             Restated 2009 — Asset Category
                                           Land and
                                                                   Equipment              Other                   Total
 As of September 30                        Buildings
Future Payments Due
   2010                                     $         43.9          $         0.0                 0.0                   43.9
   2011                                               41.3                    0.0                 0.0                   41.3
   2012                                               15.5                    0.0                 0.0                   15.5
   2013                                               11.1                    0.0                 0.0                   11.1
   2014                                                8.8                    0.0                 0.0                     8.8
   After 5 Years                                       8.7                    0.0                 0.0                     8.7


                                                                                                 Financial Information
                                                       99
Department of Defense Agency Financial Report for FY 2010

   Total Future Lease Payments Due             $     129.3       $     0.0      $       0.0     $       129.3
   Less: Imputed Interest Executory Costs             17.9             0.0              0.0              17.9
Net Capital Lease Liability                   $      111.4       $     0.0      $       0.0     $       111.4
Capital Lease Liabilities Covered by Budgetary Resources                                                  98.4
Capital Lease Liabilities Not Covered by Budgetary Resources                                              13.0


Note 16. Commitments and Contingencies
Legal Contingencies
The Department is a party in various administrative proceedings and legal actions related to
claims for environmental damage, equal opportunity matters, and contractual bid protests. The
Department has accrued contingent liabilities for legal actions where the Office of General
Counsel (OGC) considers an adverse decision probable and the amount of loss is measurable.
In the event of an adverse judgment against the Government, some of the liabilities may be
payable from the U.S. Treasury Judgment Fund. The Department records Judgment Fund
liabilities in Note 12, Accounts Payable, and in Note 15, Other Liabilities.
The Department has 40 legal actions with individual claims greater than the Department's
FY 2010 materiality threshold of $128.7 million. The total of the 40 actions is approximately
$2.4 trillion. Of this amount, the OGC determined that claims totaling approximately
$10 billion are classified "reasonably possible," $46.1 billion are classified "remote," and
$2.3 trillion are classified "unable to determine the probability of loss." The Department also had
a number of potential claims that individually did not meet the Department's materiality threshold
but did meet the individual Components' thresholds. These claims are disclosed in the
Components' financial statements.
Other Commitments and Contingencies
The Department is a party in numerous individual contracts that contain clauses, such as price
escalation, award fee payments, or dispute resolution, that may result in a future outflow of
expenditures. Currently, the Department has limited automated system processes by which it
captures or assesses these potential contingent liabilities, therefore, the amounts reported may
not fairly present the Department’s contingent liabilities.
Contingencies considered both measurable and probable have been recognized as liabilities.
Refer to Note 15, Other Liabilities, for further information.
Note 17. Military Retirement and Other Federal Employment Benefits

 Military Retirement and Other Federal Employment Benefits                                    Dollars in Millions

                                                                     2010
                                                          (Less: Assets Available to
 As of September 30                    Liabilities                                     Unfunded Liabilities
                                                                Pay Benefits)
Pension and Health Actuarial
Benefits
  Military Retirement Pensions          $   1,258,463.1               $ (314,380.5)              $   944,082.6
  Military Retirement Health
                                              329,492.1                         0.0                  329,492.1
  Benefits
  Military Medicare-Eligible
                                              572,995.2                  (163,587.6)                 409,407.6
  Retiree Benefits
  Total Pension and Health
                                        $   2,160,950.4               $ (477,968.1)              $ 1,682,982.3
  Actuarial Benefits

                                                                                       Financial Information
                                                      100
Department of Defense Agency Financial Report for FY 2010


 Military Retirement and Other Federal Employment Benefits                                                    Dollars in Millions

                                                                                         2010
                                                                              (Less: Assets
                                                        Liabilities          Available to Pay           Unfunded Liabilities
 As of September 30                                                             Benefits)
 Other Actuarial Benefits
   FECA                                                  $      6,418.7             $           0.0              $      6,418.7
   Voluntary Separation Incentive Programs                        959.3                     (397.0)                       562.3
   DoD Education Benefits Fund                                  1,900.5                   (1,900.5)                         0.0
   Other                                                        6,470.0                   (4,894.4)                     1,575.6
   Total Other Actuarial Benefits                       $      15,748.5             $     (7,191.9)              $      8,556.6
 Total Military Retirement and Other                     $ 2,176,698.9              $ (485,160.0)                $ 1,691,538.9
 Federal Employment Benefits
 Actuarial Cost Method Used: Aggregate Entry-Age Method
 Assumptions: Effective Interest
 Market Value of Investments in Market-based and Marketable Securities: $354.2 billion


 Military Retirement and Other Federal Employment Benefits                                                    Dollars in Millions

                                                                                2009
                                                                  (Less: Assets Available to
 As of September 30                           Liabilities                                              Unfunded Liabilities
                                                                        Pay Benefits)
 Pension and Health Actuarial
 Benefits
   Military Retirement Pensions                $    1,173,456.3                   $ (271,798.1)                  $   901,658.2
   Military Retirement Health
                                                      313,959.2                                 0.0                  313,959.2
   Benefits
   Military Medicare-Eligible
                                                      509,466.4                     (145,850.2)                      363,616.2
   Retiree Benefits
   Total Pension and Health
                                               $    1,996,881.9                   $ (417,648.3)                  $ 1,579,233.6
   Actuarial Benefits


Military Retirement and Other Federal Employment Benefits                                                     Dollars in Millions

                                                                                         2009
                                                                              (Less: Assets
                                                        Liabilities          Available to Pay           Unfunded Liabilities
As of September 30                                                              Benefits)
Other Actuarial Benefits
   FECA                                                 $       6,318.2             $            0.0            $       6,318.2
   Voluntary Separation Incentive Programs                      1,042.1                      (450.4)                      591.7
   DoD Education Benefits Fund                                  1,797.2                    (1,797.2)                        0.0
   Other                                                        6,126.7                    (4,525.3)                    1,601.4
   Total Other Actuarial Benefits                       $      15,284.2            $      (6,772.9 )             $      8,511.3
Total Military Retirement and Other Federal              $ 2,012,166.1              $ (424,421.2)                $ 1,587,744.9
Employment Benefits
Actuarial Cost Method Used: Aggregate Entry-Age Method
Assumptions: Effective Interest
Market Value of Investments in Market-based and Marketable Securities: $374.5 billion




                                                                                                       Financial Information
                                                              101
Department of Defense Agency Financial Report for FY 2010

                                                                                                              Dollars in Millions
Military Retirement and Other Federal Employment Benefits
                                                                                 2010
                                                            Military Pre -       Military        Voluntary           DoD
                                             Military
                                                              Medicare        Medicare -         Separation        Education
                                           Retirement
                                                           Eligible Retiree Eligible Retiree      Incentive         Benefits
As of September 30                          Pensions
                                                           Health Benefits Health Benefits       Programs            Fund
 Beginning Actuarial Liability            $ 1,173,456.1         313,959.2        509,466.4           1,042.1           1,797.2
 Normal Cost Liability                          23,932.7         10,977.0         10,583.7                0.0             464.1
 Assumption Change Liability                    66,642.6              0.0               0.0              21.1            (59.4)
 Benefit Outlays                              (50,416.6)       (11,161.9)         (8,633.9)           (141.5)           (417.5)
Interest Cost                                   66,965.8         18,367.4         29,658.1               43.7              81.9
Actuarial (gains)/losses due to
                                              (22,117.6)         (1,389.0)          3,323.2             (6.2)              35.8
changes in experience

Actuarial (gains)/losses due to                      0.0       (34,532.1)       (90,883.7)               0.0                 0.0
changes in trend assumptions
Actuarial (gains)/losses due to other
                                                     0.0         33,271.5        119,481.3               0.0               (1.5)
factors
Ending Actuarial Liability                $ 1,258,463.0         329,492.1        572,995.1             959.2           1,900.6
Change in Actuarial Liability             $    85,006.9          15,532.9         63,528.7             (82.9)             103.4
Actuarial Cost Method Used: Aggregate Entry-Age Method
Assumptions: Effective Interest
Market Value of Investments in Market-based and Marketable Securities: $354.2 billion

During FY 2010, the Department implemented Statement of Federal Financial Accounting
Standard (SFFAS) No. 33, ―Pensions, Other Retirement Benefits, and Other Postemployment
Benefits: Reporting the Gains and Losses from Changes in Assumptions and Selecting
Discount Rates and Valuation Dates.‖ The standard requires the separate presentation of gains
and losses from changes in long-term assumptions used to estimate liabilities associated with
pensions, other retirement and other postemployment benefits. The SFFAS No. 33 also
provides a standard for selecting the discount rate and valuation date used in estimating these
liabilities.
Military Retirement Pensions
The Military Retirement Fund is a defined benefit plan authorized by Public Law (PL) 98-94 to
provide funds used to pay annuities and pensions to retired military personnel and their
survivors. The Department of Defense (DoD) Retirement Board of Actuaries approves the long-
term economic assumptions for inflation, salary, and interest. The actuaries calculate the
actuarial liabilities annually using economic assumptions and actual experience (e.g., mortality
and retirement rates). Due to reporting deadlines, the current year actuarial present value of
projected plan benefits rolls forward from the prior year’s valuation results. The actuaries used
the following assumptions to calculate the FY 2010 roll-forward amount:
 Military Retirement Pensions                            Inflation                      Salary                  Interest
 Fiscal Year 2010                                 0.0% (actual)              3.4% (actual)                        5.0%
 Fiscal Year 2011                                 0.0% (actual)              1.4% (estimated)                     5.0%
 Long Term                                        2.4%                       3.6%                                 5.0%
 Actuarial Cost Method Used: Aggregate Entry-Age Normal Method
 Market Value of Investments in Market-Based and Marketable Securities: $354.2 billion
 Assumed Interest Rate: 5.0%

                                                                                                     Financial Information
                                                              102
Department of Defense Agency Financial Report for FY 2010

Historically, the initial unfunded liability of the program was amortized over a 50-year period.
Effective FY 2008, the initial unfunded liability is amortized over a 42-year period to ensure the
annual payments cover the interest on the unfunded actuarial liability, with the last payment
expected to be made October 1, 2025. All subsequent gains and losses experienced are
amortized over a 30-year period.
Military Retirement Health Benefits (MRHB)
The MRHB are post-retirement benefits the Department provides to non-Medicare-eligible
military retirees and other eligible beneficiaries through private sector health care providers and
the Department’s medical treatment facilities. The actuaries calculate the actuarial liabilities
annually using assumptions and actual experience. For the FY 2010 actuarial liability
calculation, the actuaries used the following assumptions:
                                                                                                       Ultimate Rate
 MRHB Medical Trend                                                    FY 2009 – FY 2010
                                                                                                          FY 2034
 Medicare Inpatient (Direct Care)                                                        3.63%                 5.65%
 Medicare Outpatient (Direct Care)                                                       2.76%                 5.65%
 Medicare Prescriptions (Direct Care)                                                    2.75%                 5.65%
 Non-Medicare Inpatient (Direct Care)                                                    7.24%                 5.65%
 Non-Medicare Outpatient (Direct Care)                                                   7.60%                 5.65%
 Non-Medicare Prescriptions (Direct Care)                                                2.00%                 5.65%
 Non-Medicare Inpatient (Purchased Care)                                                 3.00%                 5.65%
 Non-Medicare Outpatient (Purchased Care)                                                3.00%                 5.65%
 Non-Medicare Prescriptions (Purchased Care)                                             8.76%                 5.65%
 U.S. Family Health Plan (USFHP) (Purchased Care)                                        7.51%                 5.65%
Actuarial Cost Method Used: Aggregate Entry-Age Normal Method
Assumed Interest Rate: 5.0%

Medicare-Eligible Retiree Health Care Fund (MERHCF) Benefits
In accordance with PL 106-398, MERHCF accumulates funds to finance the health care
program liabilities of Medicare-eligible retirees for all the Uniformed Services and specific
Medicare-eligible beneficiaries.    The DoD Board of Actuaries approves the long-term
assumptions for medical trends and interest. The actuaries calculate the actuarial liabilities
annually using actual experience (e.g., mortality and retirement rates, direct care costs,
purchased care). Due to reporting deadlines, the current year actuarial present value of
projected plan benefits rolls forward from the prior year’s results. The actuaries used the
following assumptions to calculate the FY 2010 roll-forward amount:

                                                                                                       Ultimate Rate
 MERHCF Benefits — Medical Trend                                         FY 2009 – FY 2010
                                                                                                          FY 2034
 Medicare Inpatient (Direct Care)                                                           3.63%                 5.65%
 Medicare Inpatient (Purchased Care)                                                        4.63%                 5.65%
 Medicare Outpatient (Direct Care)                                                          2.76%                 5.65%
 Medicare Outpatient (Purchased Care)                                                       3.26%                 5.65%
 Medicare Prescriptions (Direct Care)                                                       2.75%                 5.65%
 Medicare Prescriptions (Purchased Care)                                                    7.51%                 5.65%
 Medicare USFHP (Purchased Care)                                                            5.49%                 5.65%
 Actuarial Cost Method Used: Aggregate Entry-Age Normal Method
 Market Value of Investments in Market-Based and Marketable Securities: $184.0 billion
 Assumed Interest Rate: 5.0%

                                                                                                    Financial Information
                                                             103
Department of Defense Agency Financial Report for FY 2010

The MERHCF liability includes Medicare liabilities for all Uniformed Services. The $573.0 billion
liability includes $560.1 billion for the Department, $11.6 billion for the Coast Guard, $1.2 billion
for the Public Health Service, and $81.5 million for National Oceanic and Atmospheric
Administration (NOAA). The FY 2010 contributions from each of the Uniformed Services were
$10.8 billion from the Department, $263.8 million from the Coast Guard, $35.6 million from the
Public Health Service, and $1.8 million from NOAA.
Federal Employees Compensation Act (FECA)
The Department of Labor (DOL) annually determines the liability for future workers’
compensation benefits, which includes the expected liability for death, disability, medical, and
miscellaneous costs for approved compensation cases, plus a component for incurred-but-not-
reported claims. The liability is determined using historical benefit payment patterns related to a
specific incurred period to predict the final payment related to that period. Consistent with past
practice, these projected annual benefit payments have been discounted to present value using
the Office of Management and Budget’s economic assumptions for 10-year U.S. Treasury notes
and bonds. A 3.65% interest rate was assumed for year one and 4.30% was assumed for year
two and thereafter.
The DOL calculates this liability using wage inflation factors (cost of living adjustments or
COLAs) and medical inflation factors (consumer price index medical or CPIM). The actual rates
for these factors for charge back year (CBY) 2010 were also used to adjust the methodology’s
historical payments to current year constant dollars. The compensation COLAs and CPIMs
used in the projections for various charge back years were as follows:

                         Federal Employees — Compensation Act (FECA)
              CBY                           COLA                                 CPIM
               2010                             N/A                               N/A
               2011                            2.23%                             3.45%
               2012                            1.13%                             3.43%
               2013                            1.70%                             3.64%
               2014                            1.90%                             3.66%
              2015+                            1.93%                             3.73%


The model’s resulting projections were analyzed by DOL to ensure the estimates were reliable.
The analysis was based on four tests: (1) a sensitivity analysis of the model of economic
assumptions, (2) a comparison of the percentage change in the liability amount to the
percentage change in the actual incremental payments, (3) a comparison of the incremental
paid losses per case (a measure of case-severity) in CBY 2010 to the average pattern observed
during the prior three charge back years, and (4) a comparison of the estimated liability per case
in the 2010 projection to the average pattern for the projections for the most recent three years.
Voluntary Separation Incentive (VSI) Program
The VSI Program was established by PL 102-190 to reduce the number of military personnel on
active duty. The DoD Board of Actuaries approved the assumed annual interest rate of 4.1%
used to calculate the actuarial liability. Since the VSI Program is no longer offered, the actuarial
liability calculated annually is expected to continue to decrease with benefit outlays and
increase with interest cost.
Market Value of Investments in Market-based and Marketable Securities: $446.7 million



                                                                               Financial Information
                                                104
Department of Defense Agency Financial Report for FY 2010

DoD Education Benefits Fund (EBF)
The EBF program was established by PL 98-525 to recruit and retain military members and aid
in the readjustment of military members to civilian life. The actuaries calculate the actuarial
liability annually based on the assumed interest rate of 4.1% that was approved by the EBF
Board of Actuaries.
Market Value of Investments in Market-based and Marketable Securities: $2.4 billion
Other Federal Employment Benefits
Other Federal Employment Benefits primarily consists of accrued pensions and annuities, and
an estimated liability for incurred-but-not-reported medical claims not processed prior to fiscal
year end.
Note 18. General Disclosures Related to the Statement of Net Cost

 General Disclosures Related to the Statement of Net Cost                             Dollars in Millions

                                                                                      Restated
 As of September 30                                             2010
                                                                                        2009
 Intragovernmental Costs                                    $       35,897.0      $           33,891.6
 Public Costs                                                      830,161.3                663,765.7
 Total Costs                                                $      866,058.3      $         697,657.3
 Intragovernmental Earned Revenue                                 (23,473.3)                (10,577.0)
 Public Earned Revenue                                            (39,768.9)                (35,590.9)
 Total Earned Revenue                                       $     (63,242.2)      $         (46,167.9)
 Net Cost of Operations                                     $      802,816.1      $         651,489.4

The Department identified the following restatements: (1) errors impacting ending account
balances while migrating from a manual to an automated interface between budget execution
and financial statement reporting systems; (2) property, plant and equipment valued incorrectly;
(3) overstated accounts receivable (nonfederal) established to recover pharmacy costs from
drug manufacturers; (4) inventory valued incorrectly; and (5) contract financing payments based
on auditor recommended adjustments. The corrections resulted in a $156.1 million net reduction
of Gross Costs on the Statement of Net Cost (SNC) and are reflected in Public Costs on the
restated Note 18, General Disclosures Related to the SNC. Refer to Note 26, Restatements, for
further information.
Other Disclosures
The SNC represents the net cost of programs and organizations of the Federal Government that
are supported by appropriations or other means. The intent of the SNC is to provide gross and
net cost information related to the amount of output or outcome for a given program or
organization administered by a responsible reporting entity. The Department’s current
processes and systems do not capture and report accumulated costs for major programs based
upon the performance measures as required by the Government Performance and Results Act.
The Department is in the process of reviewing available data and developing a cost reporting
methodology as required by the SFFAS No. 4, ― Managerial Cost Accounting Concepts and
Standards for the Federal Government‖, as amended by SFFAS No. 30, ―Inter-entity Cost
Implementation‖.
Intragovernmental costs and revenue represent transactions made between two reporting
entities within the Federal Government. Public costs and revenues are exchange transactions

                                                                               Financial Information
                                              105
Department of Defense Agency Financial Report for FY 2010

made between the reporting entity and a nonfederal entity. Public costs include actuarial
gains/losses on pension, other retirement benefits, and/or other postemployment benefits
assumption changes.
The Department’s systems do not track intragovernmental transactions by customer at the
transaction level. Buyer-side expenses are adjusted to agree with internal seller-side revenues.
Expenses are generally adjusted by reclassifying amounts between federal and nonfederal
expenses. Intradepartmental revenues and expenses are then eliminated.
The SNC presents information based on budgetary obligation, disbursement, and collection
transactions, as well as data from nonfinancial feeder systems. Amounts are adjusted for
accruals such as payroll expenses, accounts payable, and environmental liabilities. The
General Fund data is primarily derived from budgetary transactions (obligations, disbursements,
and collections), data from nonfinancial feeder systems, and accruals made for major items.
While Working Capital Funds primarily record transactions on an accrual basis, the systems do
not always capture actual costs in a timely manner.
The Department’s accounting systems generally do not capture information relative to heritage
assets separately and distinctly from normal operations.
During FY 2010, the Department implemented SFFAS No. 33, Pension, Other Retirment
Benefits, and Other Postemployment Benefits: Reporting the Gains and Losses from Changes
in Assumptions and Selecting Discount Rates and Valuation Dates. The standard requires the
separate presentation of gains and losses from changes in long-term assumptions used to
measure liabilities associated with pensions, other retirement benefits, and other
postemployment benefits. The SFFAS No. 33 also provides a standard for selecting the
discount rate and valuation date used in estimating these liabilities.
Note 19. Disclosures Related to the Statement of Changes in Net Position
Budgetary Financing Sources – Nonexchange revenue and its related contra account has an
abnormal balance of $8.8 million. This is due to a decrease in the allowance for loss on non-
entity receivable for 4th Quarter, FY 2010.
The Department identified the following restatements: (1) errors impacting ending account
balances while migrating from a manual to an automated interface between budget execution
and financial statement reporting systems; (2) property, plant and equipment valued incorrectly;
(3) overstated accounts receivable (nonfederal) established to recover pharmacy costs from
drug manufacturers; (4) inventory valued incorrectly; and (5) contract financing payments based
on auditor recommended adjustments. To correct the errors the Department restated the
Statement of Changes in Net Position (SCNP) by $2.1 billion. Refer to Note 26, Restatements,
for further information.
Other Financing Sources, Other consists primarily of nonexchange gains and losses to
reconcile the proprietary and budgetary amounts, as well as gains and losses on disposition of
assets. Due to financial system limitations, the Department adjusts for these unreconciled
differences.
Earmarked Cumulative Results of Operations ending balance on the SCNP does not agree with
the Earmarked Cumulative Results reported on the Balance Sheet because the cumulative
results on the Balance Sheet are presented net of eliminations. In the SCNP, offsetting
balances for intradepartmental activity between Earmarked Funds and All Other Funds are
reported on the same lines. The Eliminations column contains all appropriate elimination
entries, which net to zero within each respective line, except for intraentity imputed financing
costs.

                                                                           Financial Information
                                              106
Department of Defense Agency Financial Report for FY 2010

Appropriations Received on the SCNP do not match the Appropriations on the Statement of
Budgetary Resources (SBR). The difference of $123.9 billion is primarily related to the Military
Retirement Fund and Medicare-Eligible Retirement Health Care Fund appropriations. In order
to preserve visibility with the President’s Budget, these appropriations are effectively reported
twice on the SBR. They are reported once by the Military Departments and Defense Agencies
as appropriated and once by the individual trust funds as receipts. Refer to Note 20,
Disclosures Related to the Statement of Budgetary Resources, for further details.
Note 20. Disclosures Related to the Statement of Budgetary Resources
 Disclosures Related to the Statement of Budgetary Resources                               Dollars in Millions
                                                                                             Restated
 As of September 30, 2009                                                    2010
                                                                                               2009
 Net Amount of Budgetary Resources Obligated for Undelivered Orders at
                                                                         $   467,972.2     $     450,737.4
 the End of the Period.

Restatements
During the transition to an automated interface between the budget execution and financial
statement reporting systems, the Department identified $1.3 billion in errors related to FY 2009
and prior years for the Statement of Budgetary Resources. To correct the errors, the
Department restated several balances in the Statement of Budgetary Resources. Refer to Note
26, Restatements, for additional details.
Reconciliation Differences
Appropriations Received on the SBR exceeds Appropriations Received on the Statement of
Changes in Net Position by $123.9 billion. This difference represents trust and special fund
receipts reported as exchange revenue on the Statement of Net Cost and included in
appropriations on the SBR. In accordance with Office of Management and Budget (OMB)
guidance, $104.9 billion of General Fund appropriations received by the Department are also
recognized on the SBR as appropriations received for trust and special funds. The difference is
primarily due to duplicate reporting in the SBR of the Military Services’ contributions and U.S.
Treasury’s payments to the Military Retirement Fund and the Department of Defense Medicare-
Eligible Retiree Health Care Fund.
The SBR 2009 comparative column includes $93.9 billion more in budget authority than
reported in the 2009 actual column of the President’s FY 2011 Budget. The difference is
primarily due to the duplicate reporting discussed above and advances the U.S. Army Corps of
Engineers (USACE) received from the District of Columbia. USACE reports the advances
(account 96X6094) in its SBR. However, this account is not included in the budget.
The SBR FY 2009 column includes $331.2 million less in obligations than reported in the 2009
actual column of the President’s FY 2011 Budget. The difference is primarily due to abnormal
(negative) collections reported in the SBR. These abnormal collection were reported as
obligations and outlays in the President’s Budget.
The SBR FY 2009 column includes $65.9 billion less in net outlays than reported in the 2009
actual column of the President’s FY 2011 Budget. The SBR reduces net outlays by the
distributed offsetting receipts. In addition $288.1 million of abnormal collections were reported
as obligations and outlays in the President’s Budget.
The SBR includes $77.2 billion less in net outlays than reported in the SF-133, Report on
Budget Execution. The SBR reduces net outlays by the distributed offsetting receipts.
However, the SF-133, Report on Budget Execution does not reduce the Department’s outlays

                                                                                    Financial Information
                                                     107
Department of Defense Agency Financial Report for FY 2010

by the distributed offsetting receipts. In addition, budget authority, obligations, and net outlays
in the SBR will differ from amounts reported in the SF-133, Report on Budget Execution for
deposit account 96X6094. Deposit account 96X6094 represents advances the U.S. Army
Corps of Engineers (USACE) receive from the District of Columbia. USACE reports this depost
account in its SBR. However, this depost account is not included in the budget. USACE is
working with the OMB examiner to change the reporting of these advances in FY 2011.
Permanent Indefinite Appropriations
The Department of Defense (DoD) received the following permanent indefinite appropriations:
   Department of the Army General Gift Fund (10 USC 2601(b)(1))
   Department of the Navy General Gift Fund (10 USC 2601(b)(2))
   Department of the Air Force General Gift Fund (10 USC 2601 (b)(3))
   Department of Defense General Gift Fund (10 USC 2601)
   Disposal of Department of Defense Real Property (40 USC 485(h)(2)(A)(B))
   Foreign National Employees Separation Pay Account, Defense (10 USC 1581)
   United States Naval Academy Gift and Museum Fund (10 USC 6973-4)
   Ship Stores Profits, Navy (10 USC 7220, 31 USC 1321)
   Midshipmen’s Store (10 USC 6971B)
   Burdensharing Contributions (10 USC 2350j)
   Forest Program (10 USC 2665)
   Medicare Eligible Retiree Health Care Fund (MERHCF) (10 USC 1111)
   Military Retirement Fund (10 USC 1461)
   Education Benefits Fund (10 USC 2006)
   Host Nation Support for U.S. Relocation Activities (10 USC 2350k)
   Hydraulic Mining Debris Reservoir (33 USC 683)
   Maintenance and Operation of Dams and Other Improvements of Navigable Waters
   (16 USC 810(a))
   Payments to States (33 USC 701c-3)
   Wildlife Conservation (16 USC 670-670(f))
   Ainsworth Bequest (31 USC 1321)
   DoD Family Housing Improvement Fund (10 USC 2883 (a))
   DoD Military Unaccompanied Housing Improvement Fund (10 USC 2883 (a))
   Voluntary Separation Incentive Fund (10 USC 1175(h))
   Rivers & Harbors Contributed Funds (33 USC 560, 701h)
   Concurrent Receipt Accrual Payments to the Military Retirement Fund (10 USC 1466(b)(1))
   Rocky Mountain Arsenal, Restoration (100 Statue, 4003 SEC 1367)
   Department of Defense Family Improvement Fund (Section 504(f), Federal Credit Reform
   Act of 1990 and 2 U.S.C. 661c(f))
                                                                             Financial Information
                                               108
Department of Defense Agency Financial Report for FY 2010

    Homeowners Assistance Fund (10 USC 4551-4555; 42 USC 3374(d), Title United States
    Code; Public Law 111-5)
The above permanent indefinite appropriations cover a wide variety of purposes to help the
Department accomplish its missions. These purposes include: (1) military retirees’ health care
benefits, retirement and survivor pay, and education benefits for veterans; (2) wildlife habitat
restoration and water resources maintenance; (3) relocation of armed forces to a host nation;
(4) separation payments for foreign nationals; and (5) upkeep of libraries and museums.
Apportionment Categories for Obligations incurred
The Department reported the following amounts of direct obligations: (1) $585.1 billion in
category A; (2) $270.0 billion in category B; and (3) $2.6 billion in exempt from apportionment.
The Department reported reimbursable obligations of (1) $23.8 billion in category A, (2) $171.6
billion in category B and (3) $39.5 million in exempt from apportionment. Category A relates to
appropriations for a specific period of time (e.g., Military Personnel appropriation), and category
B relates to appropriations for a specific project (e.g., Military Construction appropriation).
Legal Arrangements Affecting the Use of Unobligated Balances
A portion of the Department’s unobligated balances represents trust fund receipts collected in
the current fiscal year that exceed the amount needed to pay benefits or other valid obligations.
These receipts are temporarily precluded from obligation by law due to a benefit formula or
other limitation. The receipts, however, are assets of the funds and are available for obligation
as needed in the future. The Department operates within the constraints of fiscal law and has
no additional legal arrangements affecting the use of unobligated balances.
Other Disclosures
The SBR includes intraentity transactions because the statements are presented as combined.
The Department utilizes borrowing authority for the Military Housing Privatization Initiative and
the Armament Retooling and Manufacturing Support Initiative. Borrowing authority is used in
accordance with OMB Circular No. A-129, ―Managing Federal Credit Programs.‖
The Department received additional funding of $158.3 billion to cover obligations incurred above
baseline operations, which includes $151.6 billion in support of the Overseas Contingency
Operations.
Note 21. Reconciliation of Net Cost of Operations to Budget

 Reconciliation of Net Cost of Operations to Budget                                            Dollars in Millions

                                                                                                   Restated
 As of September 30, 2010 and 2009                                               2010
                                                                                                     2009
 Resources Used to Finance Activities
 Budgetary Resources Obligated:
   Obligations incurred                                                      $   1,053,074.5   $    1,030,908.4
   Less: Spending authority from offsetting collections and recoveries (-)       (242,038.4)         (244,492.1)
   Obligations net of offsetting collections and recoveries                  $    811,036.1    $      786,416.3
   Less: Offsetting receipts (-)                                                  (77,722.2)          (65,912.1)
   Net obligations                                                           $    733,313.9    $      720,504.2




                                                                                         Financial Information
                                                        109
Department of Defense Agency Financial Report for FY 2010


Reconciliation of Net Cost of Operations to Budget                                                     Dollars in Millions

                                                                                                           Restated
As of September 30, 2010 and 2009                                                   2010
                                                                                                             2009
Other Resources:
  Donations and forfeitures of property                                         $            6.4   $                  2.2
  Transfers in/out without reimbursement (+/-)                                             566.2                  (42.8)
  Imputed financing from costs absorbed by others                                      5,596.2                  4,703.8
  Other (+/-)                                                                          2,446.5                  1,253.7
  Net other resources used to finance activities                                $      8,615.3          $       5,916.9
Total resources used to finance activities                                      $    741,929.2     $          726,421.1
Resources Used to Finance Items not Part of the Net Cost of
Operations
Change in budgetary resources obligated for goods, services and
benefits ordered but not yet provided:
   Undelivered Orders (-)                                                       $    (17,234.8)    $          (43,375.4)
   Unfilled Customer Orders                                                             2,298.9                    931,6
Resources that fund expenses recognized in prior
                                                                                      (7,004.9)               (13,983.5)
Periods (-)
Budgetary offsetting collections and receipts that do not affect Net Cost
                                                                                       2,599.2                  1,928.6
of Operations
Resources that finance the acquisition of assets (-)                            $   (125,255.3)    $         (145,109.8)
Other resources or adjustments to net obligated resources that do not
affect Net Cost of Operations:
     Less: Trust or Special Fund Receipts Related to exchange in the
                                                                            $                0.0   $              (10.0)
     Entity’s Budget (-)
     Other (+/-)                                                                      (3,008.2)                24,649.8
Total resources used to finance items not part of the Net Cost of
                                                                            $       (147,605.1)    $         (174,968.7)
Operations
Total resources used to finance the Net Cost of Operations                  $        594,324.1         $      551,452.4
Components of the Net Cost of Operations that will not Require or
Generate Resources in the Current Period
Components Requiring or Generating Resources in Future Period:
     Increase in annual leave liability                                     $          2,688.6     $               819.9
     Increase in environmental and disposal liability                                    873.4                     929.2
     Upward/Downward reestimates of credit subsidy
                                                                                             4.7                      0.4
     expense (+/-)
     Increase in exchange revenue receivable from the public (-)                       (295.0)                    815.5
     Other (+/-)                                                                     166,438.4                 32,796.5
Total components of Net Cost of Operations that will Require or
                                                                            $        169,710.1         $       35,361.5
Generate Resources in future periods
Components not Requiring or Generating Resources:
Depreciation and amortization                                                   $     39,255.3     $           41,079.5
Revaluation of assets or liabilities (+/-)                                             4,119.3                  5,969.1
Other (+/-)
     Trust Fund Exchange Revenue                                                     (46,694.0)               (34,909.0)
     Cost of Goods Sold                                                                67,434.1                 72,948.9
     Operating Materiel and Supplies Used                                              28,690.0                 30,868.3
     Other                                                                           (54,022.8)               (51,281.3)

                                                                                             Financial Information
                                                        110
Department of Defense Agency Financial Report for FY 2010


 Reconciliation of Net Cost of Operations to Budget                                         Dollars in Millions

                                                                                                Restated
 As of September 30, 2010 and 2009                                          2010
                                                                                                  2009
 Total Components of Net Cost of Operations that will not Require
                                                                        $     38,781.9     $        64,675.5
 or Generate Resources
 Total components of Net Cost of Operations that will not Require
                                                                    $        208,492.0      $      100,037.0
 or Generate Resources in the current period
 Net Cost of Operations                                                 $    802,816.1     $       651,489.4


The Department identified errors impacting ending FY 2009 account balances while migrating
from a manual to an automated interface between budget execution and financial statement
reporting systems. To correct the errors the Department restated Note 21, Reconciliation of Net
Cost of Operations to Budget. Refer to Note 26, Restatements, for further information.
Due to the Department’s financial system limitations, budgetary data does not agree with
proprietary expenses and capitalized assets. The difference between budgetary and proprietary
data is a previously identified deficiency. The following adjustments (absolute value) were
made to balance the Reconciliation of Net Cost of Operations to the Statement of Net Cost:
                                                                                         (Amounts in millions)

 Resources that Finance the Acquisition of Assets                                                   $8,623.9
 Other Components not Requiring or Generating Resources                                                 786.4
 Total Amount                                                                                       $9,410.3


The following Reconciliation of Net Cost of Operations to Budget lines are presented as
combined instead of consolidated due to intraagency budgetary transactions not being
eliminated:
    Obligations Incurred
    Less: Spending Authority from Offsetting Collections and Recoveries
    Obligations Net of Offsetting Collections and Recoveries
    Less: Offsetting Receipts
    Net Obligations
    Undelivered Orders
    Unfilled Customer Orders
Other Resources, Other, primarily consists of $2.5 billion in nonexchange gains and losses
necessary to reconcile the proprietary and budgetary amounts, as well as ($0.1) billion in gains
and losses on disposition of assets.
Other Resources or Adjustments to Net Obligated Resources that Do Not Affect Net Cost of
Operations, Other, primarily consists of ($2.5) billion in nonexchange gains and losses
necessary to reconcile the proprietary and budgetary amounts, ($0.6) billion in financial sources
transferred in without reimbursement, and $0.1 billion in gains and losses on disposition of
assets.
Components Requiring or Generating Resources in Future Period, Other, consists primarily of
$165.8 billion in other federal employment benefits.

                                                                                   Financial Information
                                                    111
Department of Defense Agency Financial Report for FY 2010

Components not Requiring or Generating Resources, Other primarily consists of cost
capitalization offsets and other expenses not requiring budgetary resources.
Note 22. Disclosures Related to Incidental Custodial Collections
The Department collected $1.2 million of incidental custodial revenues generated primarily from
forfeitures of unclaimed money and property. These funds are not available for use by the
Department. At the end of each fiscal year, the accounts are closed and the balances rendered
to the U.S. Treasury.
Note 23. Earmarked Funds
Earmarked Funds                                                                                                  Dollars in Millions
                                                                                  2010
                                                        Medicare-
                                  Military               Eligible           Other
                                 Retirement              Retiree          Earmarked           Eliminations               Total
                                   Fund                Health Care          Funds
As of September 30                                        Fund
Balance Sheet
Assets
 Fund balance with Treasury          $        25.4     $        196.0         $    3,181.0     $          0.0      $        3,402.4
 Investments                             321,686.8          166,203.5              9,246.4                0.0            497,136.7
 Accounts and Interest
                                              37.0              562.9              1,107.8              (42.5)              1,665.2
 Receivable
 Other Assets                                0.0               0.0               1,441.1                   0.0         1,441.1
Total Assets                         $ 321,749.2       $ 166,962.4            $ 14,976.3       $        (42.5)     $ 503,645.4
Liabilities and Net Position
 Military Retirement Benefits
 and Other Federal               $ 1,262,672.9         $ 573,671.3        $        2,859.8     $          0.0      $1,839,204.0
 Employment Benefits
 Other Liabilities                         2.0                  303.7              2,594.2             (118.3)          2,781.6
Total Liabilities                $ 1,262,674.9         $    573,975.0     $        5,454.0    $        (118.3)     $1,841,985.6
 Unexpended Appropriations       $             0.0     $           0.0    $          325.2    $         (20.4)     $          304.8
 Cumulative Results of
                                     (940,925.7)           (407,012.6)             9,197.1         (101,264.8)         (1,440,006.0)
 Operations
Total Liabilities and Net
                                 $       321,749.2     $    166,962.4     $       14,976.3    $ (101,403.5)        $ 402,284.4
Position
Statement of Net Cost
 Program Costs                   $       136,098.0     $     71,579.4     $        2,302.9    $      (2,497.6) $         207,482.7
 Less Earned Revenue                     (93,929.7)         (26,420.1)            (1,393.4)         104,870.9            (16,872.3)
 Net Program Costs                        42,168.3           45,159.3                909.5          102,373.3            190,610.4
Net Cost of Operations           $        42,168.3     $     45,159.3     $          909.5     $ 102,373.3 $             190,610.4
Statement of Changes in Net Position
 Net Position Beginning of the
                                 $       (898,757.4)   $ (361,576.6)      $         8,074.1   $             0.0 $(1,252,259.9)
 Period
 Net Cost of Operations                    42,168.3           45,159.3                909.5          102,373.4            190,610.5
 Budgetary Financing Sources                    0.0                 0.0             2,572.0            1,088.2               3,660.2
 Other Financing Sources                         0.0           (276.7)              (214.3)             0.0       (491.0)
Change in Net Position           $        (42,168.3)   $      45,436.0    $         1,448.2   $ (101,285.2) $ (187,441.3)
Net Position End of Period       $       (940,925.7)   $ (407,012.6)      $         9,522.3   $ (101,285.2) $(1,439,701.2)

                                                                                                      Financial Information
                                                             112
Department of Defense Agency Financial Report for FY 2010


 Earmarked Funds                                                                                                    Dollars in Millions
                                                                                  2009
                                                        Medicare-
                                   Military              Eligible           Other
                                  Retirement             Retiree          Earmarked            Eliminations                Total
                                    Fund               Health Care          Funds
As of September 30                                        Fund
Balance Sheet
Assets
  Fund balance with Treasury      $            20.5    $           5.0        $    2,246.2         $         0.0       $      2,271.7
  Investments                          278,347.0            148,403.4              8,133.7                   0.0           434,884.1
  Accounts and Interest
                                               31.9             147.9                988.8                  (6.0)             1,162.6
  Receivable
  Other Assets                               0.0               0.0               2,136.9                      0.0             2,136.9
Total Assets                      $    278,399.4       $ 148,556.3            $ 13,505.6        $           (6.0)         $ 440,455.3
Liabilities and Net Position
  Military Retirement Benefits
  and Other Federal               $ 1,177,154.9        $ 510,286.8        $        2,839.4      $            0.0      $1,690,281.1
  Employment Benefits
  Other Liabilities                             1.9             122.9              2,591.6                 (72.0)             2,644.4
Total Liabilities                 $1,177,156.8          $ 510,409.7       $        5,431.0      $          (72.0)     $1,692,925.5
  Unexpended Appropriations       $             0.0    $           0.0    $              5.6   $             0.0      $            5.6
  Cumulative Results of
                                      (898,757.4)          (361,853.4)             8,069.0             (90,592.9)     $(1,343,134.7)
  Operations
Total Liabilities and Net
                                  $ 278,399.4           $ 148,556.3       $       13,505.6      $ (90,664.9)          $ 349,796.4
Position

Statement of Net Cost
  Program Costs                    $       73,004.0     $    17,612.9     $        2,510.2      $       (2,567.2)      $    90,559.9
  Less Earned Revenue                  (75,267.8)           (22,469.4)              (674.6)             94,121.9            (4,289.9)
 Net Program Costs                      (2,263.8)            (4,856.5)             1,835.6              91,554.7            86,270.0
Net Cost of Operations            $     (2,263.8)      $     (4,856.5)    $        1,835.6      $       91,554.7          $ 86,270.0

Statement of Changes in Net Position
  Net Position Beginning of the
                                  $ (901,021.2)        $ (366,709.9)      $         8,043.0     $             0.0     $(1,259,688.1)
  Period
  Net Cost of Operations                   (2,263.8)          (4,856.5)             1,835.6              91,554.7            86,270.0
  Budgetary Financing Sources                    0.0                0.0             1,973.7                 943.6              2,917.3
 Other Financing Sources                         0.0               0.0               (106.5)            18.2                    (88.3)
Change in Net Position                 $     2,263.8   $       4,856.5    $             31.6    $ (90,592.9)          $     (83,441.0)
Net Position End of Period        $ (898,757.4)        $ (361,853.4)      $         8,074.6     $ (90,592.9)          $(1,343,129.1)

Other Disclosures
The Statement of Federal Financial Accounting Standards (SFFAS) No. 27, ―Identifying and
Reporting Earmarked Funds,‖ requires the disclosure of Earmarked Funds separate from All
Other Funds on the Statement of Changes in Net Position and Balance Sheet. Funds must
meet three criteria to be classified as earmarked: (1) a statute committing use of specifically-
identified revenues for designated purposes, (2) explicit authority to retain the revenues, and
                                                                                                         Financial Information
                                                             113
Department of Defense Agency Financial Report for FY 2010

(3) a requirement to account and report on the revenues. The Department’s earmarked funds
are either special or trust funds and use both receipt and expenditure accounts to report activity
to the U.S. Treasury. There have been no changes in legislation that significantly changed the
purposes of the funds.
The Total column is shown as consolidated and relates only to Earmarked Funds. The
Eliminations column includes eliminations associated with Earmarked Funds and excludes the
offsetting eliminations from All Other Funds. This exclusion causes assets to not equal liabilities
and net position in the note. However, the amounts in the Total column equal the amounts
reported for Earmarked Funds on the Balance Sheet.
The SFFAS No. 27 requires the presentation of gross amounts of Earmarked Funds separate
from All Other (nonearmarked) Funds. Cumulative Results of Operations ending balances for
Earmarked Funds on the SCNP do not agree with the Cumulative Results of Operations for
Earmarked Funds reported on the Balance Sheet because the Cumulative Results of
Operations on the Balance Sheet are presented net of eliminations, whereas the SCNP
presents Cumulative Results of Operations gross Cumulative Results of Operations.
Military Retirement Fund (MRF), 10 United States Code (USC) 1461. The MRF accumulates
funds in order to finance, on an actuarially sound basis, the liabilities of the Department’s military
retirement and survivor benefit programs. Financing sources for the MRF are interest earnings on
Fund assets, monthly Department contributions, and annual contributions from the U.S. Treasury.
The monthly Department contributions are calculated as a percentage of basic pay. The
contribution from the U.S. Treasury represents the amortization of the unfunded liability for service
performed prior to October 1, 1984, plus the amortization of actuarial gains and losses that have
arisen since then. The U.S. Treasury annual contribution also includes the normal cost amount
for the concurrent receipt provisions of the FY 2004 National Defense Authorization Act.
Medicare-Eligible Retiree Health Care Fund (MERHCF), 10 USC 1111. The MERHCF
accumulates funds to finance, on an actuarially sound basis, liabilities of the Department and
the uniformed services health care programs for qualified Medicare-eligible beneficiaries.
Financing sources for MERHCF are provided primarily through an annual actuarial liability
payment from the U.S. Treasury, annual contributions from each Uniformed Service (Army,
Navy, Air Force, Marine Corps, U.S. Coast Guard, National Oceanic and Atmospheric
Administration, and U.S. Public Health Service) and interest earned from the Fund's
investments.
Other Earmarked Funds
Special Recreation Use Fees, 16 USC 4061-6a note. The United States Army Corps of
Engineers (USACE) is granted the authority to charge and collect fair and equitable Special
Recreation Use Fees at campgrounds located at lakes or reservoirs that are under the
jurisdiction of USACE. Types of allowable fees include daily use fees, admission fees,
recreational fees, annual pass fees, and other permit type fees. The receipts are used for the
operation and maintenance of the recreational sites.
Hydraulic Mining in California, Debris, 33 USC 683. Operators of hydraulic mines through
which debris flows in part or in whole to a body restrained by a dam or other work erected by the
California Debris Commission are required to pay an annual tax as determined by the
Commission. Taxes imposed under this code are collected and expended under the
supervision of USACE and the direction of the Department of the Army. The funds are used for
repayment of funds advanced by the Federal government or other agencies for construction,
restraining works, settling reservoirs, and maintenance.


                                                                               Financial Information
                                                 114
Department of Defense Agency Financial Report for FY 2010

Payments to States, Flood Control Act of 1954, 33 USC 701c-3. Seventy-five percent of all
funds received and deposited from the leasing of lands acquired by the United States for flood
control, navigation, and allied purposes (including the development of hydroelectric power) are
returned to the state in which the property is located. USACE collects lease receipts into a receipt
account. Funds are appropriated for the amount of receipts the following fiscal year. The funds
may be expended by the states for the benefit of public schools and public roads of the counties in
which such property is situated, or for defraying any of the expenses of county government.
Maintenance and Operation of Dams and Other Improvements of Navigable Waters, 16
USC 803(f) and 810. When a reservoir or other improvement is constructed by the U.S., the
Federal Energy Regulatory Commission (FERC) assesses charges against licensees directly
benefited. The statute requires all proceeds from any Indian reservation be placed to the credit of
the Indians of the reservation. All other charges arising from licenses, except those charges
established by the FERC for administrative reimbursement, are paid to the U.S. Treasury and
allocated for specific uses. The Army is allocated 50 percent of charges from all licenses, except
licenses for the occupancy and use of public lands and national forests. These funds are
deposited in a special fund and used for maintenance, operation, and improvement of dams and
other navigation structures that are owned by the United States, or in construction, maintenance,
or operation of headwater, or other improvements to navigable waters of the United States.
Fund for NonFederal Use of Disposal Facilities (for dredged material), 33 USC 2326. Any
dredged material disposal facility under the jurisdiction of, or managed by, the Secretary of the
Army may be used by a nonfederal interest if the Secretary determines that such use will not
reduce the availability of the facility for project purposes. Fees may be imposed to recover capital,
operation, and maintenance costs associated with such use. Any monies received through
collection of fees under this law shall be available to, and used by, the Secretary of the Army for
the operation and maintenance of the disposal facility from which the fees were collected.
South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund, Public Law 106-53 Sec. 603.
Yearly transfers are made from the General Fund of the U.S. Treasury to the Trust Fund for
investment purposes. Investment activity is managed by the Bureau of the Public Debt (BPD).
The BPD purchases and redeems nonmarketable market-based securities. Investments include
one-day certificates, bonds, and notes. When the fund reaches the aggregate amount of $108
million, withdrawals may be made by USACE for payment to the State of South Dakota. The
state uses the payments to fund annually-scheduled work for wildlife habitat restoration.
Costal Wetlands Restoration Trust Fund and Costal Wetlands Planning, Protection, and
Restoration Act, 16 USC 3951-3956. USACE (along with the Environmental Protection
Agency, and the Fish and Wildlife Service) is granted the authority to work with the State of
Louisiana to develop, review, evaluate, and approve a plan to achieve a goal of "no net loss of
wetlands" in coastal Louisiana. USACE is also responsible for allocating funds among the
named task force members. Federal contributions are established at 75 percent of project costs
or 85 percent if the state has an approved Coastal Wetlands Conservation Plan.
Rivers and Harbors Contributed and Advance Funds, 33 USC 701h, 702f, and 703.
Whenever any state or political subdivision offers to advance funds for a flood control project
duly adopted and authorized by law, the Secretary of the Army may, in his discretion, receive
such funds and expend them in the immediate prosecution of such work. The funding may be
used to construct, improve, and maintain levees, water outlets, flood control, debris removal,
rectification and enlargement of river channels, etc. in the course of flood control and river and
harbor maintenance.



                                                                               Financial Information
                                                115
Department of Defense Agency Financial Report for FY 2010

Inland Waterways Trust Fund, 26 USC 9506. This law made the Inland Waterways Trust Fund
available for USACE expenditures for navigation, construction, and rehabilitation projects on
inland waterways. Collections for excise taxes from the public are made into the Trust Fund.
The collections are invested and investment activity is managed by the BPD. The BPD
purchases and redeems nonmarketable market-based securities. Investments include one-day
certificates, bonds, and notes.
Harbor Maintenance Trust Fund, 26 USC 9505. The USACE Civil Works mission is funded by
the Energy and Water Development Appropriations Act. The Water Resources Development
Act of 1986 covers a portion of USACE operations and maintenance costs for deep draft
navigation. The Harbor Maintenance Trust Fund is available for making expenditures to carry
out the functions specified in the Act and for the payment of all expenses of administration
incurred by the U.S. Treasury, USACE, and the Department of Commerce. Collections are
made into the Trust Fund from taxes collected from imports, domestics, passengers, and foreign
trade. The collections are invested and investment activity is managed by the BPD.
Foreign National Employees Separation Pay Account Trust Fund, 10 USC 1581. This fund
makes payments from amounts obligated by the Secretary of Defense that remain unexpended
for separation pay for foreign national employees of the Department. The foreign national
employees’ separation pay funded by Foreign Military Sales administrative funds is maintained
as a separate fund.
Defense Commissary Agency Surcharge Trust Fund, 10 USC 2685. This fund was
established as the repository for the surcharge on sales of commissary goods paid for by
authorized patrons to finance certain operating expenses and capital purchases of the
Commissary System, which are precluded by law from being paid with appropriated funds.
Most surcharge revenue is generated by the 5 percent surcharge applied to each sale. These
funds may be used to pay for commissary store-related information technology investments, to
purchase commissary equipment, to finance advance design modifications to prior year
projects, for both minor and major construction projects, and to maintain and repair commissary
facilities and equipment.
Education Benefit Fund, 10 USC 2006. This fund was established to finance, on an
actuarially sound basis, the liabilities of the Department’s education benefit programs for current
and former active duty, guard, and reserve members of the armed forces, and members of the
Coast Guard. Financing sources for the Education Benefit Fund are interest earnings on Fund
assets and monthly Department contributions.
Voluntary Separation Incentive Fund, 10 USC 1175. This fund was established to finance,
on an actuarially sound basis, the liabilities of the Department’s incentive program for early
separation from military service. Financing sources for the Voluntary Separation Incentive Fund
are interest earnings on Fund assets and annual Department contributions
Military Housing Privatization Initiative, Public Law 104-106, Section 2801. The MHPI
includes both direct loan and loan guarantee programs, is authorized by the National Defense
Authorization Act for FY 1996, and includes a series of authorities that allow the Department to
work with the private sector to renovate and build military family housing. The MHPI
accelerates the construction of new housing built to market standard and leverages private
sector capital with government dollars. The Department provides protection to the private
sector partner against specific risks, such as base closure or member deployment.
Armament Retooling and Manufacturing Support Initiative, 10 USC 4551-4555. The
Armament Retooling and Manufacturing Support Initiative is a loan guarantee program designed
to incentivize commercial use of the Army's inactive ammunition plants for businesses willing to

                                                                             Financial Information
                                               116
Department of Defense Agency Financial Report for FY 2010

locate to a government ammunition production facility. The production capacity of these
facilities is greater than current military requirements, however, this capacity may be needed in
the future. Revenue from property rentals are used to pay for the operation, maintenance and
environmental cleanup at the facilities.
Note 24. Fiduciary Activities
 Schedule of Fiduciary Activity                                                                             Dollars in Millions

 As of September 30                                                                2010                            2009
 Fiduciary net assets, beginning of year                                   $                187.4          $               166.4
 Contributions                                                                              256.7                          264.6
 Investment earnings                                                               $         17.2                  $           17.0
 Distributions to and on behalf of beneficiaries                                           (282.4)                        (260.6)
 Increase/(Decrease) in fiduciary net assets                                                 (8.5)                             21.0
 Fiduciary net assets, end of period                                           $            178.9              $           187.4


 Schedule of Fiduciary Net Assets                                                                           Dollars in Millions

 As of September 30                                                                2010                            2009
 Fiduciary Assets
  Cash and cash equivalents                                                    $            178.9              $           187.4
 Total Fiduciary Net Assets                                                    $            178.9              $           187.4


Fiduciary activities exist when the Department has collected, received, held, or made disposition
of assets on behalf of an individual or nonfederal entity. Fiduciary assets are not recognized on
the Balance Sheet.
Public Law 89-538 authorized the Department, through the Savings Deposit Program, to collect
voluntary contributions from members of the Armed Forces serving outside the United States or
its possessions in designated areas. These contributions and earned interest are deposited in
the U.S. Treasury on behalf of the members.
Note 25. Other Disclosures
Other Disclosures                                                                                          Dollars in Millions
                                                                     2010— Asset Category
                                               Land and
 As of September 30                                              Equipment                 Other                       Total
                                               Buildings
Entity as Lessee – Operating Leases
    Future Payments Due
       Fiscal Year 2011                            $    550.4    $       2.0           $         106.5         $           658.9
       Fiscal Year 2012                                 518.2            1.7                     109.7                     629.6
       Fiscal Year 2013                                 479.7            1.3                     112.7                     593.7
       Fiscal Year 2014                                 471.7            1.3                     116.0                     589.0
       Fiscal Year 2015                                 489.0            1.3                     135.5                     625.8
       After 5 Years                                    907.0            1.1                     121.2                    1,029.3
    Total Future Lease Payments Due            $       3,416.0   $       8.7           $         701.6         $          4,126.3




                                                                                                     Financial Information
                                                          117
Department of Defense Agency Financial Report for FY 2010

Operating leases are leases that do not transfer all the benefits and risks of ownership of capital
leases. Payments are charged as expenses over the lease term. Office space is the largest
component of land and building leases. Other leases are generally one-year leases that are not
building or equipment leases. Future year cost projections use the Consumer Price Index.


Note 26. Restatements
The Department restated its financial statements as of September 30, 2009 to correct errors in
assets, liabilities, gross costs, and net position identified during ongoing audit readiness efforts.
Adjustment #1: During the transition to an automated interface between the budget execution
and financial statement reporting systems, the Department identified $1.3 billion in errors related
to FY 2009 and prior years account balances. To correct the errors, the Department restated the
Statement of Budgetary Resources; Accounts Receivable (Nonfederal), Accounts Payable
(Nonfederal), Other Liabilities (Nonfederal), Unexpended Appropriations, and Cumulative
Results of Operations on the Balance Sheet; Gross Costs on the Statement of Net Costs,
Unexpended Appropriations and Cumulative Results of Operations on the Statement of
Changes of Net Position. Related notes restate were: Note 2, Nonentity Assets; Note 5,
Accounts Receivable (Nonfederal); Note 11, Liabilities Not Covered by Budgetary Resources;
Note 12, Accounts Payable (Nonfederal); Note 15, Other Liabilities (Nonfederal); Note 18,
General Disclosures Related to the Statement of Net Cost; Note 20, Disclosures Related to the
Statement of Budgetary Resources; Note 21, Reconciliation of Net Cost of Operations to
Budget; and Note 23, Earmarked Funds.
Adjustment #2: The Department corrected a $1.5 billion overstatement of General Property,
Plant and Equipment for property purchased prior to FY 2009 to remove programs capitalized
that should have been expensed, to correct the related depreciation expense and to align the
accounting records to the property accountability system. This correction decreased General
Property, Plant and Equipment, Net; and Cumulative Results of Operations on the Balance
Sheet; Cumulative Results of Operations on the Statement of Changes in Net Position; Gross
Costs on the Statement of Net Costs; and General Property, Plant and Equipment. Note 2,
Nonentity Assets; Note 10, General Property, Plant Equipment; Note 18, General Disclosures
Related to the Statement of Net Cost; and Note 21, Reconciliation of Net Cost of Operations to
Budget were restated.
Adjustment #3: The Department restated $503.2 million of Accounts Receivable (Nonfederal)
for refunds requested from pharmaceutical manufacturers participating in the DoD’s Retail
Pharmacy Program. Upon the advice of the General Counsel the Department has removed
these receivables pending a final court decision. The Department restated Accounts Receivable
(Nonfederal) and Cumulative Results of Operations on the Balance Sheet; Gross Costs on the
Statement of Net Costs, and Cumulative Results of Operations on the Statement of Changes in
Net Position. Related notes restated were: Note 2, Nonentity Assets; Note 5, Accounts
Receivable; Note 18, General Disclosures Related to the Statement of Net Cost; Note 21,
Reconciliation of Net Cost of Operations to Budget; and Note 23, Earmarked Funds.
Adjustment #4: The Department corrected a $473.4 million understatement of inventory and
related property resulting from incorrect credits to the inventory allowance account for customer
returns of inventory. The allowance account was not adjusted when the returned inventory was
subsequently resold. The Department restated Inventory and Related Property, Net; and
Cumulative Results of Operations on the Balance Sheet; Gross Costs on the Statement of Net
Costs, and Cumulative Results of Operation on the Statement of Changes in Net Position.
Related notes restated were: Note 2, Nonentity Assets; Note 9, Inventory and Related Property;

                                                                               Financial Information
                                                118
Department of Defense Agency Financial Report for FY 2010

Note 18, General Disclosures Related to the Statement of Net Cost; and Note 21, Reconciliation
of Net Cost of Operations to Budget.
Adjustment #5: The Department reduced outstanding contract financing payment by $505.6
million and accounts payable by $69 million in FY 2009 based on auditor recommended
adjustments. Restatements were made to Other Assets (Nonfederal), Accounts Payable
(Nonfederal), and Unexpended Appropriations on the Balance Sheet; Gross Costs on the
Statement of Net Costs, Unexpended Appropriations on the Statement of Changes in Net
Position; and the Statement of Budgetary Resources. Related notes restated were Note 2,
Nonentity Assets; Note 18, General Disclosures Related to the Statement of Net Cost; Note 20,
Disclosures Related to the Statement of Budgetary Resources; and Note 21, Reconciliation of
Net Cost of Operations to Budget.
Effect on FY 2010 beginning Comparative Results and Unexpended Appropriations
 FY 2010 Statement of Changes in Net Position                                   Dollars in Billions
 Cumulative Results of Operations                                                       FY 2010
 Correction of Errors (+/-) Adjustment #1                         $                              0.4
 Correction of Errors (+/-) Adjustment #2                                                    (1.5)
 Correction of Errors (+/-) Adjustment #3                                                    (0.5)
 Correction of Errors (+/-) Adjustment #4                                                        0.5
 Beginning balance adjustments                                    $                         (1.1)


 Unexpended Appropriations
 Correction of Errors – Adjustment #1                             $                          (0.4)
 Correction of Errors – Adjustment #5                                                       (0.6)
 Beginning balance adjustments                                    $                         (1.0)




Effect on Comparative Balances
 FY 2009 Balance Sheet                                                          Dollars in Billions

 Accounts Receivable, Net (Nonfederal) – Adjustment #3        $                          (0.5)

 Inventory – Adjustment #4                                                                 0.5

 General Property, Plant and Equipment, Net – Adjustment #2                              (1.5)

 Other Assets (Nonfederal) – Adjustment #5                                               (0.5)

 Total Assets                                                 $                          (2.0)

 Accounts Payable (Nonfederal) – Adjustment #5                                             0.1

 Total Liabilities                                            $                            0.1

 Net Position                                                 $                          (2.1)

 Total Liabilities and Net Position                           $                          (2.0)




                                                                         Financial Information
                                                     119
Department of Defense Agency Financial Report for FY 2010

FY 2009 Balance Sheet                                               Dollars in Billions

FY 2009 Statement of Net Cost                                   Dollars in Billions

Gross Costs – Adjustment #1                          $                       (0.8)

Gross Costs – Adjustment #2                                                  (0.3)

Gross Costs – Adjustment #3                                                    0.5

Gross Costs – Adjustment #4                                                  (0.1)

Gross Costs – Adjustment #5                                                    0.6

Net Cost of Operations                               $                      ( 0.1)

FY 2009 Statement of Changes in Net Position                    Dollars in Billions

Cumulative Results of Operations

Correction of Errors (+/-) Adjustment #1             $                         0.4

Correction of Errors (+/-) Adjustment #2                                     (1.8)

Correction of Errors (+/-) Adjustment #4                                       0.4

Beginning balance adjustments                        $                       (1.0)

Budgetary Financing Sources:

   Appropriations used – Adjustment #1               $                       (0.8)

   Appropriations used – Adjustment #5                                         0.6

   Net Cost of Operations Adjustment #1              $                         0.8

   Net Cost of Operations Adjustment #2                                        0.3

   Net Cost of Operations Adjustment #3                                      (0.5)

   Net Cost of Operations Adjustment #4                                        0.1

   Net Cost of Operations Adjustment #5                                      (0.6)

Cumulative Results                                   $                       (1.1)

Unexpended Appropriations

Correction of Errors – Adjustment #1                 $                       (1.2)

Beginning balance adjustments                        $                       (1.2)

Budgetary Financing Sources:

   Appropriations Used – Adjustment #1                                         0.8

   Appropriations Used – Adjustment #5                                       (0.6)

Unexpended Appropriations                            $                       (1.0)

Net Position                                         $                       (2.1)




                                                            Financial Information
                                               120
Department of Defense Agency Financial Report for FY 2010

FY 2009 Balance Sheet                                                   Dollars in Billions

FY 2009 Statement of Budgetary Resources                                Dollars in Billions

Budgetary Resources:

Unobligated Balance, brought forward – Adjustment #1         $                   (1.3)

Total Budgetary Resources                                    $                   (1.3)

Status of Budgetary Resources:

Obligations Incurred:

   Direct – Adjustment #1                                    $                   (1.7)

   Direct – Adjustment #5                                                        (0.1)

   Reimbursable – Adjustment #1                                                    0.4

   Unobligated balance: Apportioned – Adjustment #5                                0.1

Total Status of Budgetary Resources                          $                   (1.3)

Change in Obligated Balance:

   Obligations Incurred – Adjustment #1                      $                   (1.3)

   Obligations Incurred – Adjustment #5                                          (0.1)

   Less: Gross Outlays – Adjustment #1                                             1.3

   Unpaid Obligations – Adjustment #5                                            (0.1)

Net Outlays:

Gross Outlays – Adjustment #1                                $                   (1.3)




                                                                 Financial Information
                                                       121
Department of Defense Agency Financial Report for FY 2010


Required Supplementary Stewardship Information
Federal financial reporting requires DoD to report on its stewardship over certain resources that
cannot be measured in traditional financial reports. These resources do not meet the criteria for
assets and liabilities required to be reported in the financial statements, but are important to
understand the operations and financial condition of DoD at the date of the financial statements
and in subsequent periods.
The Department’s stewardship investments are comprised of, and are measured in terms of,
expenses incurred for: 1) federally-financed, but not federally-owned, physical property
(Nonfederal Physical Property); and 2) federally-financed research and development (Research
and Development (R&D)). Information on additional reporting requirements for Nonfederal
Physical Property and R&D follows.
NONFEDERAL PHYSICAL PROPERTY
The Nonfederal Physical Property investments support the purchase, construction, or major
renovation of physical property owned by state and local governments. In addition, Nonfederal
Physical Property investments include federally-owned physical property transferred to state
and local governments.
 Nonfederal Physical Property
 Department of Defense Consolidated — Nonfederal Physical Property
 Yearly Investments in State and Local Governments
 For Fiscal Years 2010 through 2006                                                             Dollars in Millions
              Categories                               2010        2009       2008       FY 2007       FY 2006
 Transferred Assets:
    National Defense Mission Related                 $ 2,126.2   $ 1,224.7   $ 1,169.2   $ 1,051.0    $ 1,295.5
 Funded Assets:
     National Defense Mission Related                      0.0        26.7        19.6         2.8          8.5
 Total                                               $ 2,126.2   $ 1,251.4   $ 1,188.8   $ 1,053.8    $ 1,304.0

INVESTMENTS IN RESEARCH AND DEVELOPMENT
Investment values included in this report are based on R&D expenses. The R&D programs are
classified in the following categories: Basic Research, Applied Research, and Development.
The amounts reported in the Investments in R&D table show outlays from FY 2006 – FY 2010
for all DoD Components. The definition for each type of R&D Category and Subcategories are
explained below.
Basic Research is the systematic study to gain knowledge or understanding of the fundamental
aspects of phenomena and of observable facts without specific applications, processes, or
products in mind. Basic Research involves the gathering of a fuller knowledge or understanding
of the subject under study. Major outputs are scientific studies and research papers.
Applied Research is the systematic study to gain knowledge or understanding necessary for
determining the means by which a recognized and specific need may be met. It is the practical
application of such knowledge or understanding for the purpose of meeting a recognized need.
This research points toward specific military needs with a view toward developing and
evaluating the feasibility and practicability of proposed solutions and determining their
parameters. Major outputs are scientific studies, investigations, and research papers, hardware
components, software codes, and limited construction of, or part of, a weapon system, to
include non-system-specific development efforts.
                                                                                         Financial Information
                                                           122
Department of Defense Agency Financial Report for FY 2010

Development takes what has been discovered or learned from basic and applied research and
uses it to establish technological feasibility, assessment of operability, and production capability.
Development consists of the five stages defined in the Investments in R&D table.
Advanced Technology Development is the systematic use of the knowledge or understanding
gained from research and directed toward proof of technological feasibility and assessment of
producibility rather than directed toward the development of hardware for service use. It
employs demonstration activities intended to prove or test a technology or method.
Advanced Component Development and Prototypes evaluates integrated technologies in an
operating environment as realistic as possible to assess the performance or cost reduction
potential of advanced technology. Programs in this phase are generally system specific. Major
outputs of Advanced Component Development and Prototypes are hardware and software
components and complete weapon systems ready for operational and developmental testing
and field use.
System Development and Demonstration concludes the program or project and prepares it for
production. It consists primarily of preproduction efforts, such as logistics and repair studies.
Major outputs are weapons systems finalized for complete operational and developmental
testing.
Research, Development, Test, and Evaluation Management Support is support for installations
and operations for general research and development use. This category includes costs
associated with test ranges, military construction maintenance support for laboratories,
operation and maintenance of test aircraft and ships, and studies and analyses in support of the
Research and Development program.
Operational Systems Development is concerned with development projects in support of
programs or upgrades still in engineering and manufacturing development stages which have
received approval for production and production funds have been budgeted in subsequent fiscal
years.
 Investments in Research and Development (R&D)
 Department of Defense Consolidated
 Yearly Investments in Research and Development
 For the Current and Four Preceding Fiscal Years                                        Dollars in Millions
        Categories                   2010          2009        2008        2007               2006
 Basic Research                     $ 1,805.5       $ 821.0    $ 1,346.4   $ 1,445.7          $ 1,408.5
 Applied Research                      4,927.0       1,944.0     3,812.3     4,647.1             4,756.9
 Development
      Advanced Technology
                                       6,353.4       2,263.2     5,977.9     6,019.7             5,737.4
      Development
      Advanced Component
      Development and                 14,304.6      12,148.3    15,410.6    14,109.6            11,906.9
      Prototypes
      System Development
                                      15,156.7      21,501.9    18,052.9    16,737.8            13,209.8
      and Demonstration
      Research,
      Development, Test
                                       5,503.6       5,141.3     5,471.0     4,705.4             3,736.0
      and Evaluation
      Management Support
      Operational Systems
                                      23,986.2      42,450.6    20,246.7    13,535.1             5,509.8
      Development
 Totals:                            $72,037.0      $86,270.3   $70,317.8   $61,200.4          $46,265.3

                                                                                  Financial Information
                                                       123
Department of Defense Agency Financial Report for FY 2010


Required Supplementary Information
REAL PROPERTY DEFERRED MAINTENANCE
This section includes the deferred maintenance information and Statement of Disaggregated
Budgetary Resources.
 Real Property Deferred Maintenance and Repair
 For Fiscal Year Ended September 30, 2010                                                       Dollars in Millions
                                                               Current Fiscal Year (CFY)
              Property Type                   1. Plant           2. Required Work           3. Percentage
                                            Replacement        (Deferred Maintenance
                                               Value                  & Repair)
     1. Category 1                                 $490,578                    $92,502                          19%
     2. Category 2                                   $40,564                   $11,801                          29%
     3. Category 3                                   $10,727                    $1,031                          10%

The deferred maintenance amount is based on facility Q-ratings found in the Department’s real
property inventory. Q-ratings represent work needed to bring a facility to a fully serviceable
condition with no repair needs. The reported deferred maintenance is the difference between
the facility Q-rating and the target Q-rating that represents the acceptable operating condition
established by each Component within the Department. The percentage column reflects the
percent of total plant replacement value for each category represented by deferred maintenance.
Facility Categories are as follows:
   Category 1: Buildings, Structures, and Utilities that are enduring and required to support an
   ongoing mission, including multi-use Heritage Assets.
   Category 2: Buildings, Structures, and Utilities that are excess to requirements or planned
   for replacement or disposal, including multi-use Heritage Assets.
   Category 3: Buildings, Structures, and Utilities that are Heritage Assets.

MILITARY EQUIPMENT DEFERRED MAINTENANCE
Depot maintenance requirements for military equipment are developed during the annual
budget process. The table below shows the deferred unfunded requirements for the depot
maintenance program.
Military Equipment Deferred Maintenance
For Fiscal Year Ended September 30, 2010                                                   Dollars in Million

Major Categories                                                                           Amounts
1. Aircraft                                                                                  $2,032.1
2. Automotive Equipment                                                                        $226.9
3. Combat Vehicles                                                                             $410.0
4. Construction Equipment                                                                       $65.9
5. Electronics and Communications Systems                                                      $927.7
6. Missiles                                                                                    $279.4
7. Ships                                                                                        $85.2
8. Ordnance Weapons and Munitions                                                              $153.2
9. General Purpose Equipment                                                                    $93.8
10. All Other Items Not Identified to above Categories                                         $151.4
Total                                                                                        $4,425.6

                                                                                     Financial Information
                                                         124
Department of Defense Agency Financial Report for FY 2010

                                                                                                                                          2010
Statement Of Disaggregated Budgetary Resources
                                                                                                 Research,
For the Years Ended September 30, 2010 and 2009                                                 Development,     Family Housing          Military                             Operations,
Dollars in Millions                                      Military                                 Test and          /Military           Retirement                           Readiness, &         2010            2009
                                                        Personnel           Procurement          Evaluation       Construction           Benefits        Civil Works           Support          Combined        Combined
Budgetary Financing Account
Budgetary Resources
Unobligated balance, brought forward, October 1         $         1,793.3   $        65,091.5      $ 14,808.0        $ 15,212.0                  $ 0.0     $     17,344.6    $      31,791.6     $ 146,041.0    $ 134,381.8
Recoveries of prior year unpaid obligations                       8,388.5             8,415.8          4,198.0             3,511.5                 0.0               40.1           30,147.3        54,701.2        63,272.9
Budget authority

 Appropriation                                                  151,763.5           125,850.3         77,262.6            15,316.7          119,894.5             6,558.2          402,632.6       899,278.4       855,564.3
 Contract authority                                                   0.0                 0.0              0.0                   0.0               0.0                0.0           73,059.7        73,059.7        67,626.3
 Spending authority from offsetting collections

   Earned

    Collected                                                     1,081.4             3,322.6          9,862.4             7,721.2                 0.0           10,201.9          152,279.1       184,468.6       178,143.5
    Change in receivables from Federal sources                     112.1               410.0           (499.4)                 (51.1)              0.0                4.4             (326.9)         (350.9)        1,188.9
   Change in unfilled customer orders

     Advance received                                               (0.1)              (10.5)           (48.4)                 (50.8)              0.0               62.2              (34.3)          (81.9)        1,030.8
     Without advance from Federal sources                             5.0              (24.3)           228.7              1,085.6                 0.0             (192.4)           1,313.1          2,415.7          (88.3)
   Expenditure transfers from trust funds                             0.0                 0.0              0.0                   0.0               0.0              851.0                0.0           851.0           862.5
   Subtotal                                                     152,961.9           129,548.1         86,805.9            24,021.6          119,894.5            17,845.3          628,923.3      1,159,640.6    1,104,328.0
Nonexpenditure transfers, net, anticipated and actual             1,469.1             8,728.6           351.4              (570.5)                 0.0              183.6           (9,358.9)          803.3           (15.7)
Temporarily not available pursuant to Public Law                      0.0                 0.0              0.0                   0.0        (60,175.6)                0.0             (153.1)      (60,328.7)      (39,190.4)
Permanently not available                                         (256.1)           (3,073.4)        (1,685.4)            (1,461.8)                0.0               (8.0)         (81,395.9)      (87,880.6)      (85,969.3)
Total Budgetary Resources                                   $   164,356.7       $   208,710.6     $ 104,477.9        $    40,712.8        $ 59,718.9           $ 35,045.6        $ 599,954.3    $ 1,212,976.8   $ 1,176,807.3




                                                                                                                                                                                                                          Financial Information
                                                                                                                         125
Department of Defense Agency Financial Report for FY 2010

                                                                                                                                2010
Status Of Budgetary Resources
                                                                                           Research,           Family
For the Years Ended September 30, 2010 and 2009
                                                                                          Development,        Housing          Military                           Operations,                        2009
                         Dollars in Millions       Military                                 Test and          /Military       Retirement                          Readiness &        2010          Combined
                                                  Personnel           Procurement          Evaluation       Construction       Benefits        Civil Works          Support        Combined          AFR
Obligations incurred:
 Direct                                           $       161,600.8        $ 125,706.2       $ 78,044.3         $ 14,192.9      $ 59,719.0          $ 13,114.0      $ 405,270.4     $ 857,647.6     $ 847,069.9

 Reimbursable                                               1,213.9            3,714.4          10,482.2          10,826.4              0.0           10,862.5        158,281.2       195,380.6       183,695.8

 Subtotal                                                 162,814.7          129,420.6          88,526.5          25,019.3         59,719.0           23,976.5        563,551.6      1,053,028.2     1,030,765.7

Unobligated balance:

 Apportioned                                                 523.2            76,841.0          14,466.3          15,222.8              0.0           10,038.5         20,498.0       137,589.8       128,132.0

 Exempt from apportionment                                      0.0                0.0               0.0               0.0              0.0            1,030.6          5,141.4          6,172.0         3,374.0

 Subtotal                                                    523.2            76,841.0          14,466.3          15,222.8              0.0           11,431.9         25,639.4       143,761.8       131,506.0

Unobligated balance not available                           1,018.7            2,449.0           1,485.0             470.8              0.0                0.0         10,763.3        16,186.8        14,535.6

Total status of budgetary resources                       164,356.6          208,710.6         104,477.8          40,712.9         59,719.0           35,045.6        599,954.4      1,212,976.8     1,176,807.3

Change in Obligated Balance:

Obligated balance, net

 Unpaid obligations, brought forward, October 1       $     9,482.2    $     153,616.0       $ 42,679.2        $ 26,257.9        $ 3,871.9          $ 11,299.6      $ 206,751.9     $ 453,958.7     $ 432,118.5
 Less: Uncollected customer payments from
                                                                9.1           (3,980.1)         (5,143.9)         (9,411.9)             0.0           (3,253.3)       (45,922.2)      (67,702.3)      (66,602.2)
 Federal sources, brought forward, October 1
 Total unpaid obligated balance                        $ 9,491.3           $ 149,635.9       $ 37,535.3        $ 16,846.0         $ 3,871.9          $ 8,046.3      $ 160,829.7     $ 386,256.4     $ 365,516.3
Obligations incurred net                                  162,814.7          129,420.6          88,526.5          25,019.3         59,719.0           23,976.6        563,551.5      1,053,028.2     1,030,765.7
Less: Gross outlays                                   (152,257.3)           (133,280.6)        (82,872.0)        (19,802.3)       (59,014.1)         (22,101.4)      (524,337.0)     (993,664.7)     (945,652.5)
Obligated balance transferred, net                              0.0                 0.0              0.0               0.0              0.0                0.0               0.0             0.0             0.0
Less: Recoveries of prior year unpaid
                                                          (8,388.5)           (8,415.8)         (4,198.0)         (3,511.5)             0.0              (40.1)       (30,147.3)      (54,701.2)      (63,272.9)
obligations, actual
Change in uncollected customer payments
                                                            (117.1)             (385.7)            270.8          (1,034.5)             0.0              187.9           (986.1)       (2,064.7)       (1,100.5)
from Federal sources
Obligated balance, net, end of period
 Unpaid obligations                                        11,651.1          141,340.2          44,135.7          27,963.3          4,576.9           13,134.6        215,819.2       458,621.0       453,958.8

 Less: Uncollected customer payments
                                                            (107.9)           (4,365.8)         (4,873.1)        (10,446.4)             0.0                           (46,908.4)      (69,767.0)      (67,702.7)
 (+/-) from Federal sources                                                                                                                           (3,065.4)
 Total, unpaid obligated balance, net,
                                                      $ 11,543.2           $ 136,974.4       $ 39,262.6        $ 17,516.9        $ 4,576.9      $     10,069.2      $ 168,910.8     $ 388,854.0     $ 386,256.1
 end of period
Net
Net Outlays:
 Gross outlays                                     $ 152,257.3             $ 133,280.6       $ 82,872.0        $ 19,802.3       $ 59,014.1          $ 22,101.4      $ 524,337.0     $ 993,664.7     $ 945,652.5
 Less: Offsetting collections                             (1,081.3)           (3,312.1)         (9,814.0)         (7,670.4)             0.0          (11,115.1)      (152,244.9)     (185,237.8)     (180,036.9)
 Less: Distributed Offsetting receipts                          0.0                 0.0              0.0               0.0        (73,739.4)          (1,071.5)        (2,911.3)      (77,722.2)      (65,912.1)
 Net Outlays                                       $ 151,176.0             $ 129,968.5       $ 73,058.0        $ 12,131.9      $ (14,725.3)          $ 9,914.8      $ 369,180.8     $ 730,704.7     $ 699,703.5




                                                                                                                                                                                                              Financial Information
                                                                                                                 126
Department of Defense Agency Financial Report for FY 2010

Combined Statement Of Budgetary                                  Non Budgetary
Resources
For the Years Ended September 30, 2010 and 2009
                                                  Other          2010 Combined        2009 Combined
Dollars in Millions
Non Budgetary Financing Accounts
Budgetary Resources
Unobligated balance, brought forward, October 1     $     23.6           $    23.6            $ 26.3
Recoveries of prior year unpaid obligations                0.0                 0.0              47.5
Budget authority

 Borrowing authority                                      26.8                26.8              58.4
 Spending authority from offsetting collections

  Earned

   Collected                                              69.6                69.6              45.1
  Change in unfilled customer orders

    Without advance from Federal sources                (34.9)               (34.9)            (10.8)
   Subtotal                                               61.5                61.5              92.7
Permanently not available                               (13.9)               (13.9)             (0.1)
Total Budgetary Resources                           $     71.2           $    71.2           $ 166.4




                                                                                 Financial Information
                                                  127
Department of Defense Agency Financial Report for FY 2010


Statement of Disaggregated                                   Non Budgetary
Budgetary Resources
For the Years Ended September 30, 2010
and 2009                                           Other     2010 Combined       2009 Combined
Dollars in Millions
Non Budgetary Financing Accounts
Obligations incurred:
 Direct                                        $     46.3       $     46.3           $ 142.7
 Subtotal                                      $     46.3       $     46.3           $ 142.7
Unobligated balance:
 Apportioned                                         24.8             24.8                0.3
 Subtotal                                            24.8             24.8                0.3
Unobligated balance not available                      0.1              0.1              23.4
Total status of budgetary resources                $ 71.2           $ 71.2            $ 166.4
Change in Obligated Balance:
Obligated balance, net
 Unpaid obligations, brought forward,
 October 1                                         $ 770.4          $ 770.4           $ 872.9
 Less: Uncollected customer payments from
 Federal sources, brought forward, October 1       (132.2)          (132.2)            (143.0)
 Total unpaid obligated balance                    $ 638.2          $ 638.2           $ 729.9
Obligations incurred net                             46.3             46.3              142.7
Less: Gross outlays                                (197.3)          (197.3)            (197.7)
Less: Recoveries of prior year unpaid
obligations, actual                                    0.0              0.0             (47.5)
Change in uncollected customer payments
from Federal sources                                 34.9             34.9               10.8
Obligated balance, net, end of period
 Unpaid obligations                                 619.4            619.4              770.4
 Less: Uncollected customer payments
 (+/-) from Federal sources                         (97.3)           (97.3)            (132.2)
 Total, unpaid obligated balance, net, end
                                               $ 522.1           $ 522.1              $ 638.2
 of period
Net
Net Outlays:
 Gross outlays                                 $ 197.7           $ 197.7              $ 197.7
 Less: Offsetting collections                       (69.6)           (69.6)             (45.1)
 Net Outlays                                   $ 127.7           $ 127.7              $ 152.6




                                                                              Financial Information
                                                    128
                                     APPENDIX A: GLOSSARY
        Acronym                 Definition                            Acronym                 Definition
 AFR              Agency Financial Report                       MDAP            Major Defense Acquisition Programs
 ANA              Afghan National Army                          MHS             Military Health System
 ANP              Afghan National Police                        MICP            Managers’ Internal Control Program
 ANSF             Afghan National Security Forces               NATO            North Atlantic Treaty Organization
 ARRA             American Recovery and Reinvestment            NDAA            National Defense Authorization Act
                  Act
                                                                OCO             Overseas Contingency Operations
 BEA              Business Enterprise Architecture
                                                                OEF             Operation Enduring Freedom
 BRAC             Base Realignment and Closure
                                                                OIF             Operation Iraqi Freedom
 CFO              Chief Financial Officer
                                                                DOD IG          Office of Inspector General
 CMO              Chief Management Officer
                                                                OMB             Office of Management and Budget
 COCOM            Combatant Command
                                                                OND             Operation New Dawn
 COR              Contracting Officer Representative
                                                                PCS             Permanent Change of Station
 DAAC             DoD Audit Advisory Committee
                                                                QDR             Quadrennial Defense Review
 DBSMC            Defense Business Systems
                  Management Committee                          SBR             Statement of Budgetary Resources

 DCMO             Deputy Chief Management Officer               SEAL            Sea, Air and Land Teams

 DFAS             Defense Finance and Accounting                SECDEF          Secretary of Defense
                  Service                                       TDY             Temporary Duty
 DLA              Defense Logistics Agency                      USACE           U.S. Army Corps of Engineers
 DoD              Department of Defense                         USD(C)          Under Secretary of Defense
 DIB              Defense Industrial Board                                      (Comptroller)

 DTM              Directive-Type Memorandum                     USSOUTHCOM      U.S. Southern Command

 EHR              Electronic Health Record                      VLER            Virtual Lifetime Electronic Record

 ERP              Enterprise Resource Planning                                  Weapon of Mass Destruction

 FBWT             Fund Balance With Treasury
 FFMIA            Federal Financial Management
                  Improvement Act
 FIAR             Financial Improvement and Audit
                  Readiness
 FIPS             Federal Information Processing
                  Standard
 FMFIA            Federal Managers’ Financial Integrity
                  Act
 FY               Fiscal Year
 GAAP             Generally Accepted Accounting
                  Principles
 GAO              Government Accountability
                  Office
 GPRA             Government Performance and Results
                  Act
 HUMINT           Human Intelligence
 IPIA             Improper Payment Information Act
 ISF              Iraqi Security Forces
 IT               Information Technology
 JCC              Joint Contracting Command


APPENDIX A                                                                                                    Glossary
                                                          129
Department of Defense Agency Financial Report 2010



    APPENDIX B: USEFUL WEB SITES FOR RELEVANT INFORMATION
                          Web Address and Report Description
 www.defenselink.mil
         Main DoD Web site, and links to other DoD Web sites.
 www.defenselink.mil/comptroller
     The DoD Comptroller Web site includes:
         Agency Financial Report
         Reports DoD’s financial condition, financial execution, plans, and
         accomplishments.
         Annual Performance Plan
         Describes DoD’s strategic goals and objectives and the respective performance
         measures and targets used to assess progress.
         Annual Performance Report
         Contains details of DoD’s performance results and progress in achieving its
         strategic goals as required by the Government Performance and Results Act
         (GPRA).
         Citizen’s Report
         Summarizes DoD’s mission, key goals, budget allocation, and progress on key
         performance goals linking to the strategic goals.
         Congressional Budget Justification
         The Department of Defense’s budget request to the Congress.
         Financial Improvement and Audit Readiness Plan
         Describes DoD’s strategy for improving financial management and reports progress
         in achieving financial statement audit readiness.
 www.bta.mil
     The DoD’s Business Transformation Agency Web site includes:
         Business Enterprise Architecture
         Blueprints DoD standard processes, data, data standards, business rules,
         operating requirements, and information exchanges for the Department’s business
         and financial management activities.
         Enterprise Transition Plan
         Sets the defense business systems modernization strategy and defines the target
         systems environment.
 www.defenselink.mil/qdr/report/Report20060203.pdf
         Quadrennial Defense Review
         Dated February 1, 2010, provides DoD’s strategic plan.




APPENDIX B                                          Useful Web Sites for Relevant Information
                                           130
Contributors to the
Fiscal Year 2010 Agency Financial Report
In addition to the significant 
contributions of the 
individuals listed below, 
hundreds of individuals in the 
Office of the Secretary of 
Defense and the Military 
Services contributed to the 
development of this Agency 
Financial Report




                                  Anitra Akanbi      Audrey Davis       Lori Johns         Tony Poleo           Sylvia Taylor‐Porter
                                  Becky Allen        Pat Dees           Brad Kennedy       Joseph Quinn         David Thomas
                                  Crystal Allen      Sharon DePrato     Tammy Kicas        Robert Rainey        Bob Thompson
                                  Christina Anctil   Joseph Doyle       Elaine Kingston    David Ramseyer       Jeanne Tran
                                  Phillip Anderson   Mark Easton        Mary Kohlmeier     Alice Rice           Kelly Wagenmaker
                                  Iman Aquil         Eric               William Lehr       Elizabeth Ridge      Michael Walsh
                                  John Argodale      Engelbrektsson     David Martin       Joie Ritchie         LT COL Lester Weilacher
                                  Lauren Bands       Maryla Engelking   COL David Mason    Javier Rivera        Martha Welch
                                  Corey Beckett      Teri Escalante     Rhonda Meade       Terry Roberts        Keith Welk
                                  Sally Beecroft     Dorothy Ferguson   Michael McCord     Brian Romberger      James Williams
                                  Marc Brito         Bobbie Fife        CAPT David         Helen Rosen          Dwight Young
                                  Michael Bryant     David Fisher       McFarland          John Ruoff           Document Automation 
                                  Mark Burns         Jodie Fisher       Wesley Miller      Carrie Shell         & Production Service (DAPS)
                                  Carol Campbell     Virginia Fortune   Kira Mingua        Jean Shepherd
                                  Fred Carr          Kyle Fugate        Jason Monday       Robert Silverstein
                                  Ann Cataldo        Greg Galusha       Lydia Moschkin     Joel Sitrin
                                  Joan Causey        Linda Gileau       Robert Moss        Alfonza Smith
                                  Sharon Cave        Kathryn Gillis     Carolyn Napper     Ebony Smith
                                  Anthony Chavez     Donjette Gilmore   Elise Newton       Jennifer Smith
                                  Chun‐I Chiang      Carlos Glover      Brook Moore        Robert F. Smith
                                  Jocelyn Conway     Phillip Graham     Lydia Moschkin     Wanda Smith
                                  Carmen Covey       David Gross        Karen Opie‐Toler   Timothy Soltis
                                  Donna Cox          Robert Hale        Sandra Paylor‐     Jimaye Sones
                                  Nick Crabtree      Bill Hawbecker     Sanders            Caral Spangler
                                  Barbara Crawford   Scott Henderson    Carol Phillips     Sandra Stockel
                                  Victoria Crouse    Beth Hetman        Tony Poleo         Brent Stevenson
                                  Karen Cwiekalo     Timothy Hippely    Joseph Quinn       Kathy Street
                                  Gerald Davenport   Mark Hoffman       Robert Rainey      Dennis Taitano
      WELCOME TO THE
   DEPARTMENT OF DEFENSE
          We are interested in your feedback
         regarding the content of this report.

       Please feel free to send your comments
        or requests for copies of this report to

                  DoDAFR@osd.mil 
                          or
         United States Department of Defense
Office of the Under Secretary of Defense (Comptroller)
                1100 Defense Pentagon
              Washington, DC 20301‐1100
        You may also view this document at:
        www.defenselink.mil/comptroller/afr
